<html>
<title> - NOMINATION OF THOMAS E. WHEELER TO BE CHAIRMAN OF THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[Senate Hearing 113-665]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-665
 
                    NOMINATION OF THOMAS E. WHEELER
                         TO BE CHAIRMAN OF THE
                   FEDERAL COMMUNICATIONS COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 18, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                             U.S. GOVERNMENT PUBLISHING OFFICE
     95-255 PDF                     WASHINGTON : 2015             
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001








                             
                             
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
WILLIAM COWAN, Massachusetts         RON JOHNSON, Wisconsin
                                     JEFF CHIESA, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
   
   
   
   
   
   
   
   
                                (II)
   
   
   
   
   
   
   
   
   
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 18, 2013....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Thune.......................................     3
Statement of Senator Blunt.......................................    19
Statement of Senator Fischer.....................................    21
Statement of Senator Begich......................................    23
Statement of Senator Nelson......................................    26
Statement of Senator Ayotte......................................    27
Statement of Senator Klobuchar...................................    28
Statement of Senator Heller......................................    31
Statement of Senator Cruz........................................    33
Statement of Senator Coats.......................................    36
Statement of Senator Blumenthal..................................    37
Statement of Senator Scott.......................................    39
Statement of Senator Cantwell....................................    41

                               Witnesses

Thomas E. Wheeler, Nominee to be Chairman, Federal Communications 
  Commission (FCC)...............................................     5
    Prepared statement...........................................     7
    Biographical information.....................................     8

                                Appendix

Response to written questions submitted to Thomas E. Wheeler by:
    Hon. John D. Rockefeller IV..................................    47
    Hon. Barbara Boxer...........................................    49
    Hon. Mark Pryor..............................................    52
    Hon. Claire McCaskill........................................    53
    Hon. Mark Warner.............................................    55
    Hon. Mark Begich.............................................    56
    Hon. Brian Schatz............................................    57
    Hon. William Cowan...........................................    58
    Hon. John Thune..............................................    59
    Hon. Roger F. Wicker.........................................    64
    Hon. Roy Blunt...............................................    65
    Hon. Marco Rubio.............................................    68
    Hon. Kelly Ayotte............................................    70
    Hon. Dean Heller.............................................    72
    Hon. Dan Coats...............................................    73
    Hon. Ted Cruz................................................    75
    Hon. Jeff Chiesa.............................................    75


                    NOMINATION OF THOMAS E. WHEELER



                         TO BE CHAIRMAN OF THE



                   FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                         TUESDAY, JUNE 18, 2013

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m., in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. This hearing will come to order.
    Mr. Wheeler, if confirmed, you will lead an agency that has 
the most challenging and complicated issues pending since the 
Telecommunications Act of 1934. I don't say this lightly. The 
decisions the Federal Communications--FCC makes under your 
leadership, should you be confirmed--and then I'll stop saying 
that--the future of the Nation's telephone network, public 
safety, the wireless industry, broadcasting, the Internet, and 
consumer protection are at stake for years to come.
    Of all the pending issues before the Commission, the 
current proceeding, and one future rulemaking, are of utmost 
importance to me, personally. The incentive auction proceeding 
will now create the revenues to fund a nationwide interoperable 
public safety network. I feel strongly about this, and I have 
ever since September 11, 2001; and before that, really, when we 
went into Kuwait and none of the branches of the service could 
talk to each other. It's a mammoth undertaking, and I 
understand that.
    The E-Rate program has connected millions of schoolchildren 
to the Internet, exposing them to the transformational power of 
information in extraordinary ways, not all of which are very 
helpful, from distracted driving to the moral character of our 
future generations.
    As I called for several months, and the President, more 
importantly, said in his recent remarks in North Carolina, the 
FCC can help make sure that our schools and libraries can meet 
the data and connectivity needs necessary for today and for the 
future. Updating the E-Rate program to meet the needs of the 
21st century is necessary for our children and our national 
competitiveness.
    Seeing the combination of these two initiatives as my 
highest priority, obviously I hope it will be yours as well, 
too. Too much is at stake in these proceedings not to get them 
right.
    If the sheer magnitude and complexity of these issues were 
not enough, you face an agency that has become increasingly 
polarized and politicized. Some even question its relevance in 
a digital age, but I think the agency is more relevant and 
important than ever.
    At its core, the FCC is a regulatory agency; the 1934 
Communications Act so said. I believe that too many have 
forgotten that the agency's fundamental responsibility is the 
regulation of communications networks. These regulations serve 
important policy goals. You cannot have universal service 
without regulation. You cannot ensure competition without 
regulation. You cannot have consumer protection without 
regulation.
    Let me be clear. Even as communications networks evolve and 
technology advances, the FCC's mission does not. The rules and 
regulations that we have in place now may not be the rules that 
we need for the future. But, that certainly does not mean that 
we should not have any, as so many in the industry seem to 
advocate, and some of our colleagues do also.
    I think we can all agree that the rules the agency need to 
adapt, should conditions change, evolve, so that every 
American, no matter where, has access to broadband. That's so 
easily said, and so easily avoided by all forms of those 
undertaking it. Promises made, promises not kept. That's the 
pattern that I have found, and I'm sure--no, I can't speak for 
Senator Thune, but any rural state finds that there's a deficit 
of attention.
    The rules the agency needs to adopt should guarantee that 
every child in America can harness the power of the Internet, 
and to do it safely. The rules the agency needs to adopt should 
empower consumers with the information they need to make 
informed choices. The rules the agency needs to adopt should 
continue to create the conditions for job creation, innovation, 
and investment.
    The FCC, under the leadership of Chairman Genachowski, made 
progress on achieving these goals, but an awful lot of work 
remains to be done. New challenges will emerge. As I advised 
Chairman Genachowski, the FCC Chairman must be more than the 
arbiter of industry interests. And they're very, very effective 
in making their cases, exclusively for them, not necessarily 
looking at the broader good.
    Bottom line--characteristic truism, long history--you must 
use the vast statutory authority to advocate for the public 
interest--1934 Communications Act--all--and the consumer, also 
the parent and the student, all those without an army of 
advocates to lobby on their behalf. We are consumed about--
here, about people that come to visit us representing wireless 
this and wireless that, and what about white spaces, and what 
about, you know, megahertz band, whatever. And that's fine, 
because they're a big part of the puzzle. But, what is the 
goal? The goal is to provide access for, and protection to, the 
people who use this and those who are not using it who should 
be using it, in my judgment.
    You will bring to the job a long history and distinguished 
career in the communications industry. As a pioneer in the 
cable and wireless industries, you have been instrumental in 
the growth of both of these critical sectors. As an 
entrepreneur, you have built businesses and created jobs. Most 
importantly, you understand the power of technology, how it has 
already transformed our lives and how it will continue to do so 
each day.
    In closing, your career is one of innovation, leadership, 
and public service. I believe that, as chair of the FCC, you 
can use your experience and skills to harness the vast, vast 
power of the FCC--not shy away from it, but harness it. Use it. 
Use it to spur universal deployment of advanced technologies, 
foster growth and innovation, and protect consumers.
    Thank you.
    The distinguished Ranking Member.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Chairman Rockefeller.
    Mr. Wheeler, I want to thank you for your interest to serve 
as the next Chairman of the Federal Communications Commission 
and to bring your considerable experience to the agency.
    We're in the midst of a technological revolution that holds 
great promise to improve the lives of all Americans. 
Advancements seem to be moving faster than ever before, and 
they're finding their ways into the hands of consumers more 
quickly and in larger numbers every day.
    Today, grandparents who live thousands of miles away can 
see their grandkids grow up, due to the Internet and video 
applications. Small business owners in places like South Dakota 
use smart devices to run their companies and have access to 
technology that, previously, only the world's largest 
corporations could use. And doctors are able to diagnose and 
help folks in rural America without patients traveling hundreds 
of miles to see a specialist.
    When we met, last week, we talked a little bit about South 
Dakota. And I, again, want to extend an open invitation to you 
to visit. There's no substitute for seeing, firsthand, the 
challenges of rural communications delivery and the value that 
new technology holds for Americans living in rural states. You 
can also replace the old sign from Wall Drug that you happened 
to come by a few years ago.
    As my colleagues may be aware, you've written, and I quote, 
that ``The Communications Act and its enforcer, the FCC, are 
analog legacies in a digital world,'' end quote. And then you 
went on to say, and I quote again, ``Regulation designed around 
20th century technology and monopoly market structure isn't a 
perfect tool for dealing with distributed digital networks and 
multiple service providers,'' end quote.
    I think that frames our big picture discussion perfectly. 
And coming from someone now aspiring to lead that same legacy 
agency using that same outdated law, it begs several questions:
    The first question is, Will you work with Congress and seek 
to amend the law, where it may be inadequate and outdated? The 
two previous FCC chairmen both chose to intervene in the 
broadband market, based on questionable legal theories rather 
than any clear statutory authority or congressional intent. The 
first attempt was struck down in court, and the second may yet 
meet the same fate. If the Commission loses again, I hope you 
will take a deep breath and come to Congress for legal clarity 
or revision instead of wasting even more public resources on 
regulatory adventuring. I certainly hope that you would also 
refrain from applying the monopoly era Title II common-carriage 
regime to our modern broadband economy.
    Second, will you conduct agency business transparently? 
You've been criticized for suggesting that the FCC use merger 
conditions to create de facto regulation for an entire 
industry, or, at a minimum, underscoring its ability to do so. 
I hope that you understand the anxiety among lawmakers when a 
potential agency chairman, who is tasked with executing the 
law, discusses using a backdoor to imposing a new regulatory 
regime and skirting the regulatory authority issue. Congress 
never intended for the FCC's transaction review authority to be 
used as a backdoor policymaking tool that lacks both 
transparency and judicial review. We already have too many 
Federal agencies carrying out their own agendas and 
overstepping their congressional mandates. We don't need the 
FCC to be another one.
    Third, will you be a visionary? As an industry leader and 
having served on the FCC's Technological Advisory Council, 
you've seen, firsthand, the power and potential of the 
Internet. There's no debate whether our current 
telecommunications laws, whether they were written in 1996, 
1992, or 1934, anticipated a converged world in which American 
consumers can choose from multiple wireline and wireless 
communication substitutes. None of them did. In fact, all of 
our laws deserve to be reviewed and brought into the digital 
all-IP era, reflecting not just today's reality, but also 
allowing for tomorrow's advances.
    Your term at the FCC has the potential to be pivotal one 
for the communications history, and I invite you to share your 
ideas regarding statutory and agency modernization.
    Chairman Rockefeller, I know many members of the Committee 
have already had an opportunity to meet privately with Mr. 
Wheeler, and I know others would like to do so. I also suspect 
there will not be enough time today to address all the 
questions our members may have. So, the record will provide 
another opportunity for them to explore issues important to 
them and their constituents.
    Nevertheless, I appreciate your desire to process Mr. 
Wheeler's nomination in a timely manner in order to get the 
Commission back to its full membership as soon as possible, 
especially given the many critical proceedings before the 
agency. So, I await the President's additional nomination to 
fill the seat previously held by Commissioner McDowell, and I'm 
ready to work with you and our colleagues to move forward both 
nominations in due course.
    Thank you. And I look forward to hearing Mr. Wheeler's 
testimony.
    Thank you, Mr. Chairman.
    The Chairman. Please proceed.
    The little red button.

STATEMENT OF THOMAS E. WHEELER, NOMINEE TO BE CHAIRMAN, FEDERAL 
                COMMUNICATIONS COMMISSION (FCC)

    Mr. Wheeler. First, we start with a technological 
challenge: turn the mic on.
    [Laughter.]
    Mr. Wheeler. Mr. Chairman, Ranking Member Thune, thank you 
very much for the privilege of being before you today. It's an 
honor to be nominated by the President and to be considered by 
this committee for the position of Chairman of the Federal 
Communications Commission.
    As you have both referenced, it has been a privilege to 
meet with many members of this committee over the last few 
weeks. And, if confirmed, I look forward to continuing those 
dialogues, because together, if confirmed, we are working in 
``one of the most'' exciting, if not ``the most'' exciting, 
technological moment in our Nation's history.
    I am blessed to be joined by my family here today, and 
please allow me to introduce them----
    The Chairman. Please.
    Mr. Wheeler.--to you.
    Carol Wheeler is my best friend and the biggest-hearted, 
wisest person I've ever met in my life. And this is a--if 
confirmed, this will be a public service that both of us 
perform.
    The Chairman. This is a very family-friendly observation.
    [Laughter.]
    Mr. Wheeler. Nicole McNamara and Melvin McNamara are the 
parents of Hunter and Schuyler, who appeared on the scene 3 
weeks ago and made us proud grandparents, joining their 2-year-
old, little Melvin McNamara. And, Senator Thune, Melvin, as you 
might gather from his name, is from Ireland, and the other set 
of grandparents communicate with their grandkids, exactly as 
you just said, via Skype and the Internet.
    And Max Wheeler, sitting on the end, is somebody I am 
incredibly proud of. Last month was a big month because Melvin 
and Nicole had twins, and it was also a big month because Max 
graduated from the LIFE program at George Mason University.
    So, this is a team effort, Senator, and I appreciate the 
opportunity to introduce the team to you.
    I am excited by the opportunity for public service. For 
almost 40 years, my professional life has revolved around 
communications technology and its various iterations during 
that period. In the process, I have seen the role that policy 
can play, either as a boon to growth or a break on innovation.
    In 1976, I stepped onto this career path, first as 
Executive Vice President and then CEO of the National Cable 
Television Association. I fought against the FCC's rules 
limiting cable's ability to compete as a new video service. I 
worked for the ability of competitors to bring services into 
the home. And, at NCTA, helped lead the industry to support 
what is today the underpinning of the FCC's jurisdiction over 
cable, the 1984 Cable Act.
    Caught up in the excitement of the dawning Digital Age, I 
became the CEO of NABU, the Home Computer Network, the first 
delivery of high-speed data over cable television lines. 
Unfortunately, it's hard to be the Home Computer Network when 
there are few home computers. And the market forecast did not 
come to pass, and that company went by the wayside. But, I was 
able to continue in the new digital world, including bringing 
to market the first digital video system and the first 
satellite delivery of digital video.
    And then, in 1992, the cellular industry recruited me to 
run CTIA. It was an exciting time as we built markets around 
the new concept of competitive local telecommunication service. 
During my tenure, that competition was expanded by the auctions 
of 1994. Wireless was increasingly used in place of wireline. 
And wireless data turned the phone into a pocket computer. All 
of these developments brought with them new policy challenges.
    What I learned from my business experience will make me a 
better Chairman, should the Senate confirm my nomination. Those 
lessons can be summed up in two concepts:
    The first is that competition is a power unto itself that 
must be encouraged. Competitive markets produce better outcomes 
than regulated or uncompetitive markets. I've seen, firsthand, 
the results of competition. DBS competition spurred cable's 
expansion into digital services. Competitive local exchange 
carriers and cable television provision of Internet access 
spurred telephone companies to expand their digital offerings. 
And the introduction of PCS licensees spurred cellular carriers 
to go digital. I am an unabashed supporter of competition. I 
believe the role of the FCC has evolved from acting in lieu of 
competition to dictate the market to promoting and protecting 
competition, with appropriate oversight, to see that it 
flourishes.
    The second lesson is that, while competition is a basic 
American value, by itself it is not always sufficient to 
protect other basic American values. In the telecommunications 
world, this committee has identified, and the Congress has 
identified, issues that include improving access to broadband 
networks. Universal service is a key tenet of the 
Telecommunication Act. We did it for electricity. We did it for 
phone service. We can do it for broadband.
    This committee has, long and regularly, recognized another 
value, and that is the use of technology to enhance public 
safety and public services. It makes no sense that first 
responders carry their own smartphones because the gear they 
have been issued cannot do what technology otherwise makes 
possible. Likewise, it doesn't make sense that 80 percent of E-
Rate schools report the available bandwidth is below their 
instructional needs.
    Assisting those who are disabled or disadvantaged is 
another American value. This committee's work on the 21st 
Century Communications and Video Accessibility Act is a classic 
example of making sure our values and our technology are in 
sync.
    And, of course, protecting consumers is the heart of the 
congressional instructions in the Telecommunications Act, and 
manifests itself in the half-a-billion--I'm sorry--half-a-
million consumer inquiries and complaints that the Commission 
handles annually.
    It is the fact that our society depends so much on our 
networks that makes the work of the FCC so very important. The 
Commission is ably led by a well-informed and dedicated group 
of commissioners supported by an excellent professional staff. 
Chair Clyburn, Commissioner Rosenworcel, and Commissioner Pai 
are public service exemplars. Should the Senate determine to 
confirm my nomination, my life experience has prepared me to 
participate with these dedicated professionals to carry out the 
intent of Congress in this important area.
    I'm humbled to be before you today. Should you so decide, I 
look forward to the opportunity of working with this committee 
and with each of you to advance the networks and services that 
are defining our tomorrow.
    Thank you, Mr. Chairman.
    [The prepared statement and biographical information of Mr. 
Wheeler follow:]

                Prepared Statement of Thomas E. Wheeler
    Thank you, Chairman Rockefeller and Ranking Member Thune. It is an 
honor to be nominated by the President and to be considered by this 
committee for the position of Chairman of the Federal Communications 
Commission (FCC). It has been a privilege to meet with many of you over 
the last few weeks. If confirmed, I look forward to working with the 
Committee on one of the most dynamic policy environments in our 
nation's history.
    I am excited by the potential for public service. For almost 40 
years my professional life has revolved around new communications 
technology. In the process I have seen the important role that policy 
can play--as either a boon to growth or a brake on innovation.
    In 1976 I stepped on to this career path, first as executive vice 
president, and then CEO of the National Cable Television Association. I 
fought against the FCC's rules limiting cable's ability to compete with 
new video services.
    I worked for the ability of competitors to bring services to into 
the home. And at NCTA, I helped lead the industry to support what is 
today the underpinning of the FCC's jurisdiction over cable, the 1984 
Cable Act.
    Caught up in the excitement of the dawning digital age, I became 
CEO of NABU: The Home Computer Network--the first delivery of high-
speed data over cable lines. Unfortunately, it is hard to be The Home 
Computer Network when there are few home computers. After this 
experience I continued to pursue the new digital world, including 
bringing to market the first digital video system, and the first 
satellite delivery of digital video.
    Then, in 1992 the cellular industry recruited me to run CTIA. It 
was an exciting time as we built markets around the new concept of 
competitive local telecommunications service. During my tenure that 
competition was expanded by the auctions of 1994, wireless was 
increasingly used in place of wireline, and wireless data turned the 
phone into a pocket computer. All of these developments brought with 
them new policy challenges.
    What I have learned from my business experience will make me a 
better chairman, should the Senate confirm my nomination. Those lessons 
can be summed up in two concepts.
    The first is that competition is a power unto itself that must be 
encouraged. Competitive markets produce better outcomes than regulated 
or uncompetitive markets.
    I have seen first-hand the results of competition:

  <bullet> DBS competition spurred cable's expansion into digital 
        services.

  <bullet> Competitive Local Exchange carrier (CLECs) and cable 
        provision of Internet access spurred the telephone companies to 
        expand their digital offerings,

  <bullet> The introduction of PCS licensees spurred cellular carriers 
        to go digital.

    I am an unabashed supporter of competition. I believe the role of 
the FCC has evolved from acting in the absence of competition to 
dictate the market, to promoting and protecting competition with 
appropriate oversight to see that it flourishes.
    Competition is a basic American Value, yet by itself is not always 
sufficient to protect other basic American Values. In the 
telecommunications world the Values Congress has identified include 
improving access to broadband networks. Universal service is a key 
tenet of the Telecommunications Act; we did this for electricity and 
basic telephone service, we can do it for broadband.
    This Committee has long and regularly recognized another Value: the 
use of technology to enhance public safety and public services. It 
makes no sense that first responders carry their own smartphones 
because the gear they've been issued cannot do what technology 
otherwise makes possible. Likewise, it doesn't make sense that 80% of 
e-Rate schools report the available bandwidth is below their 
instructional needs.\1\
---------------------------------------------------------------------------
    \1\ http://www.leadcommission.org/challenge/how-do-we-ensure-every-
student-and-educator-has
-high-speed-connectivity-school-and-home
---------------------------------------------------------------------------
    Assisting those who are disabled or disadvantaged is another 
American Value. This Committee's work on the 21st Century 
Communications and Video Accessibility Act (CCVA) is a classic example 
of making sure our values and our technology stay in synch.
    And, of course, protecting consumers is the heart of the 
Congressional instructions in the Telecommunications Act and manifests 
itself in the half a million consumer inquiries and complaints the 
Commission handles annually.
    It is the fact that our society depends so much on our networks 
that makes the work of the FCC so very important. The Commission is 
ably led by a well-informed and dedicated group of commissioners 
supported by an excellent professional staff. Chair Clyburn, 
Commissioner Rosenworcel and Commissioner Pai are public service 
exemplars. Should the Senate determine to confirm my nomination, my 
life experience has prepared me to participate with these dedicated 
professionals to carry out the intent of the Congress in this important 
area.
    I am humbled to be before you today. Should you so decide, I look 
forward to the opportunity of working with this committee and each of 
you to advance the networks and services that are defining our future.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Thomas Edgar 
Wheeler.
    2. Position to which nominated: Chairman, Federal Communications 
Commission.
    3. Date of Nomination: May 9, 2013.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 1401 I St., NW, Suite 1000, Washington, DC 20005.

    5. Date and Place of Birth: April 5, 1946; Redlands, CA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Carol M. Wheeler, Housewife and volunteer, President, Shiloh 
        Foundation; children: Nicole McNamara, 35; Max Wheeler, 25.

    7. List all college and graduate degrees. Provide year and school 
attended:

        The Ohio State University, BSc Business Administration, 1968 
        (9/64-6/68)

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        The Ohio State University Association, Assistant Director, 6/
        68-6/69 (est).

        Grocery Manufacturers of America: Manager, State Public 
        Affairs; Director, Public Affairs; Vice President, Public 
        Affairs 6/69-6/76 (est).

        National Cable Television Association: Executive Vice 
        President; President/CEO 6/76-9/84 (est).

        NABU: The Home Computer Network: President/CEO 9/84-6/85 (est).

        NuMedia Corporation: President/CEO 6/85-8/87 (est).

        NuCable Resources Corporation: President/CEO 8/87-8/90 (est).

        Washington Communications Consultants (later changed to Media 
        Enterprises Corporation): Sole proprietor 1/81-4/92 (est).

        Cellular Telecommunications & Internet Association: President/
        CEO 6/92-11/04.

        Shiloh Group, LLC: Sole proprietor 11/04 to present.

        Core Capital Partners: Managing Director 1/05 to present.

    9. Attach a copy of your resume.
    See Attachment A.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.

        Board of Trustees, John F. Kennedy Center for the Performing 
        Arts, 1/95-9/06.

        John Glenn School of Public Affairs, The Ohio State University, 
        Advisory Board Member, 1/04 to present.

        2008 Obama-Biden Transition Team, Working Group Head for 
        Science, Technology, Space and the Arts, 8/09-11/09.

        FCC Technological Advisory Council, Chairman, 1/11 to present.

        State Department Advisory Committee on International 
        Communications and Information Policy, Chairman, 1/11 to 
        present.

        President's Intelligence Advisory Board 4/11 to present.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

        John F. Kennedy Center for the Performing Arts, Trustee, 1/95-
        9/06.

        SmartBrief, Inc., Co-founder and Chairman, 3/00 to present

        Foundation for the National Archives, Chairman and Board 
        Member, 1/02 to present.

        EarthLink Corp., Board of Directors, 7/03 to present.

        Impatica, Inc., Board Member, 2/04-11/08.

        Shiloh Group, LLC, Owner, 11/04 to present.

        Shiloh Foundation, Vice President, 11/04 to present.
        Core Capital Partners, Partner, 1/05 to present.

        VSArts, Chairman and Board Member, 9/06-4/10.

        GSMA, Ltd., Board of Directors, 10/06 to present.

        Roundbox, Inc., Board Member, 1/06 to present.

        UpdateLogic, Board Member, 2/06-1/12.

        Twisted Pair Solutions, Board Member, 9/06 to present.

        LimeLife, Inc., Board Member, 3/07-6/10.

        Samsung Corp., Advisory Board Member, 3/07-3/10.

        Jacked, Inc., Board Member, 4/07-5/10.

        Capitol Acquisition Corp., Advisor, 10/07-10/09.

        MoBo Systems, Board Member, 4/08 to present.

        Gettysburg National Battlefield Foundation, Board Member, 6/09 
        6/10.

        Transaction Network Services, Board of Directors, 12/09-2/13.

        United Nations Foundation mHealth Alliance, Chairman and Board 
        Member, 
        5/10 to present.

        FCC Technological Advisory Council, Chairman, 1/11 to present.

        NTT DoCoMo, U.S. Advisory Board, Chairman, 1/11 to present.

        State Department Advisory Committee on International 
        Communications & Information, Chairman, 1/11 to present.

        President's Intelligence Advisory Board Member, 4/11 to 
        present.

        GSMA Mobile for Development Foundation, Board of Directors, 1/
        13 to present.

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        John F. Kennedy Center for the Performing Arts, Trustee, 1/95-
        9/06.

        SmartBrief, Inc., Co-founder and Chairman, 3/00 to present.

        Foundation for the National Archives, Chairman and Board 
        Member, 1/02 to present.

        EarthLink Corp., Board of Directors, 7/03 to present.

        Impatica, Inc., Board Member, 2/04-11/08.

        Shiloh Group, LLC, Owner, 11/04 to present.

        Shiloh Foundation, Vice President, 11/04 to present.

        Core Capital Partners, Partner, 1/05 to present.

        VSArts, Chairman and Board Member, 9/06-4/10.

        GSMA, Ltd., Board of Directors 10/06 to present.

        Roundbox, Inc., Board Member, 1/06 to present.

        UpdateLogic, Board Member, 2/06-1/12.

        Twisted Pair Solutions, Board Member, 9/06 to present.

        LimeLife, Inc., Board Member, 3/07-6/10.

        Samsung Corp., Advisory Board Member, 3/07-3/10.

        Jacked, Inc., Board Member, 4/07-5/10.

        Capitol Acquisition Corp., Advisor, 10/07-10/09.

        MoBo Systems, Board Member 4/08 to present.

        Gettysburg National Battlefield Foundation, Board Member, 6/09-
        6/10.

        Transaction Network Services, Board of Directors, 12/09-2/13.

        United Nations Foundation mHealth Alliance, Chairman and Board 
        Member, 
        5/10 to present.

        FCC Technological Advisory Council, Chairman, 1/11 to present.

        NTT DoCoMo, U.S. Advisory Board, Chairman, 1/11 to present.

        State Department Advisory Committee on International 
        Communications & Information, Chairman, 1/11 to present.

        President's Intelligence Advisory Board Member, 4/11 to 
        present.

        GSMA Mobile for Development Foundation, Board of Directors, 1/
        13 to present.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    See Attachment B.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Alumni Medal for National and International Achievement, The 
        Ohio State University, 2009.

        Wireless Industry Hall of Fame, 2003.

        Cable Television Hall of Fame, 2009.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have done my best to identify books, articles, columns, 
publications or relevant speeches, including a thorough review of 
personal files and searches of publically available electronic 
databases. Despite my searches, there may be other materials I have 
been unable to identify, find, or remember. I have located the 
following:

    Books

        Leadership Lessons from the Civil War: Winning Strategies for 
        Today's Managers, Doubleday, 2000.

        Mr. Lincoln's T-Mails: The Untold Story of How Abraham Lincoln 
        Used the Telegraph to Win the Civil War, Harper Collins, 2006.

    Contributions to Books

        Abraham Lincoln: Great American Historians on Our Sixteenth 
        President, ed. Brian Lamb, Susan Swain, Public Affairs, 2008 
        (chapter).

        A Bulldog Grip on New Technology, in Discovering the Civil War, 
        National Archives, 2010.

    Magazine Articles

        Commanding by T-Mail, Civil War Times, March/April 2007.

        Lincoln's Fleeting Hope for an Early End to the War, co-author 
        with Trevor Plante, America's Civil War, January, 2008.

        America's First Telecommunications President, American 
        Heritage's Invention & Technology, Winter 2011, Volume 25, 
        Number 4.

    Newspaper Op-Eds

        A 24-Hour News Format Has Debased TV News, Newsday, March 17, 
        1993.

        How to Respond When Death Flies on Silent Wings, USA Today, 
        October 22, 2001.

        Terror Watch, 1944, The Washington Post, January 1, 2002.

        In Terror, As in the Civil War, Persistence Wins the Fight, USA 
        Today, May 23, 2002.

        You Can Look It Up America: Documents Matter in a Democracy, 
        Los Angeles Times, January 20, 2003.

        The Telegraph as a Window into the Mind of the l6th President, 
        The Washington Post, February 12, 2007.

        The First Wired President, The New York Times, May 24, 2012.

    Blog

        www.mobilemusings.net

    Speeches

        Cable Hall of Fame Acceptance Speech http://
        www.cablecenter.org/past-honorees/item/wheeler-tom.html

        January 2000 Tech Law Journal Speech: http://
        www.techlawjournal.com/telecom/20000127tw.htm

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Based on my search of the Congressional database maintained by the 
Government Printing Office (GPO) as well as the Congressional Record 
database maintained by Westlaw, I have found the following records of 
testifying before Congress. The GPO database provides information on 
hearings held in the House and Senate from since the 105th Congress 
(1997-98) forward. The Westlaw database returned no additional results. 
I am certain, however, that I testified at other hearings in the late 
1970s, 1980s, and early 1990s that are not in either database. Such 
testimony would have been principally before the Commerce Committees of 
the House and Senate, on matters related to cable television policy in 
my capacity as the President of the National Cable Television 
Association and wireless policy in my capacity as President and CEO of 
CTIA. I do not have independent records of those events to verify 
dates.
    February 3, 1999: House Committee on Commerce, Subcommittee on 
Telecommunications, Trade, and Consumer Protection-The Wireless Privacy 
Enhancement Act of 1999 and the Wireless Communications and Public 
Safety Enhancement Act of 1999. I testified in my capacity as 
President/CEO of CTIA http://www
.gpo.gov/fdsys/pkg/CHRG-l06hhrg55150/pdf/CHRG-l06hhrg55150.pdf
    March 7, 2000: Senate Committee on Commerce, Science, and 
Transportation--The Mobile Telecommunications Sourcing Act. I testified 
in my capacity as President/CEO of CTIA http://www.gpo.gov/fdsys/pkg/
CHRG-106shrg78320/pdf/CHRG-106shrg78320.pdf
    April 6, 2000: House Committee on Commerce, Subcommittee on 
Telecommunications, Trade, and Consumer Protection--Wireless 
Telecommunications Sourcing and Privacy Act. I testified in my capacity 
as President/CEO of CTIA http://www.gpo.gov/fdsys/pkg:/CHRG-
106hhrg64022/pdf/CHRG-106hhrg64022.pdf
    October 16, 2001: Senate Committee on Commerce, Science, and 
Transportation, Subcommittee on Communications--Wireless E-911 
Compliance. I testified in my capacity as President/CEO of CTIA. http:/
/www.gpo.gov/fdsys/pkg/CHRG-l07shrg
89680/pdf/CHRG-107shrg89680.pdf
    July 24, 2001: House Committee on Energy and Commerce, Subcommittee 
on Telecommunications and the Internet--U.S. Deployment of Third 
Generation Wireless Services: When Will it Happen and Where Will it 
Happen. I testified in my capacity as President/CEO of CTIA http://
www.gpo.gov/fdsys/pkg/CHRG-107hhrg
74845/pdf/CHRG-107hhrg74845.pdf
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have spent the almost four decades of my professional life 
involved in new communications technology, including the policy matters 
related thereto. I led the cable and wireless industry associations at 
definitive points in their histories when they were upstarts reshaping 
telecommunications. As an entrepreneur, I have started and built 
companies in the technology and telecommunications space. As a venture 
capitalist, I have funded and helped grow new technology-based 
companies.
    If confirmed, I believe I can bring to the position an appreciation 
of the role of public policy in innovation and investment and a breadth 
of experience with evolving technologies, evolving marketplaces, and 
the role of evolving policy to further promote America's leadership in 
developing the networks and technologies that drive the information 
economy.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed as Chairman of the FCC, by Congressional directive, I 
will be CEO of an agency with a staff that includes engineers, 
technologists, attorneys, economists and others who are charged with 
helping inform decisions that impact the communications marketplace. My 
career has been one of managing organizations in that space. At the 
root of such management is the flow of accurate, honest, and meaningful 
information. I have long been a believer in the old expression, ``If 
you can measure it, you can manage it.'' I intend to use my experience 
to build a collegial decision-making environment with my colleagues 
where our decisions are based on data and input from all stakeholders 
including representatives of the consumer public, industry 
representatives, innovators, and others.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        A. Public Safety Spectrum Act:

        The successful implementation of the Public Safety Spectrum 
        Act, including implementation of the first-in-the-world 
        incentive auction, will be a top priority. To continue our 
        Nation's leadership in the mobile economy, we must address the 
        widely acknowledged spectrum shortage. As technological 
        advances have increased consumer demand, it is critical that we 
        repurpose spectrum to address that demand and we must fund the 
        nationwide broadband public safety network. This particular 
        auction, in which broadcasters voluntarily contribute some or 
        all of their spectrum for wireless carriers to bid on, is 
        fraught with complexities and challenges in both the operation 
        of the auction as well as the rules that will govern the 
        auction process itself. The Commission has a team of some of 
        the brightest minds in auction design working on this endeavor, 
        and if confirmed, I will work to bring this critical auction to 
        a successful completion.

        B. Technology Transitions:

        The evolution from an analog switched circuit to an all-
        Internet Protocol (IP) network creates a situation where 
        digital technologies must operate under rules developed for 
        analog networks. There is a need to look at the rules that have 
        been established over the years for the analog environment and 
        determine their applicability and/or their adjustment to the IP 
        environment. In reviewing these policies, the agency should 
        focus on reforms that empower and protect consumers, promote 
        competition, and ensure network resiliency and reliability. 
        Such change is difficult, especially because economic and 
        cultural patterns have been built up around the old technology. 
        If confirmed, I would seek to evolve with the minimal 
        disruption while encouraging the innovation and investment that 
        stimulate economic growth.

        C. Advancing Civil Society Through Communications and Media:

        The opportunities presented for advancing civil society through 
        evolving network technologies are astounding. Basic bottom line 
        activities begin with connectivity (including broadband 
        access), public safety (including national security), and the 
        ability of the institutions of the commonwealth, such as 
        education and health care, to be able to participate in the new 
        capabilities. The encouragement of innovation and investment 
        across the entire economy, in rural and urban areas, as well as 
        the availability of essential capabilities for citizens, is 
        derivative of the capabilities of new networks. This is why 
        continuing the implementation of the Connect America Fund is 
        critical, and if confirmed, I look forward to working with my 
        colleagues, if confirmed, to ensure that the promise of 
        broadband is delivered to all Americans. The ongoing challenge 
        of the FCC will be to encourage growth and development while at 
        the same time assuring the delivery of the basic underpinning 
        capabilities of the network that are essential to the people 
        and key institutions.

        In addition, a robust and diverse media landscape is critical 
        to the functioning of our society. Congress directed the FCC to 
        promote diversity. I intend, if confirmed, to take seriously 
        the Commission's responsibility in enabling a vibrant media 
        landscape.

                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    If confirmed, I will sever my relationship with Core Capital 
Partners. I will exercise the portability feature in the John Hancock-
administered 401(k) Plan (currently valued at $160,000) and transfer it 
elsewhere.
    If confirmed, I will cease the operations of Shiloh Group, LLC. I 
will continue to participate in the Shiloh Group Defined Benefit Plan, 
but will make no contributions or withdrawals during the period in 
which I hold office.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the FCC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the FCC's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing; or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the FCC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the FCC's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I was President of the Cellular Telecommunications & Internet 
Association from 1992 to 2004. My lobbying registration ended in 2003.
    I was a consultant to Cingular on their acquisition of AT&T 
Wireless in 2005. I did not lobby.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the FCC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the FCC's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    The question appears to be directed towards administrative 
procedures that are disciplinary where I have been a ``party.'' The 
answer to that question is NO. However, I have been a ``participant'' 
(as differentiated from a ``party'' in the Administrative Procedure 
Act) in ``an administrative agency proceeding'' on behalf of the 
members of CTIA and NCTA.
    Insofar as civil litigation, as head of the cellular industry 
association, I was involved in the commissioning of research (much of 
it in conjunction with the FDA) that some alleged was a ``cover up'' to 
the allegation that cellphones caused brain cancer. These allegations 
were published in Cell Phones, Invisible Hazards in the Wireless Age by 
George Carlo and Martin Schram (Basic Books, 2002). The FDA website 
states, ``The weight of scientific evidence has not linked cell phones 
with any health problems.'' (http://www.fda.gov/Radiation- 
EmittingProducts/RadiationEmi
ttingProductsandProcedures/HomeBusinessandEntertainment/Cel1Phones/
ucm1162
82.htm) The FDA has also published a Consumer Update ``No Evidence 
Linking Cell Phone Use to Risk of Brain Tumors,'' (http://www.fda.gov/
ForConsumers/Consu
merUpdates/ucm212273.htm) The emission levels from wireless devices are 
regulated to established safety standards by the FCC (http://fcc.gov/
oet/rsafetv/rf-faqs.html). I was named, in my official capacity as 
President and CEO of CTIA as a defendant in some of these suits, as was 
CTIA itself. In all cases the court removed both CTIA and me from the 
suits. None of the cellphone cancer suits has ever been successful.
    I was a party to my divorce, which was finalized in April 1981.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                         Resume of Tom Wheeler
Managing Director, Core Capital Partners

    For almost four decades Torn Wheeler has worked at the forefront of 
telecommunications policy and business development, experiencing the 
revolution in telecommunications as both a policy expert and 
businessman. As an entrepreneur he started or helped start multiple 
companies offering new cable, wireless and video communications 
services. He is the co founder of SmartBrief, the first targeted, 
filtered electronic news service which today serves over six million 
readers daily. As a policy expert he has been intimately engaged in the 
development of the government's telecommunications policy at both the 
legislative and regulatory level.
    On the 20th anniversary of the cable television industry (1995) 
Wheeler was selected one of the 20 most influential individuals in the 
industry's history. He has been elected to the Cable Hall of Fame. On 
the 25th anniversary of the cellular telecommunications industry (2008) 
he was named one of the top 10 innovators in the wireless industry and 
is a member of the Wireless Hall of Fame. Following the election of 
2008 he led the Obama-Biden Transition on science, technology, space 
and the arts.
    From 1976 to 1984, Mr. Wheeler was associated with the National 
Cable Television Association (NCTA), where he was president from 1979 
to 1984. After several years as CEO of new technology start-ups, 
including the first company to offer high sped delivery of data to home 
computers and the first digital video delivery service, Mr. Wheeler was 
asked to take over the Cellular Telecommunications & Internet 
Association (CTIA). He served as CEO of CTIA from 1992-2004.
    Mr. Wheeler wrote Take Command: Leadership Lessons of the Civil War 
(Doubleday, 2000) and Mr. Lincoln's T-Mails: The Untold Story of How 
Abraham Lincoln Used the Telegraph to Win the Civil War (HarperCollins, 
2006). His commentaries on current events have been published in the 
Washington Post, USA Today, Los Angeles Times, Newsday, and other 
leading publications.
    President Obama appointed Mr. Wheeler to the President's 
Intelligence Advisory Board. Presidents Clinton and Bush each appointed 
him a Trustee of the John F. Kennedy Center for the Performing Arts 
where he served for 12 years. He chairs the Technological Advisory 
Council of the Federal Communications Commission. Mr. Wheeler is the 
former Chairman of the Foundation for the National Archives, and a 
former member of the board of the Public Broadcasting Service (PBS). He 
is on the advisory board of the John Glenn School of Public Affairs at 
the Ohio State University. Mr. Wheeler sits on the boards of Core 
portfolio companies Roundbox, Twisted Pair Solutions, and GoMoBo. He is 
also on the board of EarthLink (NASDQ: ELNK).
    Mr. Wheeler is a graduate of The Ohio State University and the 
recipient of its Alumni Medal for national and international career 
achievement. He resides in Washington, D.C.
                                 ______
                                 
                 Attachment B--Political Contributions
    In preparing this information, I relied on information found on the 
Federal Election Commission's website and personal checking account 
records.
2003
    New Leadership for America PAC--$2,000; Leadership '02--$1,000; 
CTIA PAC--$4,576; John Kerry for President--$2,000; DLA Piper PAC--
$1,000; The Markey Committee--$1,000; Susan Leal for Mayor--$500; Wyden 
for Senate--$4,000; Shannon for Delegate--$500
2004
    America Coming Together--$2,000; Lots of People for Daschle--
$3,000; New Leadership for America PAC--$2,000; Dedicated Americans for 
the Senate and House PAC--$2,000; Friends of Jon Jennings--$750; CTIA 
PAC--$1,664; Sam Brooks for City Council--$500; The Markey Committee--
$2,000; DashPac--$2,000; Kerry-Edwards--$10,000; ACT--$2,000; Friends 
of Mark Warner--$1,000
2005
    EarthLink PAC--$2,000; Friends of Hillary--$4,200; Sidebottom for 
School Board--$250; Forward Together--$5,000; Friends of O'Malley--
$2,000
2006
    EarthLink PAC--$2,000; Sam Brooks for City Council--$500; Obama for 
President--$1,000; 2010 INC--$1,000; The Markey Committee--$1,000; 
Fenty for Mayor--$500; Friends of O'Malley--$250; Ritter for Governor--
$500
2007
    EarthLink PAC--$5,000; Markey for Congress--$1,000; EarthLink PAC--
$5,000; Obama for America--$4,600; Kerry for Senate--$1,000; Udall for 
Colorado--$1,000; Obama for America--$6,900
2008
    Reuven Carlyle for State Rep--$500; Friends of Jay Rockefeller--
$1,000; Obama Victory Fund--$28,500; Patrick Murphy for Congress--
$2,300; Clinton for President--$2,300; Friends of Mark Warner--$4,600
2009
    Brian Moran for Governor--$1,500; Leahy for Senate--$1,000; Women's 
Campaign Fund--$500; Russ Carnahan for Congress--$1,000; DCCC--$1,000; 
Hodes for Senate--$2,400; Bennett for Senate--$500
2010
    Krystal Ball for Congress--$500; Hodes for Senate--$1,000; DNC--
$30,400; Meek for Florida--$500; Jeff Barnett--$500; Sowers for 
Congress--$1,000; Patrick Murphy for Congress--$2,400; Reid for 
Senate--$1,000
2011
    Cardin for Senate--$1,000; Obama Victory Fund 2012--$30,800; Moran 
for Congress--$2,000; OVF--$2,000; Tester for Senate--$1,500; Kaine for 
Senate--$2,000; Patrick Murphy for Congress--$2,500; Swing State 
Victory Fund--$9,200
2012
    Diane Smith for Congress--$1,000; DNC--$30,800; Patrick Murphy for 
AG--$1,000; Kaine for Senate--$2,000; Chris Lewis for School Board--
$250; Lon Johnson for State Rep--$500; Jim Moran for Congress--$2,500
2013
    Colin Harris for Delegate--$250
    Offices held with state or national political party or election 
committee:

    I was on the Kerry for President (2004) and Obama for President 
(2008 and 2012) National Finance Committees. In 2012, I was co-chair of 
the Obama campaign's Mid Atlantic Finance Committee.

    The Chairman. Thank you very much, Mr. Wheeler.
    Senator Thune is, in most respects, a superior person to 
me----
    [Laughter.]
    The Chairman.--and, for that reason and because he has to 
do an amendment on the floor, where we're about to go to have 
to vote, I want to call on him to ask the first question, while 
warning our colleagues that this is an amazingly important 
meeting and hearing, and that it's very easy to go down and 
vote and then slip into the many things that one has to do. So, 
I'm eagerly looking around the room, wondering how many eyes 
I'm going to be staring into after our votes.
    So, we come back right after the votes, and continue. And I 
ask your forbearance on that.
    Mr. Wheeler. Yes, sir.
    Senator Thune. Thank you, Mr. Chairman, and I appreciate 
your kindness in letting me go, although I don't think my 
presence on the floor will affect, in a positive way, the 
outcome of the vote on my amendment.
    [Laughter.]
    Senator Thune. Mr. Wheeler, on your blog, Mobile Musings, 
you indicated, in 2011, that the FCC should have, or, at a 
minimum, that it could have, imposed conditions on the AT&T/T-
Mobile merger that could have later been expanded to the entire 
wireless industry. Your posts could be read to say that the FCC 
should seek to do via merger conditions what it cannot do via 
its antiquated regulatory authority, and that is to, ``backdoor 
to imposing a new regulatory regime on wireless,'' is how you 
characterized it. And I mentioned that in my opening statement.
    This concerns me, because I believe that the FCC's 
transaction review authority should be used only to address 
competitive or public interest issues that are specific to the 
individual transaction.
    Rather than using strong-arm merger conditions to impose de 
facto regulations, shouldn't the FCC instead use its public and 
transparency rulemaking authority to implement industrywide 
regulatory policy?
    Mr. Wheeler. Thank you, Senator Thune. I appreciate you 
raising that issue, and I understand your concern.
    What you've cited was hypothetical speculation. What a 
regulator must deal with are the realities of a specific case 
and the law and precedent that deals with merger review. There 
is scarcely anything more important that comes before the 
Commission than merger review. And that review must be 
conducted precisely, based upon the facts in that specific 
instance, based upon the mandate that the Congress has 
established in the Act, and based upon precedent. And if I am 
fortunate enough to be confirmed as Chairman, those will be the 
guidelines that I will use in merger reviews.
    Senator Thune. OK. Let me--and I want to quote from your 
blog post again. This is why my staff doesn't allow me to blog, 
and limits my Twitter.
    [Laughter.]
    Senator Thune. But, you assert that merger conditions--and 
I want to quote again--``established with the largest carrier 
could have been lifted into subsequent consent decrees for 
other carriers, and even into the terms for subsequent spectrum 
auctions,'' end quote, under the logic that--and I quote 
again--``If AT&T can live with them, so can anyone else,'' end 
quote.
    But, the question I have--to me, that would appear to be 
sort of exactly backward. Isn't it large players, like AT&T, 
that can more easily handle merger conditions? Whereas, small 
and medium-sized operations without huge teams of regulatory 
lawyers will be handicapped by regulations intended for a much 
larger company?
    Mr. Wheeler. I think this is one of the reasons that the 
kind of observation I made that you talk about specifics of 
that merger agreement that is being reviewed is important, 
because these are issues that have to be dealt with, with 
caution and with care, and have broad impact, as you just 
suggested, sir. And the specific review of the specific issues 
in the case, guided by the statute and by precedent, is the 
role that the agency should play.
    Senator Thune. I represent a rural state, as do a number of 
my colleagues here, on both sides, and I'm firmly committed, as 
you know from our earlier conversation, to expanding 
telecommunications opportunities for people in my state. I'm 
wondering, if confirmed as Chairman, how you will approach the 
challenges that rural America faces with respect to 
telecommunications issues.
    Mr. Wheeler. So, Senator, it seems to me that we have made 
the jump from voice to broadband. Chairman Genachowski and the 
Commission, with the help of this committee, have made that 
jump. There is expansion of broadband going on, but there are 
three goals that I think are particularly important. One is the 
extension of broadband, as we--I just referenced. Second is the 
expansion of broadband as technology allows faster and faster 
speeds. And the third is the exploitation of broadband. And any 
one without the other is an incomplete solution.
    And so, in rural America as in urban America, it's 
expansion--I'm sorry--it's extension, expansion, and 
exploitation that are going to be the key to our broadband 
digital future.
    Senator Thune. Let me, if I might, just touch on the 
spectrum issue a little bit, here. It's been over 5 years since 
the FCC held an auction to put new spectrum for mobile 
broadband into the marketplace. The question is, Do you think 
that's an acceptable track record? And what do you do--intend 
to do to improve upon it?
    Mr. Wheeler. Thank you, Senator. The--there are a couple of 
auctions teed up, not the least of which is the incentive 
auction, which will be the first time in the history of the 
world--I guess that's a little grandiose statement, but it will 
be the first time that an auction like this has been tried. 
This committee and the Congress have directed the FCC to do 
that in an expedited manner. Chairman Genachowski has set a 
schedule for that. And, if I am fortunate enough to be 
confirmed, it is my intention to move expeditiously to make 
spectrum available by auction, in multiple bands.
    Senator Thune. Do you agree that the goal of the incentive 
auction ought to be to maximize net revenues in order to cover 
the costs of FirstNet, Next Generation 9-1-1, and to reduce the 
deficit?
    Mr. Wheeler. Senator, they--the incentive auction, as I 
said, is something that's never been tried before. And I liken 
it to a Rubik's Cube, that, over on this side of the cube, 
you've got to provide an incentive for broadcasters to want to 
auction their spectrum; on this side of the cube, you have got 
to provide a product that is structured in such a way that 
incentivizes the wireless carriers, or whoever the bidders may 
be, to want to bid for that spectrum; and then, in the middle 
of this, on an almost realtime basis, you have to have a band 
plan that is constantly changing to reflect the variables that 
are going on here. That's why this has never been tried before. 
This is a monumental undertaking. And all of the pieces, to 
create value for the broadcasters and value for the wireless 
industry and to pay for FirstNet and to provide something for 
the American taxpayer, all have to go into this incredibly 
complex Rubik's Cube.
    Senator Thune. I'll take that as a yes.
    [Laughter.]
    Senator Thune. Mr. Chairman, my time's expired, and you've 
been more than generous in letting me go first. So, thank you.
    Thank you, Mr. Wheeler.
    The Chairman. Thank you, Senator Thune.
    I'll just ask two quick questions, and then I really think 
we'd better skedaddle and come back. Is that all right with 
you, Senator Blunt? I have your permission to go ahead with a 
question?
    Senator Blunt. Yes, you go right ahead.
    The Chairman. Thank you.
    As I mentioned in my remarks, the E-Rate program is just 
seminal, in my life and with me, in terms of public policy, the 
idea being to bring affordable access to telecommunications and 
Internet to schools and libraries throughout the entire 
country. The President wants to make it to 99 percent. I'm all 
for that. He reaffirmed the sentiment when he called on the FCC 
to take the steps necessary to make sure that all American 
students, from Next Generation digital technologies, can 
benefit from them. It was a bold statement, and a good one.
    Earlier this year, I received public comments from all the 
current sitting commissioners to work with me to update and 
strengthen the E-Rate program. That's not a frivolous thing. I 
mean, I don't make them stand and take an oath. But, it's just 
one by one--yes, no, yes, no. And they were all yeses. That 
does not always guarantee the result, because of internal 
problems that arise, but, to me, it involves a commitment.
    So, I ask if, if confirmed, which I'm certain you will be, 
would you also commit to working with me--I know this is a 
basic question, but I need to ask it--to protect E-Rate's 
accomplishments, as well as to secure additional support and 
update the program to meet the standards and future needs of 
our schools and libraries?
    Mr. Wheeler. I'm taking your hint, sir. The answer is yes.
    The Chairman. Good.
    Mr. Wheeler. I mean the hint of one-word answers.
    The Chairman. Can you just give me one sentence of why you 
said yes?
    Mr. Wheeler. Yes, sir. I've been a supporter of the E-Rate 
since it first happened, in 1996, and I think it's for very 
basic reasons. I--as I mentioned in my testimony, when 80 
percent of the E-Rate schools say they're not getting the 
proper bandwidth for their instructional needs, something needs 
to be done about that. This is a program that started in 1996. 
A lot of things have changed since 1996. It is not good enough 
for us to have 1996 textbooks in the classroom. I don't think 
it's good enough for--have 1996 connectivity in the classroom.
    The Chairman. Good. One more.
    When Congress authorized voluntary incentive auctions last 
year, it was part of a larger goal of providing funding for the 
FirstNet.
    Let me just interject this. When we passed E-Rate, Olympia 
Snowe being one of the coauthors, I wrote each of the 
telecommunications companies at that time--there being more, 
then--and asked them to write a letter to me, promising they 
would not challenge this public policy in court. I got letters 
from every one of the CEOs, promising not to challenge in 
court, after which they all challenged it in court.
    [Laughter.]
    The Chairman. And they all lost in court. But, that--that's 
a part of my--what I bring to all of this. Promises made, 
promises kept. It's important.
    So, the auction, as Senator Thune said, is incredibly 
complicated, and getting it right is really hard. For me, the 
successes of these auctions will be judged by their ultimate 
ability to provide sufficient funding to fund the critical 
activities of FirstNet.
    So, question. I know you have watched this policy debate 
closely, so you'll appreciate my question. If confirmed, do you 
understand the need for incentive auction rules to provide 
sufficient funding for FirstNet?
    Mr. Wheeler. Yes, sir.
    The Chairman. Can you please commit to act expeditiously to 
commence these auctions, complicated though they are, and to 
avoid unnecessary delay?
    Mr. Wheeler. I think it's absolutely crucial that the 
incentive auction move on an expedited schedule, Senator.
    The Chairman. Thank you, sir. The hearing stands in recess.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Mr. Chairman, with your permission, can I go 
ahead and ask my two or three questions and then----
    The Chairman. Of course.
    Senator Blunt.--I'll get out of everybody's way? Is that 
okay----
    The Chairman. Yes.
    Senator Blunt.--if I'm next? I'm going to ask a couple of 
questions. And then I may have more for the record, Mr. 
Wheeler.
    But, actually, the first thing I want to ask is more of a 
statement than a question. We're getting ready, tomorrow, for a 
hearing in this same committee, different subcommittee, on 
railroads. And one of the things that came up, when we--getting 
ready for that hearing--on positive train control, which, 
currently, the law says should be implemented by 2015. The 
Commission will have to commit--will have to complete the 
permitting process, including environmental impact studies and 
historical impact studies, for 22,000 new wireless poles and 
towers. I'm told that the historic impact studies may even have 
more resonance here, because of tribal lands and other things, 
than the other studies. It's also my understanding that, now, 
the normal number of permits is somewhere between--for towers 
and--somewhere between 2,000 and 3,000. If the Commission goes 
through the regular permitting process for these poles, most of 
which would be located on current right-of-way, it would take 
10 years to complete.
    So, I just want to be sure that's on your agenda as you're 
thinking about that. This is a case where one set of procedures 
would make it impossible to comply with the other law. And I 
don't know if you've had a reason to discuss this with anyone 
yet, or not, but, if you had, and want to comment, that's fine.
    Mr. Wheeler. Thank you, Senator. I have not, and it is now 
on the list.
    Senator Blunt. OK. 22,000 permits, unless there's some 
expedited permitting process that goes on so that positive 
train control could happen.
    On retransmission, Mr. Wheeler, everyone knows that 
retransmission consent is a controversial topic. This 
committee, over the years, has spent countless hours debating 
that. Chairman Genachowski and his predecessors have always 
taken the view that the FCC's current authority to alter 
retransmission consent rules in any way is very limited, and 
that changes to the policy would have to come from Congress. Is 
that a position you share?
    Mr. Wheeler. I look forward to looking into that issue, 
Senator, and trying to get my arms around it, particularly in 
light of some recent court decisions and a pending 2nd Circuit 
action that has been brought on a related kind of issue. I'm 
not trying to dodge your question, but I think that this is 
something that is a situation that is in flux at this moment, 
that I need to get my arms around.
    Senator Blunt. Do you think there's a possibility, in that 
court decision, that the Commission has more authority than 
they have previously thought they had on this topic?
    Mr. Wheeler. I would hate to second-guess a court in 
advance, sir.
    Senator Blunt. OK. So, you're waiting for that court 
decision to----
    Mr. Wheeler. Yes, sir.
    Senator Blunt.--see where you need to come down on that.
    And the third question I want to ask--and I would have some 
in--just--I'll submit questions later--but, in merger 
situations, there's a 180-day--you know, the so-called ``shot 
clock''----
    Mr. Wheeler. Yes.
    Senator Blunt.--rule. Do you plan to continue the 
Commission's trend of attaching conditions to the merger which 
don't directly deal with competitive issues? Got a couple of 
examples, if you want to hear them, but----
    Mr. Wheeler. I understand your----
    Senator Blunt. Yes.
    Mr. Wheeler.--your question, sir. And it is not dissimilar 
to the kinds of things that Senator Thune and I exchanged ideas 
on.
    I believe that the merger review process is a specific 
process that deals with that specific case, the facts in that 
situation, and is guided by the law and precedent, and that--
you know, that ought to be the defining four corners of any 
consideration.
    Senator Blunt. And competition is the merger-review----
    Mr. Wheeler. I think----
    Senator Blunt.--element----
    Mr. Wheeler.--public interest and convenience and necessity 
is the broad term, but it includes competition, it includes 
consumer protection, it includes the viability of markets, et 
cetera.
    Senator Blunt. Thank you. I'll have some more questions 
later.
    And, Senator Nelson, thank you for----
    Senator Nelson [presiding]. The Committee----
    Mr. Wheeler. Thank you, Senator.
    Senator Nelson.--will stand in recess, subject to----
    Senator Blunt.--thank you for----
    Senator Nelson.--the call of the Chair.
    Senator Blunt.--holding the gavel so I could ask those 
questions.
    [Recess.]
    Senator Nelson. OK, we'll resume. The Chairman is on his 
way.
    Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Senator.
    Thank you, Mr. Wheeler. Thank you for your patience today, 
as you had to wait an extra hour for us, but----
    Mr. Wheeler. Not a problem, thank you, Senator.
    Senator Fischer.--we had some votes to take.
    I also want to thank you for coming in and visiting with 
me, and I appreciate that you took the time to have a 
conversation. And I look forward, now, to continuing that.
    As you know, when we met the other day in my office, I 
explained to you that I do have an interest in looking at 
alternative funding and looking at a different mechanism for 
the Universal Service Fund. Do you think that that would be one 
of your priorities, if you would be confirmed? And what options 
do you see for that alternative funding?
    Mr. Wheeler. Thank you, Senator. And I also, as we 
discussed, recognize your expertise on the matter, having 
served as Chairman of the Committee in the Nebraska 
legislature.
    I was fortunate enough to be able to serve on the first 
board of USAC, the Universal Service Administrative 
Corporation, and I've seen a lot happen to universal service 
since then, as it evolved. Chairman Genachowski had some 
significant iterations. But, it seems to me that of pressing 
importance is to continue the evolution of universal service 
and to look at that evolution holistically, if you will, that 
we have tended to look at universal service, like the old story 
about the different fellows feeling the elephant; one thinks 
it's a snake and one thinks it's a tree, and this sort of 
thing. And I think we need to look at the whole elephant and 
ask ourselves what has happened since the onset of the program, 
in terms of technology, in terms of marketplace, in terms of 
business models, that suggest that we ought to be looking at 
new approaches.
    Senator Fischer. Specifically for funding, though, what 
options are out there? What would be a source of revenue?
    Mr. Wheeler. I think it's--but, I think it's a whole--the 
``guzintas and guzoutas,'' you know, can't quite be separated, 
here. And--but, clearly, one of the challenges that is facing 
universal service, going forward, is the IP transition. And if 
you have fees assessed on telecommunication services, and fewer 
and fewer things are telecommunication services, that's an 
issue that has to be addressed. But, it's an issue that has to 
be addressed holistically, with both sides of the equation.
    Senator Fischer. Thank you.
    The Chairman felt that we could have this incentive auction 
done by 2014. Do you think that that's a realistic goal, moving 
forward?
    Mr. Wheeler. Senator, I will make every effort to meet that 
schedule. One of the big frustrations in my current situation 
is that I know what's on the public record, but I have no idea 
what other things are going on in other decisions and other 
structural and other facts that have--that are being used by 
the Commission. And I look forward to getting those pieces of 
information and then making that decision. But, I think that 
this is something--as I said to the Chairman and I reiterate 
again, I think this is something that needs to move, on an 
expedited basis.
    Senator Fischer. That's good to hear, thank you.
    As you know, some groups are pushing the FCC to use its 
rulemaking authority to enforce the provisions in the failed 
DISCLOSE Act, which would require the disclosure of donors or 
private groups that purchase television time for campaign 
purposes. Are you concerned that inserting the FCC into this 
politically charged debate, where Congress has expressly 
decided not to act, would undermine the bipartisan support for 
the FCC?
    Mr. Wheeler. Well, one of the things that I have learned 
about that--you know, I said it in my statement, I've spent 40 
years in telecom. I can assure you that this issue is not one 
that I have ever seen come on my radar before, and I know that 
it is a strongly held position throughout this committee, with 
differing positions. And so, what I know I'm going to do is, 
I'm going to learn more about it. I'm going to delve into the 
issue. But, I am not unaware of the tensions that this issue 
creates.
    Senator Fischer. Do you think it would be a proper role for 
the FCC to bypass Congress, where Congress decided not to act? 
Do you think it is within your charge that you would then act 
as an agency in a rulemaking process, where Congress decided 
not to act?
    Mr. Wheeler. I think it is the job of the agency to act 
within the structures that the Congress has created. And, as I 
understand this issue and this debate, there is debate on 
whether or not that authority exists and resides in the 
Commission today. And that's what I want to learn more about.
    Senator Fischer. What do you see as the biggest challenge 
before you, if you would be confirmed?
    Mr. Wheeler. Only one?
    Senator Fischer. Yes. The biggest. Number one.
    Mr. Wheeler. Well, clearly, you talked about the auction, 
and there is a--there are so many components of the effect of 
the auction that you have to say that that auction is a top 
priority.
    But, on a more megascale, I've spent a lot of time dealing 
with the FCC in my life, and it is important that the agency 
make decisions, and make decisions in a timely fashion. There's 
nothing worse for investment, innovation, job creation, all the 
things that flow from investment, than businesses not knowing 
what the rules are. And so, I would hope that, in an 
overarching scope of things, that we would be able, with my 
colleagues--because I am very aware that this is a commission, 
not a sole proprietorship, and--but, with my colleagues, that 
we will be able to identify issues and move with dispatch.
    Senator Fischer. Well, thank you. It has been a pleasure to 
meet you, to visit with you. I wish you well. And I hope you'll 
come to Nebraska. As I mentioned during our previous 
conversation, we are, I believe, leaders, when it comes to 
telecommunications and broadband, and yet we're a very, very 
sparsely populated state in many areas, the populations focused 
in the eastern part of the state. So, I hope you'll come and 
see the diversity of our state and how we've addressed the 
needs of the people.
    Thank you.
    Mr. Wheeler. I look forward to that, Senator. Thank you.
    Senator Fischer. Thank you.
    The Chairman [presiding]. Senator Begich.
    Thank you, Senator Fischer.
    Senator Fischer. Thank you.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much. Thank you, Mr. 
Chairman. Appreciate it.
    Again, thank you very much for spending the time with me a 
few days ago. And I appreciate your willingness to do public 
service, and also to your supporters and families for their 
willingness to allow you to do it, because I know what that's 
like and the pressure that will add to your family. So, thank 
you very much.
    Let me, if I can, pick up on two ends. First, I want to 
talk a little bit--I want to follow up what Senator Fischer 
said about, kind of, rural states. And she definitely is from a 
rural state. Ours is considered more extreme rural, to say the 
least. And the high cost to do business up there, maybe the 
middle mile or the last mile, is very expensive. We--to be very 
frank with you, we have found not a lot of understanding, in 
total, by the FCC in this area. Actually, there have been 
documents and reports indicating that it's actually cheaper to 
build in Alaska than the Lower 48, which is absolutely false 
and incorrect.
    And I guess I want to get your sense of your understanding, 
on the record here, of how we can work with the FCC, or how you 
see the FCC working with these very extreme areas that have 
high cost to develop and get a predictable stream. Because what 
happens now--as you know, in the private sector, you can't make 
these kind of investments with one-year, you know, horizons. 
You've got to have multiple years. And we find it very 
difficult, especially with our small co-ops, as an example, 
working rural Alaska, or our large companies laying lots of new 
fiber, or utilization of satellite, because that's all that can 
work in some of our areas. Can you give me a little sense of 
your feeling and your thoughts in regards to--able to make sure 
there's equal access for very extreme rural areas, and 
understanding that the cost is going to be higher than anywhere 
in the country, more than likely?
    Mr. Wheeler. Thank you, Senator. I do understand that that 
decision was made about costs, and I, too, scratch my head, and 
I am going to learn more about that, because it does seem, if 
not illogical, at least counterintuitive.
    Senator Begich. We would say it's out of whack.
    [Laughter.]
    Senator Begich. OK? There's a--more direct. But, I hear 
you. Go ahead.
    Mr. Wheeler. And I also think that Alaska holds great 
promise for new technologies. And, you know, as you know, I'm 
proud of the fact that I, many years ago, turned on the 
northernmost cell site in North America, at Point Barrow.
    Senator Begich. Right.
    Mr. Wheeler. And I'm--and I watched--and it was an amazing 
experience--I watched how that could change a community--the 
excitement that it brought to a community, the polar bear 
patrol, which I never knew anything about, that was enabled 
because of----
    Senator Begich. This new technology.
    Mr. Wheeler.--this new technology.
    Senator Begich. Very good.
    Mr. Wheeler. And the promise that that new technology, new 
communications technology, enables is wide in many areas, but, 
particularly in states like Alaska, it seems to have great 
opportunity.
    Senator Begich. Very good.
    Let me also--FCC has eliminated the budget for consultation 
with tribal nations, which--Alaska has half the tribes of the 
Nation, 230-some tribes, but, across the country obviously, a 
sizable amount. There is a--in Alaska, a sizable amount, 44 
million acres, of Alaskan-native-owned land; then, of course, 
with the Lower 48, lots of tribal land.
    What will you do to--I don't want to--I want to ask you a 
budget question, but I know the answer, so I don't want to 
waste my time on that. I'd rather just say, Are you willing to 
help step this effort back into what should be a part of the 
process, and that is tribal consultation with regards to 
wireless? Because if you look at the areas that are the least 
connected, predominantly it's tribal lands, throughout the 
country and Alaska. And yet, then the FCC wipes out the funding 
to actually consult to how to improve that. So, give me your 
thoughts, there. That's a very easy setup question. It's a 
really easy answer.
    Mr. Wheeler. It's hard--no, it's--well, but it's the--
truthful, sir. It is hard to serve people if you can't consult 
with them. Period.
    Senator Begich. I'll take that. We'll work with you. If 
you----
    Mr. Wheeler. I look forward to that.
    Senator Begich. Today, my colleague from Alaska, 
Congressman Young, had a--chaired an oversight hearing, in the 
House Natural Resources Committee, on the FCC and the Universal 
Service Fund. And you should watch it. He's very animated, 
because no one from the FCC decided to show up to the hearing, 
which, from our perspective, an Alaska perspective, we had 
people fly 5,000 miles to come to the hearing, when the D.C. 
folks are just down the street and couldn't find it in their 
time, in their somewhat busy schedule--and I get that--but, for 
Alaskans to fly that far--is amazing to me. As Chairman of the 
Commission, will you do everything possible, under every 
circumstance--I've experienced this, too, to be very frank with 
you, where they don't show up, because they don't want to have 
the discussion. Well, too bad. They've got to have the 
discussion, may they be uncomfortable. I have a lot of 
discussions every day that are uncomfortable, but we have to do 
that. Would you, as--if you're selected as Chair, will you 
ensure, wherever possible, that members of the FCC will show up 
at these hearings? I mean, I--I'll tell you, the--you have to 
watch the--not a happy camper, over there, so I can only 
imagine. Luckily, he's not doing the confirmation hearings.
    [Laughter.]
    Senator Begich. But, will you do everything you can--I 
mean, it's critical--to have the people at the table?
    Mr. Wheeler. It is--it's the same as the consultation 
issue. It's all about dialogue. And the answer to your question 
is yes.
    Senator Begich. Very good. Let me--I have just a few 
seconds left--let me just say, another area--obviously, we'd 
love to invite you to Alaska so you can--and you've been there, 
I know that, but now, assuming your new role, I'd be very 
interested in seeing you participate in coming up to Alaska and 
kind of seeing what we're trying to do with the new technology 
since your time there. And if you would at least consider that, 
we'd work with you on----
    Mr. Wheeler. I would look forward to that.
    Senator Begich. Last--and I know you saw it--there were 
some--the last--one of the last questions, over on the other 
side, was about the FCC's role in regards to DISCLOSE Act. You 
know, it's interesting, the FEC, another, you know, one--a few 
letters off, but the FEC--requires us to put our voice on the 
ads. So, it would seem logical, if corporations want to do 
these ads, they should put their voice, because they're 
supposed to be people, so I'm sure--I mean, they must have a 
voice somewhere. Isn't that a question? It's a rhetorical 
question. And I'm just putting that out there, because I think 
your point was good, that there are very strong feelings on 
both sides, here. If we're required to put the voice on, then a 
corporate--``corporation,'' that's now defined as a person by 
the Supreme Court, I hope that I'd see their voice--that they'd 
find their voice and put it on an ad. But, I'll leave it at 
that.
    Mr. Wheeler. Thank you, Senator.
    Senator Begich. Thank you very much.
    The Chairman. Thank you, Senator.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    I want to just point out that I know that there is some 
interest on this political advertising. And the fact is that 
there is a petition in front of the FCC that is ongoing, and 
it's not going to be appropriate for you to respond. There's a 
live petition for rulemaking, filed by Media Access Project, 
filed a year ago, asking the Commission to examine the 
Commission's authority under the Communications Act, to require 
more disclosure in political advertising. You were asked that 
by Senator Fischer, and, in essence, you deferred. And, I 
think, given the fact that there is an ongoing rulemaking, that 
is an appropriate thing to do.
    And, furthermore, I just want to mention that, when we 
talked earlier, we talked about the need of the Federal and the 
commercial users of the spectrum. I was pleased to see, just 
this past week, the Administration announced an initiative that 
seeks to promote a sharing in order to get more efficient use 
of the scarce spectrum resource. And so, I'm assuming, if 
you're confirmed, that this is something that you would go 
about contributing to this spectrum initiative through 
engineering--your engineering expertise and your authority as a 
Commissioner under the Communications Act.
    Mr. Wheeler. Yes, sir. If anything, what I have learned is 
that technology is constantly evolving, and the challenge is 
how policy keeps up with what technology makes possible. And I 
think that is a classic example, right there, sir.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    And now we'll have Senator Cruz, to be followed by Senator 
Blumenthal.
    Senator Cruz. Thank you, Mr. Chairman.
    Mr. Wheeler, welcome.
    Mr. Wheeler. Senator.
    The Chairman. Wait a second. Excuse me for a second, 
Senator. Did I bypass you, Senator Ayotte?
    Senator Ayotte. You did.
    The Chairman. Who did I bypass? Just tell me.
    Senator Ayotte. Are you going by the gaveling rule?
    Senator Cruz. I will happily defer to my friend from New 
Hampshire.
    Senator Thune. Mr. Chairman, while we've got all these 
deferrals going on, I just wanted to mention one thing. I 
understand it's your birthday today. Is that right?
    The Chairman. No.
    [Laughter.]
    Senator Thune. We won't ask our witness to sing you ``Happy 
Birthday.''
    Mr. Wheeler. Thank you.
    Senator Thune. But, we certainly do want to recognize your 
experience.
    The Chairman. Thank you, sir, very much.
    Senator Cruz. Given the position for which he's nominated, 
perhaps you could text him ``Happy Birthday.''
    [Laughter.]
    The Chairman. Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Mr. Chairman.
    And I want to thank you, Mr. Wheeler, for taking on this 
important role.
    When you and I met privately, I talked to you about my 
concerns with the Universal Service Fund and, frankly, how 
little return on the investment that my constituents get in New 
Hampshire. We're a country of 50 different states, so I know 
that there are always going to be some inequities. But, 
frankly, New Hampshire gets 37 cents on the dollar of what we 
contribute to the Universal Service Fund. And there are only 
four other states that get a lower return on their investment. 
And, frankly, they don't have some of the rural areas that we 
have, nor do they have many unserved areas, when you look at 
the census blocks to determine that.
    So, I would like to ask you, as you are in the position of 
the nomination to this important role--do you believe that the 
FCC has the ability, under the law today, to work with net 
donor states, like mine, to address what we feel is a very 
inequitable program? And also, can you share with me your 
thoughts on what needs to be done to fix this inequity and to 
make sure that we are further considering developments in 
technology as we look at the Universal Service Fund and how 
it's allocated? I'm happy to have you come visit some of the 
rural areas of New Hampshire, but, despite the fact that we're 
only getting 37 cents return on every dollar that a person in 
New Hampshire contributes, there are many rural areas of my 
state that don't have broadband access.
    Mr. Wheeler. Thank you, Senator. I am, unfortunately, not 
familiar with the specifics of New Hampshire. However, it is 
essential that universal service be looked at as a totality and 
the distribution, as well as the contribution formulas, looked 
at in light of the realities of today.
    As you and I had discussed, I was on the first USAC board. 
I lived through a lot of the early difficulties. And the great 
thing is that the world has moved on since some of those 
struggles, in terms of what's happening in the market and 
what's happening with technology. We need to make sure that the 
rules have, as well.
    Senator Ayotte. And can I ask for your commitment to work 
with people, like me, whose states don't get the return on 
their investment? It's hard for me to look people in New 
Hampshire in the eye and say that this makes any sense for my 
state and to address the problem of the inequities that are 
within the current Universal Service Fund.
    Mr. Wheeler. I look forward to working with you on that, 
Senator.
    Senator Ayotte. Thank you very much.
    I also wanted to ask you about the broadband deployment 
issue in the rural areas of my state--and I know that Ranking 
Member Thune touched on this issue. But, currently, the 
Commerce Spectrum and Management Advisory Committee is working 
on clearing Federal spectrum for commercial broadband use, but 
its work has been slowgoing. And I wanted to ask you: this 
morning, the former head of NTIA under President Clinton 
criticized this administration for moving too slowly when it 
comes to freeing government spectrum--one of the issues you and 
I have talked about--on some very valuable bands, particularly 
on the issue of the 1755-to-1780 band. And the FCC has less 
than 3 years to auction and license the 2155-to-2180 band. And 
the reality is, as you know, those bands are best paired 
together, so we're behind.
    So, what do you think, in your new role that we expect and 
hope you'll be confirmed for as the Chairman, that you would be 
able to do to move this forward, to really light a fire under 
this issue that there's a scarcity of spectrum and to see more 
private sector growth by having more spectrum available? And 
also, making sure that DOD has what it needs to protect our 
national security. So, if you can help me with that, I'd 
appreciate it.
    Mr. Wheeler. Thank you, Senator. And that's a huge 
question. Let me see if I can parse it out.
    First of all, I was there when the last Federal Government 
spectrum was reallocated to the private sector. I was 
representing the wireless industry in that situation. I 
understand the challenges involved. I understand the good 
faith, on both sides. And I understand how incentives have to 
be created and concerns have to be addressed.
    It's not my first rodeo. I look forward to participating in 
this issue and working with NTIA, who is responsible for the 
allocation. The FCC is then responsible for the assignment. 
But, sometimes a reallocation requires a reassignment, so there 
has to be a pairing of the exercise.
    And I also just want to comment, and all of your colleagues 
here, that--thinking back to 15 years ago and talking about 
spectrum with the Members of Congress--the understanding in the 
group of both sides of the spectrum debate that exists today in 
the Congress is far different than it was. And I think that's 
terrific, because you're the key to keeping both NTIA, the 
administration, and the FCC moving on this.
    On your specific question, insofar as 2155-to-2180 and 
1755-to-1780, yes, they need to be paired. And, as you know, 
the upper band of that, the Congress has said, ``You are going 
to have this done by February 2015.'' The lower part is 
actually part of a 95-meg reach from 1755 on up to 1810--no, 
it's not, I'm sorry--up to 1850. Get my math right. But, I 
think that parsing that to deal with the first part of that, 
1755-to-1780, and then trying to pair it, is an important thing 
that has to happen, and we shouldn't have to wait for 
everything to be cleared before we move on that.
    Senator Ayotte. Thank you. I appreciate your being here.
    And I want to thank your family for supporting your 
service.
    Mr. Wheeler. Thank you, Senator.
    The Chairman. Thank you, Senator.
    And now, Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    I was going to sing you ``Happy Birthday,'' but Senator 
Thune stole my thunder, so there we go.
    [Laughter.]
    Senator Klobuchar. I want to welcome our nominee. We 
enjoyed the meeting that we had. And I know we covered a lot of 
things, but one of the things that I think you know is a 
concern to me is that consumers should be able to keep the cell 
phone that they purchase, and use the cell phone that they 
purchase, even if they move somewhere or their service area 
changes. And that's why Senator Lee and Senator Blumenthal and 
I introduced the Wireless Consumer Choice Act, which directs 
the FCC to take action to ensure that consumers can unlock and 
keep their phones when they switch carriers. Senator Leahy also 
is working on a bill that I'm a cosponsor of that takes on the 
specific decision of the Library of Congress.
    And so, I wondered if you could comment on whether you 
agree that unlocking is an impediment for consumers choosing to 
switch carriers, and therefore, a barrier to competition. And, 
should you become the Chairman of the FCC, will you commit to 
working with consumers, carriers, and the Library of Congress 
to address unlocking? Two questions.
    Mr. Wheeler. Thank you, Senator. Who knew the Librarian of 
Congress had this far of a reach?
    But, I am a strong supporter of intellectual property 
rights. At the same point in time, I believe, when I as a 
consumer, or you as a consumer, or anybody else, have fulfilled 
our commitment, that--and we've paid off our contract--that we 
ought to have the right to use that device and to move it 
across carriers, or whatever, as we see fit. And, yes, I look 
forward to working on this issue and to resolving this issue to 
give consumers flexibility.
    Senator Klobuchar. Thank you.
    Another topic. Some of my colleagues had talk about the 
spectrum issue. And with the increased discussion about 
relocating government spectrum users in order to increase 
spectrum available, for good intention, Commissioner 
Rosenworcel has suggested providing financial incentives to 
government agencies to participate in relocation. This is just 
one idea. The President, last week, also called for agencies to 
look--take a look at their spectrum holdings and identify 
spectrum for commercialization.
    What do you see as the future for government and commercial 
spectrum management and cooperation?
    Mr. Wheeler. Well, as I mentioned earlier, I was involved 
in this very issue, the first time it ever happened, and it 
only worked if we created incentives--in that case, it was the 
Defense Department--if we created appropriate incentives for 
the Defense Department to be able to free up spectrum and still 
do its job. And those incentives ended up coming down to, How 
can you provide the wherewithal so that, if they're leaving 
this piece of spectrum to go to this piece of spectrum, that 
they can do it over here, with the best technology, with 
digital technology, rather than analog technology? That comes 
down to a cash issue. That came down to an appropriation issue. 
And the Congress, in that situation, created the incentive by 
creating the Spectrum Trust Fund and saying that the money 
raised from the sale of DOD spectrum would, in fact, go to DOD 
to help upgrade.
    So, I--Commissioner Rosenworcel made a terrific observation 
when she said that we ought to be thinking more about carrots 
and less about sticks.
    Senator Klobuchar. Very good.
    Mr. Wheeler. And I agree with her.
    Senator Klobuchar. Another question related to the Spectrum 
Act. When Congress passed it, authorizing the world's first-
ever incentive auction, the Act specifically mentioned that the 
FCC should coordinate with Canada and Mexico, prior to the 
auction, to protect broadcasters from interference in any 
repacking. It's important to lay the groundwork and have 
clarity with our international neighbors. That was the focus.
    Being a state that is on the Canadian border, will you 
commit to work with the--we've been talking a lot about 
borders, the last few days on the floor, but not really the 
Canadian border--but, I wondered if you could commit to working 
with the Canadian government, as well as spectrum users such as 
broadcasters on both sides of the border, to make sure that the 
auctions are a success?
    Mr. Wheeler. Yes, Senator. And I was involved in the 
digital transition, which involved rebanding, in much the same 
way--had to live through those kinds of issues. And I know that 
it is possible to do. And yes, we will do that.
    Senator Klobuchar. And I thank you for that work on that 
digital transition. That was when I--my--about my third year in 
office, and I remember how concerned we were that that was not 
going to go well. And the delay, I think, was helpful, and we 
got it done without a lot of problems.
    Everyone knows that retransmission consent--now we're going 
to have 10 questions on that; I'm kidding--is a hugely 
controversial topic. We've spent countless hours in this 
committee debating it and the authority of the FCC. Could you 
discuss your views on retransmission policies?
    Mr. Wheeler. Yes. It's interesting. You know, when I was in 
the cable industry, retransmission was an entirely different 
concept, because today broadcasters are using retransmission 
consent as a way of developing a new revenue stream, where they 
can get revenue from subscribers through the intermediary of 
the cable operator. I believe in that kind of evolutionary 
market.
    What does bother me, though, Senator, and I think the 
Commission needs to be attuned to, is when consumers are held 
hostage over corporate disputes. And if I am fortunate enough 
to be confirmed, that'll be something that I'll be looking at.
    Senator Klobuchar. Very good. Thank you.
    One last question. Senator Ayotte touched on, in some 
length, the rural broadband issue. And I know you and I talked 
about that. It's incredibly important in our state. I think 
that kids grow up in rural Minnesota, should be able to live 
there and work there, and that means they're going to have to 
have high-speed Internet.
    One of the things I think has been helpful--Secretary 
Vilsack has a good sense of that, and I hope you'll commit to 
working with him, going forward--to make sure investments are 
made to build out our broadband networks.
    Mr. Wheeler. Yes, ma'am.
    Senator Klobuchar. OK. And will you continue to review the 
FCC's USF reforms and measure the impacts on broadband 
investment?
    Mr. Wheeler. I think that USF reform is a priority of the 
Commission in the totality of the process. So, the answer to 
that is yes.
    Senator Klobuchar. Very good. Thank you very much.
    Mr. Wheeler. Thank you, Senator.
    The Chairman. Thank you, Senator Klobuchar. You ended 
precisely on time.
    Now, I want to say, to my colleagues, that I'm a little 
embarrassed, here. Senator Heller is next.
    And, first, I should say to you, Mr. Wheeler, I've never 
been to a hearing where we had sort of a--basically, an hour's 
worth of votes, and everybody came back.
    [Laughter.]
    The Chairman. The problem is, in which order did they come 
back.
    [Laughter.]
    The Chairman. That's not your problem, that's my problem. 
And if you call on a Senator behind another Senator or ahead of 
another Senator, they only remember it for 2 years.
    [Laughter.]
    Senator Klobuchar. But, not on your birthday. You get an 
exception.
    [Laughter.]
    Senator Heller. We'll give you a break.
    The Chairman. Senator Heller.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Thank you. Mr. Chairman, I promise I won't 
be precisely on time, but thank you very much.
    And, Tom, thank you. I appreciate the meeting that we had 
in my office. I want to, again, congratulate you on the 
nomination, and I want to----
    Mr. Wheeler. Thank you.
    Senator Heller.--welcome your family here, also. Good to 
see you. Their smiling faces behind you, it does help.
    Mr. Wheeler. Thank you, Senator. Yes, sir.
    Senator Heller. A question that I have--and I guess what 
I'm looking for is a better understanding of the ``Wheeler 
FCC.'' I can't think of an industry today that has more 
potential for growth than any other industry in America today: 
technology. I think we're going to create more jobs in this 
sector, probably, than any other industry in this country in 
the next 5 to 10 years, if we do our jobs right, here on our 
side and your side.
    So, the question that I have that comes to mind, Are you 
familiar with some of the reforms that came out of the House 
during the last cycle, for the FCC?
    Mr. Wheeler. Yes, sir.
    Senator Heller. Congressman Walden was the author of that 
particular----
    Mr. Wheeler. Right.
    Senator Heller.--FCC bill, and I'd like to highlight just a 
couple of pieces on there, and see how you feel about them, 
because I think it's important, and I think it'll come back, 
something that you'll have to be discussing in the future. And 
I only say that because I've authored the Senate side----
    Mr. Wheeler. I know you have.
    Senator Heller.--of this particular piece of legislation.
    One of the things that he was trying to achieve, I believe, 
in his legislation, was to get the industry and the Commission 
to work better together, that, at times--and you may know this, 
having your background and experience--that, at times, the FCC 
would not go to the industry and ask them if a new regulation 
actually made sense. And I think that's where Walden was trying 
to get to, amongst other things, was to make sure that the FCC 
and the industry have an opportunity to talk.
    Do you have any thoughts on that?
    Mr. Wheeler. Yes, that----
    Senator Heller. Yes.
    Mr. Wheeler. I mean, first of all, I'm still reeling----
    Senator Heller. Do you agree--do you agree that was--has 
been an issue in the past?
    Mr. Wheeler. I think--I must say, in all candor, sir, I 
don't believe that, when my job was advocating before the 
Commission, that there was a challenge getting my ideas heard. 
I do believe that it is essential that the Commission have an 
open process for the collection of ideas and inputs.
    And I also just want to respond to one thing you said, a 
moment ago, which still has me a little startled, when you used 
the term the ``Wheeler Commission,'' which is the first time 
I've really ever heard that, particularly from somebody like 
you. It's an honor to have that kind of moniker, but I would 
also want to emphasize that it is a ``commission,'' and that I 
don't believe that I'm the Czar. I look forward--I know that it 
is a strong Chairman role. I understand the responsibilities of 
the Chairman, but I also think that this is a--an institution 
that needs to work collegially and together on resolving the 
challenges.
    Senator Heller. One of the issues that Walden had in his 
legislation, which I agree with him on, that the previous 
Chairman disagreed with, and that was whether or not to do an 
analysis every time a new regulation was proposed: Did it 
create jobs or did it kill jobs? What's your feelings on that 
topic?
    Mr. Wheeler. Well, I know that one of the things that you 
have proposed is to address the question of whether there are 
too many diverse reports coming out of the FCC and there is too 
much time being spent on too many reports.
    Senator Heller. I agree.
    Mr. Wheeler. I think you raise an incredibly valuable 
point, when you asked that question, and I think that, inside 
the construct of whatever the mandate of reports that the 
Congress decides they want the Commission to have, that kind of 
an issue falls.
    Senator Heller. OK. And I appreciate your response to that, 
because, obviously, we share that.
    Merger conditions, also something that has been brought up 
several times with both Senator Thune and with Senator Blunt 
regarding their questions on merger reviews. Now, you've 
indicated, three times, that merger reviews should be based on 
facts. And you and I would agree with that. But, again, your 
blog post, dated September 2, 2011, said, ``My theory was that 
conditions ultimately imposed on AT&T by the Government should 
not only establish rules on AT&T, but would expand from larger 
carriers to all others.''
    Now, I see two different theories, here.
    Mr. Wheeler. But only one set of laws. There--that in a--in 
a hypothetical musing, it is possible to do those. If I am 
fortunate enough to be confirmed, I am guided by statute, 
precedent, and the facts in the case before me. Period.
    Senator Heller. OK. Let me ask you one more question. And 
this is one of the complaints that I've received in the past. 
Can you assure us that you'll have no votes between midnight 
and 6 o'clock in the morning----
    [Laughter.]
    Senator Heller.--on the Commission?
    Mr. Wheeler. I--Carol is sitting here. She will tell you 
that it's rare that I'm awake past 10 o'clock at night. And I 
don't know the reference you're making, but it certainly would 
not be my goal to be holding votes at that time of night.
    Senator Heller. Thank you very much.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Heller.
    Now Senator Cruz.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman.
    Mr. Wheeler, de ja vu all over again.
    Mr. Wheeler. Sir.
    Senator Cruz. Thank you for being here. I enjoyed the time 
you and I had to visit in my office.
    Mr. Wheeler. Yes, sir.
    Senator Cruz. I want to cover a number of issues. I want to 
start with spectrum.
    It is my view that the Federal Government should own or 
control as little spectrum as possible, consistent with 
national security and law enforcement needs. Do you agree with 
that principle?
    Mr. Wheeler. The--I--let me--if I could tweak it a bit. The 
Federal Government should be efficiently using spectrum to a 
point where it uses the minimal amount of spectrum necessary to 
do its job.
    Senator Cruz. What do you see--I mean, as you know, there 
has been a long history of reluctance by those Federal agencies 
that have control over portions of spectrum--there has been a 
long history of reluctance to relinquish that control--what do 
you see as the most effective tools Congress can implement to 
shift more and more of that spectrum into private hands, where 
it can generate jobs and economic growth?
    Mr. Wheeler. That's a--excellent question. Thank you, sir. 
And I think there are many.
    One, as I indicated before, the bright light that you are 
focusing on spectrum now is so different than the days when I 
was negotiating with the Federal Government over spectrum. And 
that can only help.
    Second, I think that--I would hope that part of that bright 
light would be an encouragement to think about how new 
technology has changed the use of spectrum. Doing things the 
way we've always done them isn't the answer for tomorrow. And 
most spectrum has been allocated with analog concepts in mind. 
And living in a digital world, we can think differently.
    And third is the issue of creating the necessary incentives 
for the Federal Government users to become efficient and to 
want to put spectrum to other uses.
    And I think all of those reside here. I think--if I am 
fortunate enough to be confirmed, sir, I will be forthright in 
calling for these kinds of changes, but I think that you all, 
frankly, are the ones who actually are in control of that.
    Senator Cruz. Well, I look forward to, hopefully, working 
with you to accomplish that.
    Mr. Wheeler. Thank you, Senator.
    Senator Cruz. Let me shift to a different topic, which is--
as you know, in recent months, two of the President's Cabinet 
nominees have sat where you are sitting, and I asked both of 
them if they would commit--my top priority is economic growth. 
And critical to economic growth is regulatory reform, reducing 
the burdens of Federal regulation on small businesses, on job 
creation. So, I asked each of those two nominees if they would 
commit, within the first 100 days, to identifying at least 
three existing Federal regulations that should be modified or 
repealed because they're impeding job creation. One of them 
agreed to do so, and a second one actually upped the ante and 
said that he thought three was insufficient; he agreed to find 
ten, instead. So, I want to ask you the same question.
    Mr. Wheeler. Well, I don't want to get into the game, here, 
although I'll see his ten and raise him ten. But, I will----
    Senator Cruz. I would welcome 20.
    [Laughter.]
    Mr. Wheeler.--I will take a slightly different tack on 
that. As I have been preparing for this hearing, I've been 
asking myself that question. I wrote a book on Lincoln's use of 
the telegraph. I'm kind of fascinated with the first electronic 
communications network that we ever had. I discovered that the 
telegraph rules are still in place at the FCC. I'd like to take 
a look at whether that makes any sense.
    But--and that is my philosophy, sir, of looking at all of 
the rules with that kind of an eye.
    Senator Cruz. Well, I appreciate that very much, and I hope 
we can work together; in particular, look--I think getting rid 
of the telegraph rules makes a lot of sense--but, I think, in 
particular, obviously, targeting those rules that are really 
impacting productivity and job creation. It is, I know, a 
priority of ours, and----
    Mr. Wheeler. Yes, sir.
    Senator Cruz.--and I hope we can work together on that.
    I want to briefly touch on the question of unlocking 
phones. And you mentioned contract law, and that's obviously a 
matter between private parties. In your opinion, should Federal 
law prohibit or criminalize consumers unlocking their phones?
    Mr. Wheeler. Well, I think that a consumer has the--if the 
consumer fulfills their side of the bargain, they ought to have 
the right to unlock their phone.
    Senator Cruz. Would you support a permanent exception to 
the DMCA for cell phones and other wireless devices?
    Mr. Wheeler. I think that we--that--first, I think it's an 
extension, now, that has caused all kinds of problems that we 
need to deal with. I don't, right now, sir, know whether it is 
a permanent exemption, whether it is a rewrite of the Copyright 
Act, or what the appropriate solution is. But, I do believe 
that there needs to be a solution and consumers should have the 
right to unlock their phones after they've lived up to their 
side of the deal.
    Senator Cruz. Well, terrific. I look forward to working 
with you on that.
    The final issue I want to address is one that's come up 
already, the DISCLOSE Act. As you know, there are few, if any, 
issues that inspire more passionate partisan divisions in this 
body. This body has repeatedly failed to pass the DISCLOSE Act, 
because a substantial number of members of this body believe it 
is unconstitutional and bad policy. In your judgment, does the 
FCC have the authority to implement the DISCLOSE Act or to 
otherwise regulate political speech?
    Mr. Wheeler. As I have said before, that's an issue that I 
look forward to learning more about. There is a pending 
proceeding on that exact question, and I need to look at that 
proceeding and to become informed. But, I do not miss the 
expression, on both sides of this dais, as to the strong 
feelings, and I know that this is a--this is an issue of 
tension.
    Senator Cruz. Well, Mr. Wheeler, as you know, every 
Republican on this committee, along with Minority Leader Mitch 
McConnell, sent a letter to your predecessor on this issue.
    Mr. Wheeler. Uh-huh.
    Senator Cruz. And you and I visited in my office. You said 
you need to study the issue more. I would ask you to submit, in 
writing, an answer to this question.
    [Mr. Wheeler's reply can be found in the Appendix on page 
75.]
    Senator Cruz. And I would note, as you and I visited 
privately, this is the one issue that, in my opinion, has the 
potential to derail your nomination. And I don't want to see 
that happen. I think the Commission has a very important role. 
But, should the Commission leave that role and get into the 
business of regulating political speech--we've seen, with the 
IRS, what can happen when Members of Congress urge the 
Executive Branch to begin playing politics.
    And so, I look forward to reading your written response, in 
terms of whether you believe the Commission has the authority 
to implement the DISCLOSE Act or to regulate political speech.
    Mr. Wheeler. Thank you, Senator.
    The Chairman. Thank you.
    Senator Coats, bad news. Senator Blumenthal walked back in, 
preempts you by one.
    So, Senator Blumenthal, followed by Senator Coats, followed 
by Senator Scott, followed by the eminent Senator Cantwell.

                 STATEMENT OF HON. DAN COATS, 
                   U.S. SENATOR FROM INDIANA

    Senator Coats. Mr. Chairman, thank you. And I----
    Senator Blumenthal. If----
    Senator Coats.--I appreciate that.
    Senator Blumenthal. If the distinguished Senator from 
Indiana has a time constraint, I'm happy to yield to him.
    Senator Coats. I do have a radio show at 5 o'clock, but--
which means I will take less than my 7 minutes.
    Senator Blumenthal. I would--with your permission, Mr. 
Chairman, I'll yield to my colleague and friend from Indiana.
    Senator Coats. I appreciate that, and I owe you one.
    Tom, you said this is not your first rodeo. And it's not my 
first rodeo, either. You bring a lot of experience to the 
table, here, a lot of knowledge about the relevant issues. 
You've had a good career in this.
    I was out of the Senate for 12 years; and during that time, 
part of that time, I did advocate on behalf of some clients. 
And then, when I came back here, I think those clients thought, 
``Oh, boy, we've got somebody there that--he already knows our 
issues, and we know where he's going to come down.'' I was able 
to inform every one of them that I'm starting with a clean 
sheet. People are going to have to come--you're going to have 
to come and make your case to me as if it's a brand-new issue. 
My representation of you doesn't have a bearing, in terms of 
how I'm going to decide, going forward.
    My constituents came to me and, basically, said, ``You 
know, you voted for our position, or against our position, and 
we're wondering if you're still with us or you're still against 
us.'' I said the same thing: clean sheet.
    So, I'm hoping that--I think that's the way to approach it. 
I'm hoping that's the way you'll approach your job, that you 
will not base future decisions on the fact that you took a 
different position in your private life, or that you came to a 
conclusion that may not match up with the current situation, as 
it exists today, the current facts, and that you will have that 
open door, clean sheet, when clients come forward, regardless 
of what your past positions might have been.
    So, I'm--you don't have to affirm that, but I'm just 
suggesting that it worked very well for me, and I hope it works 
well for you.
    Mr. Wheeler. Senator, thank you for bringing that up, 
number one, and second, for your advice and counsel on it.
    I was an advocate for specific points of view. I hope I was 
a pretty good advocate.
    Senator Coats. You were.
    Mr. Wheeler. I remember our times working together, sir.
    If I am fortunate enough to be confirmed, my client will be 
the American public. And I hope that I can be as effective an 
advocate for them as humanly possible.
    Senator Coats. Good. I thank you for that statement. And 
I'll let it go at that.
    And I thank my colleague for allowing me the time.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Coats.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman, and----
    The Chairman. Good question.
    Senator Blumenthal. Thank you, Mr. Wheeler, for your 
willingness to serve----
    Mr. Wheeler. Senator.
    Senator Blumenthal.--the American public as your client----
    Mr. Wheeler. Thank you, Senator.
    Senator Blumenthal.--which I believe is supremely important 
as an approach to this job. And let me just say, from my part, 
with all due respect to my colleague from Texas, I don't have 
an issue that would derail your confirmation, and I hope you 
will adopt the approach of considering, carefully and 
cautiously and deliberately, all of these issues, once you 
reach the position, if you are confirmed, that will best serve 
the American public, and that you will be willing to listen to 
what's presented to you. And I think that listening is very, 
very important in this job.
    So, in that spirit, let me just ask you, first, about 
limits on spectrum consolidation, which is very important to 
the public, and the FCC is currently revisiting its antiquated 
and inadequate spectrum screen--updating the screen is 
important, not just for this upcoming auction, but, also, it's 
integral to ensure that the wireless market remains competitive 
for years to come. As you know, the Department of Justice 
recently wrote the FCC to weigh in on how the Commission can 
structure its spectrum policy to best encourage competition and 
promote consumer welfare, and it encourages the FCC to create a 
spectrum policy that ensures smaller carriers have access in 
order to promote more competitive discipline, more competition, 
more choices. And I'd like you to agree, with me and the 
Department of Justice advice, that the FCC should create a 
spectrum policy that specifically seeks to encourage 
competition in the wireless marketplace.
    Mr. Wheeler. Senator, the Act on the--dealing with the 
incentive auction was very explicit. It said that you could not 
preclude a company from participating, and it also said that 
the Commission had authority to establish the rules for various 
band plans.
    The--I remember the first spectrum auction, when I was one 
of the guilty parties of saying, ``You have to do it this way 
or the sky will fall.'' And I know that that always happens in 
this kind of a situation.
    But, I believe that there is a responsibility that the 
Congress has given the Commission to have an effective auction 
and to preserve and protect competition, which includes smaller 
players, which are so often the innovation engine.
    Senator Blumenthal. So, that would mean that they should 
have access to the spectrum.
    Mr. Wheeler. I think that that's one of--that is a key 
issue that the Commission has to consider when it looks at this 
band-plan authority that the Congress has given----
    Senator Blumenthal. And a key goal.
    Mr. Wheeler. Yes, sir.
    Senator Blumenthal. Thank you. Do you think that the FCC 
ought to account for differences in quality between different 
spectrum, particularly low- and high-frequency spectrum?
    Mr. Wheeler. I am very aware of the different propagation 
techniques. I would be disingenuous if I told you I had an 
answer to that question, sir. I am----
    Senator Blumenthal. But, there are differences----
    Mr. Wheeler. There are difference in propagation 
characteristics that--one piece of spectrum is not the same as 
another. I have not reached a policy decision on how you 
balance that out.
    Senator Blumenthal. But, it certainly is a relevant 
consideration.
    Mr. Wheeler. It certainly is, sir.
    Senator Blumenthal. Let me switch to another consumer 
issue, which my colleagues are--have not raised; and that is 
blackout policy, which you and I talked a little bit about, or 
we alluded to it when we spoke. And, as you know, few issues 
concerning the FCC drive sports-fan consumers as--I was going 
to say ``drive them as crazy,'' but ``upset them,'' to use a 
more temperate way of putting it--as the current blackout 
policies and practices.
    So, my question to you is, What can the FCC do to decrease 
the frequency of blackouts and make sure that consumers, 
essentially, aren't stuck with blank screens when they want to 
watch sports contests that they should be seeing, they have a 
right to see?
    Mr. Wheeler. Well, as you know, there is a proceeding 
before the Commission, right now, to eliminate the so-called 
``sports blackout rule,'' which derives from the days when 
decisions were made on the basis of what broadcasters in a 
market had contracted to. The market has moved since that time, 
point one. Point two, the market has a plethora of new players 
since that time, the latest example of which is Verizon 
Wireless paying a billion dollars--with a ``B''--a billion 
dollars to the NFL to be able to stream NFL games onto mobile 
devices, without the blackout rule ever being considered. So, 
clearly, this is an issue that is ripe for Commission decision. 
Because there is a proceeding at the Commission, I don't think 
it's appropriate for me to opine, at this point in time, but 
there is an evolutionary process, here.
    Senator Blumenthal. But, you would agree that the 
Commission should move forward with the Notice of Proposed 
Rulemaking concerning the blackout?
    Mr. Wheeler. There is a process in place to deal with this 
evolution, sir.
    Senator Blumenthal. Let me ask you, finally, just 
generally, if you consider the array of consumer protection 
issues now before the FCC, have you settled, in your mind, on 
several, or a single one, or more than a few, that really 
should be priorities for the FCC?
    Mr. Wheeler. That is a legitimate question, and one that I 
can't say that I have gone A, B, C, D. However, I have thought 
about, What are the kind of priorities I want to--if I'm 
fortunate enough to be confirmed--that I want to consider? And 
it seems to me there are three:
    The first is consumer protection. As I said in my 
statement, the Telecommunications Act makes it abundantly clear 
that the first task of the FCC is consumer protection.
    The second issue is competition. And, as I said in my 
statement, I am an unabashed believer in competition, and 
competition sometime also needs some help to make sure that 
it's there.
    And the third issue that I would have as a priority is 
predictability, decisiveness, dispatch, ability to know what 
the rules are, because, frankly, whether a rule is right or 
wrong, knowing what it is, is more of an economic incentive 
than existing in the, ``Oh, my goodness, what are the rules 
right now?''
    And so, it's those three things that I would be guided in 
as I go through and parse through what are the kinds of issues 
that ought to be addressed.
    Senator Blumenthal. Thank you.
    Thank you, Mr. Wheeler. Thank you for your answers to my 
questions and your willingness to serve.
    Thank you, Mr. Chairman.
    Mr. Wheeler. Thank you, Senator.
    The Chairman. And thank you, Senator Blumenthal.
    Senator Scott.

                 STATEMENT OF HON. TIM SCOTT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Scott. Thank you, Mr. Chairman.
    Mr. Wheeler, good chatting with you recently.
    Mr. Wheeler. Senator.
    Senator Scott. Looks like the broadcast incentive auction 
will consume a lot of your time during your term----
    Mr. Wheeler. Yes.
    Senator Scott.--without much of a question.
    Mr. Wheeler. Yes, sir.
    Senator Scott. Part of that process--not only does it 
support innovation, creativity, not only is it going to be a 
part of the future engine of our country, economically--there 
seems to be some concerns, back at home in South Carolina, as 
it relates to the repacking process. And so, two questions. One 
would be, Could you discuss with me how you would anticipate 
allocating the repacking funds provided by the legislation? I 
think it's about $1.75 billion or so. And how would you 
anticipate handling the low-power TV stations in the repacking 
process?
    Mr. Wheeler. Thank you, Senator.
    And I cannot give you a specific example--a specific 
response to that. And I hope you can sense my frustration as to 
why I can't, because I really have not been able to look beyond 
the public record on this issue.
    However, I mentioned to Senator Thune, earlier on, that 
this hearing--or, this proceeding, in the auction, is like a 
Rubik's Cube, where you've got to provide--on this side of the 
cube, you've got to provide incentive sufficient for 
broadcasters to want to put--to bring their spectrum to market. 
And then, you've got to organize it in a way that makes it 
valuable, so that whoever is bidding wants to bid on it. And 
the glue that is in the middle--the grease and the glue, if you 
will, that's in the middle--is how you do the band plan and how 
you decide how this works. And so, it is--I agree with you, 
sir, it is crucial.
    I also know, from my experience on the digital television 
transition, the incredible importance, and the responsibility 
that exists to somebody who is--who perhaps may be a 
regulator--on how service areas and band plans are allocated or 
decided as you work through this band plan. And one of the big 
challenges that existed in digital television transition was, 
``How do you make sure that you have similar coverage areas?'' 
and all of these kinds of things.
    I believe it is possible to find the right solution. It is 
not easy. I wish I could give you the specific answer. I don't 
know what it is. But, I do have the experience to say that I 
know it's possible to reach that.
    Senator Scott. Thank you.
    One of the things the current Commission is wrestling with 
is whether or not to weaken its broadcast decency standards. 
And this is going to be an ongoing debate, it seems. The public 
is engaged pretty intensely in the debate, as well, with over 
100,000 responses from the public. I know that the last time 
the decency enforcement standard was considered, back in 2004, 
it took about 8 years for them to come to a decision by the 
Supreme Court.
    My question to you is, as Chairman, where would you take 
the broadcast decency policy?
    Mr. Wheeler. Thank you, Senator. That's a very relevant 
question. As you heard me say, early on, when I was introducing 
my family, I've got three brand-new grandkids. I'm old enough 
to, when I see some things, to kind of grit my teeth and say, 
``Does this--is this what I want my grandkids to be seeing?''--
whether it be violence or obscenity or indecency, or whatever. 
At the same point in time, as you point out, the courts have 
been pretty specific and restrictive.
    I do believe, however, that it is possible to call upon our 
better angels, with some leadership. I remember Newton Minow 
talking about television as ``the vast wasteland.'' He did that 
without regulatory authority. It caught the public's attention. 
Maybe it's possible to do the same kind of thing today and say, 
``Can't we do better?''
    Senator Scott. I like your optimism, at least. I'm not sure 
I share it, but I like it.
    Let me ask you a question about IP transition, since it's 
obviously coming.
    Mr. Wheeler. Right.
    Senator Scott. And I think, in 2011, you chaired, or you 
were part of, the advisory committee.
    Mr. Wheeler. Right.
    Senator Scott. And certainly, the industry has gone a long 
way towards making the necessary capital investments to help us 
shape the future. How do you envision the transition taking 
shape? And do you believe a sunset of the legacy copper network 
is still possible by 2018?
    Mr. Wheeler. So, I was the Chairman of the----
    Senator Scott. Yes.
    Mr. Wheeler.--of the Committee that started the ball 
rolling.
    Senator Scott. Exactly. God bless your soul.
    Mr. Wheeler. And I think that there are--there are a couple 
of things. One is, it's going to happen, with or without us. 
The question is, how do we mitigate the impact of it? Because--
--
    Senator Scott. Yes.
    Mr. Wheeler.--we've all lived through other transitions. We 
lived through the broadcast-to-cable transition, we lived 
through the wireline-to-wireless transition. And there were 
bumps along the road in all of it. I think that what the 
Commission can do--and if I am fortunate enough to be 
confirmed, I hope that we will be able to lay out--is some kind 
of stratagem that says that we have to progress through this 
with some kind of planned structure rather than it growing like 
topsy and just happening here and happening there, and one 
person tries this and--because that's what causes the 
dislocations, that's what causes the harm to consumers, that's 
what causes the disincentive to invest. And so, I'm hopeful 
that we will be able to address the broad spectrum of issues 
associated with the IP transition in a collective and logical 
way.
    Senator Scott. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Scott.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I stayed around 
just to wish you a ``Happy Birthday.''
    [Laughter.]
    Senator Cantwell. And to ask Mr. Wheeler some questions.
    And I'm very glad that he brought up Newton Minow. I 
remember that story about Newton Minow, I think, taking 
President Kennedy around, or maybe it was Senator Kennedy at 
the time, and he said, ``Why are we launching satellites 
instead of people, you know, into space?'' And Minow said, 
``Because ideas last longer than people do.'' And I think 
that's a very important question, when it comes to media and 
media consolidation. I want lots of ideas. I don't want ideas 
packaged up and shoved down local throats of individual 
broadcasters, saying, ``This is the news, and that's the way 
it's going to be.''
    So, one question I have for you is this issue of media 
consolidation and your role on the FCC. You know about previous 
chairmen and their attempts to advocate for rule. Then-Senators 
Obama and Biden joined us in disapproval resolutions. Last 
week, Gannett newspaper announced it was going to purchase 
Belo's 23 television stations. And so, that includes KING in 
Seattle, KREM in Spokane, and KRW in Portland. And the--while 
the purchase is subject to the approval of the--of both the FCC 
and DOJ, I think Gannett is trying to, basically, use these 
ownership rules--use the whole shared service agreement as a 
way to get around those rules.
    So, I'm very, very concerned about that whole issue. And 
so, do you believe in that making it easier for owners of daily 
newspapers to own television stations and radio stations, the 
same market rule is what's wrong with the newspaper industry? 
Is that the way we need to be going?
    Mr. Wheeler. Senator, I understand the seriousness of this 
issue, and I have long been an advocate of diversity of voices.
    On the specific issue that you just raised, I also note 
that the Chairman has asked the GAO to opine on this issue. And 
I think that's appropriate, called for, and I look forward to 
their opining, their opinion.
    But, I think you said the key thing, that, when the 
Commission looks at these issues, competition, localism, and 
diversity are the issues that should be the touchstones, not 
business plans.
    Senator Cantwell. And so, do you believe that some 
broadcasters could abuse those shared services or joint sales 
agreements to get around those ownership rules?
    Mr. Wheeler. I am not informed enough to be explicit on 
that, and I--but I am going to be, and I look forward to 
pursuing that issue with you.
    Senator Cantwell. And so, you basically believe that this 
is an issue that the Commission needs to give more attention 
to, to assure Members of Congress. Otherwise, we'll have 
another disapproval resolution that there are going--there's--
there is going to be adherence to, not a continued move on 
consolidation. And I guess I was asking--my first question is, 
Do you--a lot of people try to put forth the notion that 
newspaper industries, in and of itself, are having problems, 
and this is why you should allow the consolidation of media to 
save the day. And so, I--trying to get your thoughts on that.
    Mr. Wheeler. I'm a businessperson, and it has been my 
experience that the way to grow businesses, when they are 
challenged by new technologies, is to embrace those new 
technologies, and that that's the way of working yourself out 
of this kind of a situation. That's the best way of working 
yourself out of this kind of situation.
    Senator Cantwell. So, you don't run to the explanation of, 
``Well, let's just allow for, you know, all sort of integration 
to solve this problem''----
    Mr. Wheeler. I----
    Senator Cantwell.--and thereby throw out these very 
legitimate concerns about over-consolidation in the market.
    Mr. Wheeler. I am specifically trying not to be specific--
--
    Senator Cantwell. I----
    Mr. Wheeler.--on that, Senator, because I want to become 
more informed. I do understand the seriousness of this, and I 
understand the priority of--competition, localism, and 
diversity trumps everything.
    Senator Cantwell. OK. OK. On the Progeny Petition, are you 
familiar with that?
    Mr. Wheeler. Yes, ma'am.
    Senator Cantwell. There was a lot of discussion about 
whether interference was actually going to happen, or not. Will 
you pursue an aggressive approach to make sure that you're 
monitoring complaints and things of--so that we actually see 
what's happening and----
    Mr. Wheeler. The answer is yes, because if one of the 
solutions to the spectrum crunch is to use more--use spectrum 
more efficiently, that inherently means sharing, whether it's 
geographic sharing, time sharing, or literally sharing-sharing. 
And that means you have to be monitoring interference to make 
sure that this efficiency is, in fact, happening.
    Senator Cantwell. OK. So--appreciate that. And then, on 
this unlicensed spectrum--we heard a lot about the spectrum 
crunch today--but, do you believe there's a crunch in 
unlicensed spectrum?
    Mr. Wheeler. You know, I think--I am a supporter of 
unlicensed spectrum. I find it noteworthy that unlicensed has 
been the rescuer of licensed in so many ways, that a third to 
three-quarters of the wireless data, the mobile data out of a 
smartphone, ends up going through unlicensed spectrum rather 
than licensed spectrum, that unlicensed is the home to 
innovation, and therefore, that we need to have unlicensed 
spectrum.
    Senator Cantwell. So, you support broadcast white spaces 
for unlicensed----
    Mr. Wheeler. And, at the--yes--and, at the same point in 
time, I recognize that the job of the Commission is to balance 
out the demands between, ``OK, here's licensed, that you can 
sell, that will fund FirstNet and other kinds of activities; 
and here's unlicensed, that you can't sell.'' And how do you 
reach the balance on those? But, I do not take lightly the 
significance of unlicensed spectrum.
    Senator Cantwell. Thank you.
    I see my time is expired, even at 7 minutes. Thank you, Mr. 
Chairman.
    The Chairman. You don't have to stop.
    Senator Cantwell. That's OK, thank you.
    The Chairman. OK. Thank you, Senator Cantwell, very much.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman, for giving us 
a second round. And it will be a brief second round, on my 
part, but I want to cover some issues relating to broadband 
that I think have not been touched on.
    You know that half of all broadband subscribers in the 
United States are subject to some kind of cap--bandwidth cap or 
usage-based billing policy, caps that----
    Mr. Wheeler. Right.
    Senator Blumenthal.--a lot of people regard as anticonsumer 
and, in the end, inhibiting more Internet use, which is key to 
a lot of people communicating with each other and learning 
about the world, and also more expensive because of the effect 
on competition. And, as you know, Congress recognized the need 
for more information about what the situation is, locally, what 
the state of competition is, how these caps impact competition. 
And it recognized that--when it passed the Broadband Data 
Improvement Act, in 2008, the FCC recognized this fact in the 
broad--National Broadband Plan, and the Department of Justice 
recognized it when it submitted comments to the FCC on how best 
to promote more competition in the broadband marketplace.
    So, I guess my question is, Do you agree with the 
recommendations of the National Broadband Plan and the DOJ, 
that the FCC should be collecting more broadband pricing 
information to facilitate an understanding of what's happening 
there, how these caps, how the potential lack of competition, 
other factors, are impacting consumer use and competition?
    Mr. Wheeler. Thank you, Senator. I'm a data-centric guy. I 
come from a management background, and the thing that they used 
to beat into you in business school, ``If you can measure it, 
you can manage it''--I believe that, sir. I believe that you 
need to have the kind of data that you're talking about.
    Senator Blumenthal. Thank you. That answers my questions--
--
    Mr. Wheeler. OK.
    Senator Blumenthal.--and thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. I was just finishing a note to Senator 
Cantwell, here.
    Senator Cantwell. Mr. Chairman, I do have more questions.
    Senator Blumenthal. And----
    Senator Cantwell.--if we're allowed a second round.
    The Chairman. Yes, you can go ahead, and I'll finish my 
note to you.
    [Laughter.]
    Senator Cantwell. OK, thank you.
    Senator Blumenthal. And ``Happy Birthday,'' Mr. Chairman.
    The Chairman. Thank you.
    All right.
    Senator Cantwell. Mr. Wheeler, one of the issues that we 
have in the Northwest is this issue of rural call completion.
    Mr. Wheeler. Yes, ma'am.
    Senator Cantwell. And we still have a number of 
constituents who feel that too many of their calls just don't 
connect, dropped. Do you believe this is a concern? Do you 
believe it remains an issue that needs to be addressed, 
something that the FCC can do on enforcement action?
    Mr. Wheeler. Yes. And, as you know, the situation is that 
some carriers--long-distance providers--have been 
subcontracting out and not doing the appropriate kind of 
oversight on the quality of service delivered by those 
subcontractors. They should be held responsible for that. This 
is an enforcement action. I know that the FCC has taken one 
enforcement action already on this. And if I am confirmed, I 
look forward to investigating the need for there to be others.
    But, to be clear, you cannot have a network if you do not 
interconnect like this.
    Senator Cantwell. Great, thank you. Thank you for that 
specificity.
    Another issue of concern is the FCC Office on Native 
Affairs and Policy, which was established in 2010 because of 
the interest in more broadband and adoption of technology 
throughout Indian country. If you're confirmed, will you 
support this office and its activities? And what role do you 
envision for further encouraging broadband in this area?
    Mr. Wheeler. Yes, Senator, I will. I have met with the 
office already. I understand some of the challenges that they 
are facing, not the least of which is some of the impact of 
sequester and their ability to travel and be with Native groups 
to work with and address the issues. And the answer is yes, I 
am sensitive to, and will be aware of, that situation.
    Senator Cantwell. And will support the continuation of the 
policy?
    Mr. Wheeler. I--that is a very clear answer to that--yes, I 
think that the activities of that office are an essential 
component of the FCC.
    Senator Cantwell. OK, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Mr. Wheeler, it--then, actually, the note that I was--have 
written to Maria, which I will give her anyway, simply raised 
the--stated the point that what you've heard this afternoon--
there has been some theology, some ideology, but, for the most 
part, there has been really succinct questions about policy 
questions coming from the experience of a lot of the folks on 
this committee who have been here for a very long time and have 
learned a great deal and who are very, very smart. People want 
on this committee. There's a long waiting list. And there's a 
reason for that: because we have a broad jurisdiction, and it's 
a very powerful jurisdiction. Yours is a very large part of it. 
But, it's--it is--things don't happen like this. I can't see 
what time it is, but my so-called ``birthday'' is going to be 
spent with my wife having the Board of Directors of the WETA 
over for dinner.
    [Laughter.]
    Mr. Wheeler. I hope they sing well.
    The Chairman. Yes. I was hoping to catch the second Braves 
game, but that's another matter.
    [Laughter.]
    The Chairman. But, it's an impressive lot, this committee. 
And the staff is central to that. And it's something I very 
much appreciate. It's wonderful being Chairman of this 
committee. It's an absolutely wonderful job.
    I think you've acquitted yourself extremely well, and under 
a lot of pressure, and with intensity and with firmness and 
with--you know, giving your total concentration to whatever 
question was asked. I'm not going to bring up ``cramming,'' 
which I would, otherwise.
    But, I want to thank you. It's clear that this time of 
technical transition, that your--that the FCC's role is 
important. I want you to be a strong chairman. We need a strong 
chairman. You're going to have strong commissioners. They're, 
for the most part, there. But, we need a strong chairman. We 
need to feel the energy of that strong chairman. Delay, beyond 
what is necessary, is something we don't have to--shouldn't 
have to put up with.
    We do a lot of oversight, and it's good that we do, because 
we're interested in the subject. We don't do it just for the 
sake of doing it, but we're interested in the subject--broad 
subject.
    I think you're going to be confirmed, and I think you're up 
to the job.
    For those staff members still remaining, the record for 
this hearing will remain open for one week.
    And, with that, this hearing is adjourned, with thanks to 
you and your family and all who attended.
    [Whereupon, at 5:30 p.m. the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Thomas E. Wheeler
Universal Service Mobility Fund
    Question 1. Prior to the FCC's adoption of recent reforms to the 
universal service high-cost fund, I held a hearing in which I pressed 
the FCC to make sure that those reforms help bring wireless service to 
rural areas that do not have it now. We also discussed how mountainous 
terrain and other topographical features can pose additional challenges 
and costs to wireless deployment in those areas.
    The Commission has now completed its Mobility Fund Phase One 
auction to provide support for wireless build-out in rural America. It 
is my understanding that some prospective bidders faced significant 
challenges in winning support under the Mobility Fund's Phase One 
rules.
    I know that the FCC is still considering reforms to the method by 
which it distributes wireless support in the future. If confirmed, will 
you commit to a thorough review of this method to be sure that its 
works effectively for all rural areas, including those areas, like West 
Virginia, that face topographical challenges?
    Answer. Yes. I am committed to maximizing opportunities for all 
Americans to have access to robust wireless voice and broadband 
service, regardless of location.
Cramming
    Question 2. On June 12, I introduced legislation with Senators 
Klobuchar and Blumenthal aimed at preventing bogus companies from 
cramming charges onto consumers' phone bills. Consumers have already 
lost billions of dollars because of wireline cramming. They cannot 
afford to lose any more.
    Likewise, that means protecting consumers from wireless cramming. 
As we continue to move to a more wireless world, we cannot let crammers 
run from one kind of bill to another. That is why last week I also 
wrote letters to the four national wireless providers asking about 
their policies for protecting consumers against cramming.
    As I have expressed in the past, it is important for both Congress 
and the FCC to be proactive on this issue.
    If confirmed, would you commit to working with me to protect 
consumers from cramming?
    Answer. Yes. I look forward to working with you on this issue.

    Question 2a. If so, what should the agency do to make sure cramming 
doesn't move to other services, such as wireless?
    Answer. I know significant steps have been taken in the last few 
years to address this in the wireline context. If confirmed, I look 
forward to learning from the FCC staff what the record shows on this 
issue as it relates to wireless, and also to IP-based services. I look 
forward to seeing what you learn from your inquiry to wireless 
providers and I can assure you I am committed to taking action if there 
is a need.
Online Video/Cable Rates
    Question 3. Last year, I held a hearing that explored the future of 
the video marketplace, including the emergence of online video. We 
heard that online video has the potential to be truly transformative, 
and to lead to greater choice, better programming, and lower prices for 
consumers. This potential is particularly important given that 
consumers face rate increases for pay television that exceed the rate 
of inflation--every year. And consumers are forced to pay for so many 
channels, when they watch only a few.
    That is why I am concerned by recent reports indicating that pay 
television providers are seeking to foreclose opportunities for 
consumers. It is troubling that some cable operators are entering into 
agreements that seek to encourage media companies to withhold their 
programming from online video services.
    To the extent legislation is needed to prevent this possible 
anticompetitive behavior, I am willing to lead that effort. But I also 
believe the FCC has some existing authority to combat these practices.
    If confirmed, would you commit to fostering the development of 
these innovative services and to make sure that they continue to 
benefit consumers?
    Answer. You raise an important issue. I will make certain the 
Commission's policies foster opportunities for competition, consumer 
protection, innovation, and investment.
Interoperability
    Question 4. Two years ago, I weighed in with the FCC asking it to 
address the interoperability issues in the 700 MHz band. This is a 
complex matter, which ultimately comes down to what is technically 
possible. Nonetheless, I hope that the agency can bring that rulemaking 
to a close soon.
    In the near future, the FCC will be auctioning spectrum in the 600 
MHz band that is voluntarily relinquished by television broadcasters. A 
number of parties, including potential bidders, have asked the FCC not 
to allow the same interoperability mess in the 700 MHz band to be 
repeated in the 600 MHz band.
    If confirmed, would you commit to looking closely at this issue and 
making sure that the FCC fully considers the lessons learned in the 700 
MHz band when adopting rules for 600 MHz licensees?
    Answer. Yes.
Payphones
    Question 5. Payphones are a vanishing feature of the American 
communications landscape. Fifteen years ago, we had more than 2 million 
payphones across the country, but now we have less than a quarter as 
many. Despite this decline, they remain a primary link to the 
communications network for American households without any form of 
household phone. They are a vital part of keeping Americans connected 
and can be a lifeline in times of emergency.
    As part of former FCC Chairman Genachowski's nomination hearing, he 
committed to addressing this issue. He subsequently worked toward 
resolving several payphone compensation petitions, but there is still 
more work to be done.
    If confirmed, will you commit to reviewing existing payphone 
policies at the FCC in order to ensure that the Congressional mandate 
to compensate each and every completed call is met?
    Answer. Yes.

    Question 5a. Will you commit to work to ensure that disputes over 
payphone compensation are resolved in an expeditious manner?
    Answer. Yes.
IP Transition
    Question 6. Today, our communications network infrastructure is in 
a period of transition. As head of the FCC's Technological Advisory 
Committee, you have publicly discussed the need to transition the 
public switched telephone network to an all-IP network. The FCC has a 
technology transition task force in place currently reviewing what such 
a transition may mean for the Nation's communications network.
    Such an upgrade in network technology raises a host of important 
questions. We need to fully understand such a transition's impact on 
public safety and network resiliency, on competition and 
interconnection, and on consumer protection. It also is critically 
important that any such transition of our communications network 
infrastructure not forget rural consumers or ultimately leave them with 
fewer choices and higher rates.
    If confirmed, will you commit to making sure that the FCC fully and 
thoughtfully addresses the regulatory implications of this ongoing 
transition--and that our rural and remote consumers are not left 
behind?
    Answer. Yes. As technologies transition, the FCC must remain 
committed to certain core values, including the promotion of 
competition, consumer protection, universal service, and public safety. 
While the Commission must analyze legacy rules and regulations and 
adapt to reflect changes in the communications landscape, new 
communications networks and services do not change the Commission's 
statutory obligations. It is very important to maintain a competitive 
marketplace with sufficient consumer protections and access to 
emergency services during the transition in all areas, including the 
most remote parts of the country. Rural and remote areas, as you know 
from the experience in striving to achieve universal service reform in 
a broadband era, present unique challenges that must be considered when 
developing policies in a changing communications landscape.
Violent Content
    Question 7. As you know, I have long been concerned about the harm 
caused to kids by violent programming. That is why I have introduced 
legislation to have the National Academy of Sciences study the impact 
of violent programming on children's well-being.
    I also have long believed that parents must have effective tools to 
protect their children from questionable content, no matter how it is 
accessed. I know the FCC previously studied this issue in 2007 and 
2009, discovering significant flaws in TV ratings systems and parental 
controls.
    Technology has changed dramatically since the FCC's original 
studies. Today's mobile devices and online video platforms offer 
children access to untold amounts of content and create additional 
challenges to parental oversight.
    If confirmed, would you commit to updating the FCC's 2007 and 2009 
reports on media violence and parental control tools, particularly 
examining the impact of changes in technology on parents' ability to 
protect their children from questionable content?
    Answer. I assure you that, if confirmed, I will look very closely 
at this issue. It is vital that the FCC and Congress understand the 
potential impact of changes in technology on parents' ability to 
protect their children from questionable content.
Media Ownership
    Question 8. I have long stressed the importance of maintaining a 
diversity of voices in our Nation's media. To further this goal, the 
FCC places limits on the number of broadcast outlets that a single 
company can own or control.
    The FCC is currently in the process of reviewing these limits. 
During this process, parties have raised concerns that television 
broadcasters are increasingly using business arrangements--including 
so-called joint sales and shared services agreements--to coordinate 
their activities and skirt the FCC's ownership limits.
    Last month, I asked the Government Accountability Office to take a 
closer look at how these coordination agreements are being used by the 
broadcast industry.
    If confirmed, would you commit to also taking a hard look at how 
these coordination agreements are being used, and if needed, take 
action to make sure their use is consistent with the FCC's stated goals 
of promoting competition, localism, and diversity?
    Answer. Yes. As I mentioned to Senator Cantwell at the hearing, I 
am committed to ensuring diversity of voices as well and look forward 
to looking into this particular issue more fully if I am confirmed.
Cybersecurity
    Question 9. Cybersecurity is one of the most critical national 
security challenges facing our Nation. Both the government and the 
private sector are under almost constant attack. These attacks cost us 
billions of dollars every year.
    The majority of our telecommunications network is owned by private 
companies. But it is in our national interest to defend our country 
against our adversaries who use this network to steal our business and 
government secrets.
    If confirmed, how would you promote public-private sector 
cooperation to improve our ability to stop cyber attacks?
    Answer. Cybersecurity is a real and pressing threat. I know the 
Commission has had success with its Communications Security, 
Reliability, and Interoperability Council (CSRIC) in encouraging 
network operators to take certain steps to protect their networks and 
consumers from attacks. I would continue to pursue those efforts. In 
addition, I intend to coordinate with Federal partners that are engaged 
in implementing the President's Executive Order and the Presidential 
Policy Directive on Cybersecurity. I also look forward to working with 
you and this Committee to assist in your efforts to develop legislation 
in this area.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                           Thomas E. Wheeler
Universal Service Fund Contributions
    Question 1. Mr. Wheeler, as you know, there is an ongoing debate 
regarding whether the contribution base for the Universal Service Fund 
should be expanded. USAC recently issued a decision that would 
effectively reclassify certain applications riding over the top of the 
broadband network and require them to contribute to USF. In light of 
this decision, I am concerned that USAC may soon begin assessing many 
types of over-the-top applications.
    As Chairman, would you work with Congress on USF contribution 
reform to ensure that the Commission acts cautiously and deliberately 
on this issue?
    Answer. Ensuring a stable funding mechanism for universal service 
is critical. I think it is important to make efforts to ensure a level-
playing field for similar services with regard to contributions 
obligations, but I am also mindful of the fact that we need to think 
carefully before including new innovative technologies among those that 
contribute to USF. The Commission initiated a rulemaking proceeding in 
2012 looking to modernize the USF contributions system--both in terms 
of who should contribute and how. As Chairman I will carefully review 
this issue before moving forward.
Media Ownership
    Question 2. As you know, Congress requires the FCC to review its 
media ownership rules every four years to determine whether they uphold 
the core ideals of competition, localism, and diversity of media. These 
principles are fundamental to our democracy. Increased consolidation of 
our Nation's broadcast radio and television stations can lead to less 
local news coverage and fewer voices participating in the media.
    I am particularly concerned that women and ethnic and racial 
minorities are underrepresented in ownership of broadcast radio and 
television stations. A study conducted by the FCC last year found that 
women own just 7 percent of broadcast radio and television stations, 
and ethnic and racial minorities own only 5 percent of television 
stations and 8 percent of radio stations.
    Although the FCC announced that it would delay its vote on the new 
cross-ownership rules as it awaits the results of a new study regarding 
the effects of cross-ownership rules on minority ownership and 
newsgathering, it is not clear that this single, narrow study will 
address my concerns.
    What steps would you take as Chairman to ensure the Commission 
completes a timely review of its media ownership rules? How would you 
ensure that the media ownership rulemaking is based on a comprehensive 
and unbiased examination of the effect the rules have on ownership 
diversity?
    Answer. As I mentioned to Senator Cantwell, I intend to be guided 
in this area by the three longstanding policy goals of the Commission--
promotion of localism, competition, and diversity. I will ensure that 
any review of those rules during my tenure is conducted in an open, 
transparent way with clear opportunities for public input. Any 
decisions I and my fellow commissioners would make will be based on 
such record.
Data Caps and the Open Internet
    Question 3. Some Internet service providers that have traditionally 
offered unlimited plans are now implementing pricing schemes that limit 
the amount of data a customer can use, or charge customers for using 
data beyond a predetermined amount. Today, more than half of broadband 
Internet subscribers in the United States are subject to some form of 
bandwidth cap or usage-based pricing.
    Data caps and usage-based pricing have the potential to 
significantly impact how networks are designed and used. Furthermore, 
when bandwidth caps are paired with exemptions for certain content 
providers, the barrier to entry for new services increases, leading to 
fewer new products and competitors entering the market. Such exemptions 
to bandwidth caps may also violate the FCC's Open Internet Order, which 
established that fixed broadband providers may not unreasonably 
discriminate against lawful network traffic.
    As Chairman, would you examine the effect that bandwidth caps have 
on online video providers and consumer choice? Is there an approach the 
FCC could adopt in order to minimize the negative effects of usage-
based pricing? What other actions would you consider as Chairman to 
promote the open Internet?
    Answer. I am a supporter of an open Internet. I understand the 
potential effects of data caps, both on network operations and on over-
the-top providers. I intend to keep a watchful eye on the evolution of 
data pricing and any impact it may have on competition and innovation, 
including the effect on consumers and content providers.
IP Transition and Rural Call Completion
    Question 4. Increasingly, our Nation's telephone companies are 
transitioning from traditional copper networks to wireless and 
Internet-based services. Last year, AT&T asked the FCC for permission 
to transition to an all IP-based fiber network on a trial basis in 
certain areas. In addition, Verizon recently filed a request with the 
FCC to discontinue traditional copper telephone service and offer 
wireless connectivity instead to certain communities affected by 
Hurricane Sandy.
    At the same time, the Commission has acknowledged that rural 
consumers are experiencing significant problems receiving long distance 
or wireless calls on their landline telephones. These problems appear 
to be attributable to the increased use of IP-based least-cost routing 
providers.
    What can the Commission do to ensure that such interconnection and 
reliability problems do not become more prevent as our Nation's 
telephone networks transition to wireless and IP-based services? Should 
the reliability, interconnection, and universal service principles that 
currently apply to traditional phone service also be applied to IP-
based voice services?
    Answer. The reliability, interconnection, and universal service 
principles that currently apply to traditional phone should be applied 
to IP-based voice services. I would add consumer protection and public 
safety to those principles as well. While technologies transition, the 
core values that guide the Commission under the Communications Act do 
not. That does not mean that the same rules and regulations should 
apply to IP-based voice services, but certain core capabilities, like 
interconnection and access to 9-1-1 service, must be maintained 
regardless of the technological platform. The call completion issues 
many rural carriers are experiencing today should be, and will be dealt 
with by enforcement of the relevant rules when they are being violated.
E-Rate Funding
    Question 5. The E-Rate program, which has furthered the goal of 
bringing broadband Internet access to schools and libraries all over 
the country, is underfunded. Last year alone, the program had to turn 
away more than $2 billion in applications from schools and libraries 
nationwide, including many institutions in California. Experts project 
that demand for E-Rate support will continue to grow as wireless 
devices are increasingly introduced in the classroom.
    Moreover, the President recently announced the ConnectED 
initiative, which sets the goal of connecting 99 percent of public 
schools in the United States with next-generation broadband Internet 
access--at speeds no less than 100 Mbps and with a target of 1 Gbps. 
The President's proposal tasks the FCC with modernizing and leveraging 
the E-Rate program to achieve this goal.
    What would you do as Chairman to ensure that the E-Rate program 
continues to expand and bring affordable, high-speed broadband to 
schools and libraries? How would you propose funding and implementing 
the President's ConnectED proposal?
    Answer. As I mentioned to Chairman Rockefeller, updating the E-Rate 
program to ensure that our teachers and students have robust broadband 
access is essential. According to participants in the current program, 
80 percent say they have inadequate bandwidth to meet their 
instructional needs. I look forward to working with my fellow 
commissioners on addressing ways to meet this challenge.
Public Safety Networks
    Question 6. Some experts have expressed concern that the incentive 
auctions may fail to provide the funding necessary for FirstNet to 
build a nationwide, interoperable public safety broadband network. As 
you know, this funding is essential to addressing the serious gap in 
our Nation's public safety communications identified in the 9/11 
Commission Report.
    What steps would you take to ensure that the incentive auctions 
generate sufficient funding so that FirstNet can fulfill its mandate 
and guarantee our Nation has a reliable public safety network?
    Answer. If confirmed, I intend to move expeditiously to bring the 
incentive auctions to completion. Implementing incentive auctions 
requires the balancing of several important objectives, including the 
need to raise substantial revenues while simultaneously meeting the 
other policy objectives laid out by Congress.
Low Power Stations and Translators
    Question 7. Unleashing spectrum for wireless broadband is critical 
to our economy. However, the incentive auctions exclude many low-power 
television stations and translator licensees from participating. It is 
not clear what will happen to translator and low-power broadcast 
television stations at the conclusion of the repacking process which 
will follow the reverse auction. Over four hundred of these stations 
exist in California and serve a large and diverse portion of the state. 
How should the rules for the upcoming incentive auctions address the 
operation of translator and low-power television stations?
    Answer. Low power television services have always enjoyed only 
secondary interference protection, and must make way for full power and 
Class A TV stations assigned to new channels. That said, the 
Commission's 2012 Incentive Auction Notice of Proposed Rulemaking asked 
for comment on assuring that important programming continues to reach 
viewers and offered possible solutions, such as promoting use of 
available digital capacity on full power and Class A stations, MVPD 
systems, and/or the Internet to distribute their programming.
Positive Train Control
    Question 8. The Rail Safety Improvement Act of 2008 requires the 
installation of Positive Train Control (PTC)--a collision avoidance 
technology that relies on radio transmission--on many passenger, 
commuter, and freight rail lines by 2015. Ensuring the successful 
deployment of this life-saving technology is a high priority for me. 
Unfortunately, some rail operators have experienced delays in the FCC's 
review of their spectrum applications, and many passenger rail 
operators are struggling to access sufficient spectrum at an affordable 
cost.
    In your role as Chairman, how would you work with rail operators to 
overcome these challenges so that PTC can be implemented nationwide?
    As you may know, the FCC recently proposed new requirements for 
tower and antenna applications relating to PTC deployment.
    Would you work to provide rail operators with guidance on the new 
procedures quickly, so that they may proceed with their applications as 
expeditiously as possible?
    Answer. I understand that PTC systems are important to promoting 
safety on commuter rail systems across the Nation and I look forward to 
better understanding the intricacies of these issues if I am confirmed 
and can get the benefit of learning more from the staff. I can assure 
you that on this and other matters I will act expeditiously to get to 
resolution.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                           Thomas E. Wheeler
    Question 1. I appreciate that you included the 21st Century 
Communications and Video Accessibility Act in your testimony. This law, 
which passed both the Senate and House with bipartisan, unanimous 
support, is intended to ensure that services offered through the 
Internet and mobile technology are accessible to deaf, blind, and 
vision and hearing impaired individuals. While the FCC has implemented 
many components of the law, there are concerns that some programming 
still is not fully accessible, including programming such as news and 
other video clips. How will you work to ensure that this law is fully 
implemented and all Americans are able to access all forms of 
communication? Can you make a commitment to ensure that not only do 
providers meet the letter of this law, but also the spirit by ensuring 
that closed captions and video descriptions are of sufficient quality?
    Answer. Much credit is due to the former Chairman, the 
commissioners, and the FCC staff whose efforts to date have resulted in 
the successful implementation of this important legislation. It is my 
understanding that no congressionally-required implementation dates 
have been missed. I can assure you that ensuring access to all forms of 
communications for individuals with disabilities, including quality 
closed captions and video descriptions, is very important to me and 
continued implementation of the CVAA will be a top priority.

    Question 2. I am hopeful that the incentive auctions will be 
designed to ensure that broadcasters have the sufficient incentives to 
part with any spectrum they feel they can, and that their concerns are 
properly addressed. My understanding is that public broadcasters are 
already multicasting multiple channels to provide excellent educational 
programming. Considering your experience as a member of the board of 
PBS, can you discuss how you believe public television fits into the 
incentive auctions?
    Answer. Public broadcasters have embraced multicasting on their 
spectrum and diversified the educational programming they offer, which 
is a great service to consumers. The construct of the incentive 
auctions law allows broadcasters, both public and commercial, to 
voluntarily decide whether to participate and how much spectrum to 
contribute should they decide that participation is in their interest. 
For some public broadcasters, the incentive auction will offer access 
to new capital to further enhance their programming. For others, it may 
not be an opportunity they choose to pursue. If confirmed, I look 
forward to working with these broadcasters to ensure they have the 
information they need to decide whether participation makes sense for 
their stations.

    Question 2a. Have you considered how public educational television 
will continue to be successful after the incentive auctions?
    Answer. For those public broadcasters that choose to participate 
and remain on the air, the incentive auctions offer an opportunity for 
an infusion of capital that can enhance their operations and 
programming.

    Question 3. By recent estimates, Arkansas has the highest 
percentage of cell-only households at 35 percent. Nation-wide, more 
than one-in-four homes is cell-only. I have heard from a number of law 
enforcement officials in my state about their difficulty locating 
individuals who call 9-1-1 from mobile phones. It is vital that these 
Americans realize the full benefits of our Nation's 9-1-1 system.
    As the Federal Government makes the transition to Next Generation 
9-1-1 services, how would you, as FCC chairman, ensure these mobile as 
well as VoIP users are not left behind?
    Answer. It is well documented that consumers are increasingly 
dropping their landline telephones in favor of wireless and VoIP 
alternatives. Communications providers are logically investing in these 
technologies and gradually allowing elements of their legacy networks 
to sunset. For example, one major national carrier recently announced 
that it is targeting 2020 as the year in which its entire network will 
be transitioned to an all-IP platform. Included in that announcement is 
a plan to move a quarter of the company's rural customers to wireless 
service with potentially no wireline alternative, presumably including 
rural Arkansans. They are, of course, not alone. Thus it is more 
important than ever that we provide the leadership necessary to ensure 
9-1-1 call takers are able to accurately locate callers using mobile 
and VoIP services. Not only do we have to make sure that mobile and 
VoIP users are not left behind, we also have to ensure that the 9-1-1 
system itself takes advantage of the IP revolution by facilitating the 
transition to a nationwide next generation 9-1-1 system capable of 
receiving and sharing all forms of voice, data and video. The 
Commission has several open proceedings looking at these issues and I 
commit to accelerating these efforts if given the opportunity.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                           Thomas E. Wheeler
    Question 1. Although the FCC's reforms to the Universal Service 
Fund's (USF) Lifeline program through its February 2012 order were much 
needed, and attempted to address duplicative Lifeline support, 
ineligibility, deceptive marketing and other concerns raised in my 
December 2011 letter to the FCC on this topic, the reforms appear to 
have had little effect in limiting the rapid growth of the program. 
Even with the reform order in place the Lifeline program grew by 26 
percent ($445 million) last year from 2011.

  <bullet> If confirmed, what additional action will you pursue to 
        address waste, fraud and abuse in the Lifeline program?

  <bullet> We are quick in Washington to create new programs but what 
        we don't do often enough is reevaluate those programs to make 
        sure they're still needed. The FCC created the Lifeline program 
        nearly 30 years ago to make sure local phone service was still 
        affordable for low-income Americans following the breakup of 
        AT&T. Because technology has changed and competition has grown, 
        basic telecommunications services are as affordable as ever. If 
        confirmed, will you order a comprehensive review of the 
        continued need for the Lifeline program?

  <bullet> President Obama recently announced a new initiative called 
        ``ConnectED,'' which aims to bring broadband access to 99 
        percent of American students by wiring schools and libraries 
        through the Universal Service Fund's E-Rate program over the 
        next five years. I wrote to Acting Chairwoman Clyburn and the 
        other Commissioners urging that they eliminate Lifeline and 
        redirect the savings to fund the President's new initiative. 
        Eliminating Lifeline would provide about $10 billion for this 
        effort over five years. What are your thoughts on this 
        approach, and is it something you would commit to looking at if 
        confirmed?

    Answer. Ensuring that all Americans, including low income 
Americans, have access to telecommunications and information services 
is statutorily mandated by Section 254(b) of the Communications Act. 
The Commission has implemented this directive though its Lifeline 
program, which for many years has enabled our poorest citizens to have 
access to emergency services and other essential services. The program 
has served an important function. At the same time, the introduction of 
wireless service into the program has resulted in an unacceptable level 
of waste, fraud and abuse. The Commission has taken important steps to 
address the problem, but there is still much work to be done, including 
the establishment of critical databases to prevent duplicate service 
and ensure program eligibility. Going after waste, fraud and abuse, 
including getting these new databases in place, will be a top priority 
for me. While I am fully supportive of the goal of the Lifeline 
program, I am certainly willing to examine the effectiveness of the 
program in its current form and to make significant changes if 
warranted. At this time, I do not think it is appropriate to completely 
eliminate the program, but it may be possible to use some of the 
savings that the Commission has already enabled through Lifeline reform 
to help pay for the ConnectED initiative.

    Question 2. The FCC uses a 180-day ``shot clock'' as a guideline 
for the approval of mergers and other transactions. However, that time 
frame has not been met on the Sprint-SoftBank application, which as of 
June 25 has been pending at the Commission for 207 days. Is the ``shot 
clock'' guideline effective, should it be continued, and what would you 
do as chairman to ensure transactions receive timely consideration?
    Answer. As you point out, the Commission has a self-imposed 180-day 
shot clock for reviewing applications to assign or transfer control of 
licenses or authorizations to determine whether the transfer serves the 
public interest. I understand that better than 95 percent of all 
license transfer applications since 2009 have been acted on within the 
180-day period. I believe it is an effective guideline that provides 
parties to transactions an understanding of the Commission's timing for 
review. I commit to you that I will make every effort to complete 
transfer reviews as quickly as circumstances permit.

    Question 3. Last year Congress passed a Rubio-McCaskill resolution, 
S.Con.Res. 50, advocating for the multistakeholder model of Internet 
governance. Members of the U.S. delegation to the International 
Telecommunications Union (ITU) conference in Dubai have indicated that 
Congress sending a clear message on the issue was helpful in their 
negotiations and that our efforts on this issue should continue, 
especially since those nations that want greater regulation of Internet 
infrastructure and content will certainly continue in their efforts.
    What more can Congress be doing to help promote the 
multistakeholder model of Internet governance? Although the FCC's focus 
is domestic in nature, American consumers and companies have an 
interest in a free and open Internet around the world, which is 
facilitated by the multistakeholder model. What can and will you do, if 
confirmed, to champion this cause?
    Answer. I agree that the bipartisan Sense of the Congress passed 
last year sent a clear message of support for the multistakeholder 
model of Internet governance. The FCC is the U.S. Government agency 
with primary responsibility for implementing the 1988 International 
Telecommunications Regulations and as such it plays a key role in 
domestic and international work on these issues. If confirmed, I will 
continue the bipartisan Commission effort to promote the 
multistakeholder model.

    Question 4. The FCC has identified diversity as one of its core 
goals of media policy. But the number of independent channels is 
shrinking, and those remaining are confronting an array of hurdles in 
having their voices heard. Independent channels complain that they are 
being discriminated against in numerous ways, from conditions of their 
carriage that completely prohibit distribution on new platforms 
competitive to MVPDs, to most favored nations clauses that reduce their 
ability to get a fair rate comparable to non-independent services, to 
their placement on less penetrated tiers that reach fewer households 
and restrict their ability to compete for viewers. Furthermore, the 
wholesale ``bundling'' of channels by large, multi-network programmers 
causes MVPD's to purchase unwanted channels, using up resources and 
channel capacity that could otherwise go to independent channels.
    If confirmed, what do you envision the FCC doing to ensure 
independent programmers have a fair and equal opportunity to compete? 
What are your thoughts on the ability of a la carte pricing to address 
this problem?
    Answer. As I explained to Senator Cantwell at the hearing, I have 
long been an advocate for diversity of voices in media. I know over the 
past few years the Commission has worked to provide greater access for 
independent programmers to cable systems. Recently, however, the D.C. 
Circuit decided a case against the FCC concerning one such independent 
programmer that may have implications for future FCC action. If 
confirmed, I will discuss this case with the agency's experts to better 
understand the ramifications of that decision.

    Question 5. Former Federal Communications Commission (FCC) Chairman 
Genachowski and I have both written to the Federal Aviation 
Administration (FAA) encouraging the agency to revise its rules to 
allow for the expanded use of electronic devices during flight. The FAA 
has established an Aviation Rulemaking Committee (ARC) to look at 
possible changes to the rules, and the FCC has a representative on that 
committee, which will make recommendations to the FAA Administrator 
this summer. What are your views on the FAA's current electronic device 
rules?
    Answer. You can put me in the camp with those that would like to 
see expanded use of personal electronic devices on flights. I 
understand that the FCC is providing the necessary technical support to 
the FAA which has the ultimate responsibility in this matter. I can 
assure you that I will make certain that coordination continues and 
hopefully it will bring about changes that allow for expanded access.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                           Thomas E. Wheeler
Federal Spectrum
    Question 1. On June 14, 2013, the President released a plan, 
``Expanding America's Leadership in Wireless Innovation,'' to create an 
intra-agency spectrum policy team to better assess Federal spectrum 
demand and usage. I am encouraged by the proposal, which also studies 
possible Federal incentives for Federal agencies, receiver performance 
standards, and other key issues I support. What are your views on the 
Presidential memo? What can the Federal Communications Commission (FCC) 
do to support the President's goal of clearing and sharing more bands 
of spectrum, especially below 3 GHZ?
    Answer. I support the President's decision to create this spectrum 
policy team because it is imperative that we find more spectrum to meet 
the ever-growing demand for wireless broadband. In the late 1990s I 
worked with the government to find a win-win solution on a block of 
government spectrum and I look forward to doing so again as the 
Chairman of the FCC. As we look at these opportunities, I agree that 
clearing, as well as sharing, are tools we must utilize.
USF Reform
    Question 2. As you know, the Commission adopted a Universal Service 
Fund (USF) reform order in October 2011 to transform the USF from a 
mechanism to support voice telephone service to one that supports the 
deployment, adoption, and utilization of both fixed and mobile 
broadband (known as the Connect America Fund). During transition 
points, sometimes priorities change. I think the FCC has largely been 
on the right track, but that even more could be done to help rural 
America obtain universal broadband access. If you are confirmed as 
chairman of the FCC, will you commit to moving forward on broadband 
reform? If you see additional opportunities to reform USF to bring more 
broadband service to rural America, will you pursue such opportunities?
    Answer. I am committed to moving forward with the broadband reforms 
unanimously adopted by the Commission. It is critical that this more 
than eight-decade-old commitment we made to Americans is fulfilled in 
the broadband era. I look forward to continuing the work of 
modernization with my fellow commissioners through the implementation 
of the next stages of the Connect America Fund and the Mobility Fund to 
ensure all Americans have access to robust voice and broadband 
services.
Incentive Auctions
    Question 3. Congress gave the FCC one chance to get incentive 
auctions right. It is important that as much spectrum is cleared as 
possible, while also maximizing auction revenues. Robust wireless 
networks require a range of spectrum frequencies, both for in-building 
coverage and because some spectrum bands require more towers--which are 
expensive to build--to build a nationwide network. I don't think that 
anyone should be barred from participating in the incentive auction. 
However, I am concerned that smaller companies may have trouble 
acquiring spectrum depending on how the rules are set up.
    Do you believe that spectrum below 1 GHz should be treated 
differently than non-beachfront spectrum? What about spectrum below 3 
GHz? Do you believe that there is a breakpoint? Do you think that this 
matters in terms of giving different types of companies access to 
beachfront spectrum?
    Do you have ideas that can maximize auction participation without 
creating high concentrations of spectrum holdings by a single company, 
regardless of its size? Do you support structuring the incentive 
auctions by focusing on cellular market areas?
    Answer. The laws of physics are hard to repeal, but sometimes they 
can be harnessed. Lower frequency spectrum is, as you say, 
``beachfront'' for broad propagation, while higher frequencies can be 
helpful in other more focused applications such as in-buildings or 
campuses. Because I have not been permitted to see anything beyond 
public information, I have avoided drawing a conclusion as to the 
specific issues you have raised until I am better informed. I have a 
clear understanding as to the intent of Congress not to exclude any 
potential participant from the auction, while at the same time 
implementing a plan that promotes competition and innovation. The 
questions you ask are all important questions and ones that are 
actively being reviewed by the Commission. I look forward to engaging 
with my fellow commissioners and FCC staff on these issues.
IP to IP Network Transition
    Question 4. In May 2013, the FCC issued a public notice proposing 
and soliciting comments on IP transition trials. Some in the industry 
have expressed concerns about the trials, while others believe the 
Commission to proceed as soon as possible in terms of setting up a 
framework for carriers. How can the FCC best ensure that the commitment 
to providing telecommunications service to all Americans is maintained 
during and after the transition? How important is it to maintain a 
competitive marketplace during and after the transition?
    Answer. Internet Protocol (IP) is a technological step, not a 
change in the responsibility of networks. The FCC must remain committed 
to certain core values established by statute, including the promotion 
of competition, consumer protection, universal service, and public 
safety. While the Commission must analyze legacy rules and regulations 
and adapt to reflect changes in the communications landscape, new 
communications networks and services do not change the Commission's 
mission. It is very important to maintain a competitive marketplace 
during and after the transition.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                           Thomas E. Wheeler
    Question 1. Mr. Wheeler, I know that you must appreciate that 
because of Alaska's immeasurable size and geographic challenges, lowest 
population density in the US, and limited infrastructure, that 
Universal Service Fund (USF) reforms designed for the lower 48 may well 
not work effectively in our state.
    As of July 1, 2013, USF reform will result in a reduction of $18 
million in annual support for wireless deployment in Alaska. This 
dramatic reduction, and even more so the uncertainty of what's to come, 
has deferred planned wireless deployment in rural Alaska, thus 
increasing the already large communications gap with the lower 48. The 
FCC should do no more harm and freeze overall state support at current 
funding levels.
    Will you commit to work with me to explore alternative approaches 
to high cost reform that will provide sufficient and predictable 
support for Alaskans who simply seek equal access to the communications 
tools available to the lower 48?
    Answer. Yes.

    Question 2. How can the Commission best ensure that rates for 
essential voice and broadband services in the highest cost rural areas 
remain affordable to consumers?
    Answer. The Commission can meet the statutory requirement that 
rates in rural areas be reasonably comparable to rates in urban areas 
by continuing to maintain a universal service system that subsidizes 
legitimate costs in high cost areas where service would not otherwise 
be offered absent support. I am committed to moving forward with the 
broadband reforms unanimously adopted by the Commission, but I also 
recognize that some alternative approaches may be necessary to ensure 
voice and broadband services remain affordable for Alaskan consumers.

    Question 3. Mr. Wheeler, I see in your background several years of 
service as a member of the board of PBS. For my constituents, public 
television stations like Alaska Public Media and KUAC are essential 
sources for innovative and educational programming and services that 
would be otherwise unavailable, particularly for people living in rural 
communities.
    Do you recognize that as the only source of educational, non-
commercial programming available for free to all Americans, public 
television is still an essential national priority in today's media 
universe?
    Answer. Yes.

    Question 4. As FCC Chairman, what steps would you take to ensure 
that the spectrum incentive auction and subsequent repacking rules 
enable public television to continue to be successful in the future?
    Answer. I can assure you that should I be confirmed the decisions I 
recommend to my fellow commissioners will be consistent with the 
directives of Congress contained in the Middle Class Tax Relief and Job 
Creation Act of 2012.

    Question 5. What are you views on data caps or data tiers on wired 
and wireless broadband and their impact on the growth of online video?
    Answer. I understand the potential effects of data caps on network 
operations, video and other service providers, and consumers. I intend 
to keep a watchful eye on the evolution of data pricing and any impact 
it may have on competition, innovation and consumer well-being.

    Question 6. What should the FCC do if the DC Circuit Court 
overturns the net neutrality rules?
    Answer. This is a matter pending before the courts and I cannot 
speculate on it or future decisions by the FCC.

    Question 7. Tribes have provided numerous comments in the FCC 
docket stating that their lack of access to spectrum licenses precludes 
them from being able to participate in these auctions, and, 
additionally, carriers holding spectrum over tribal lands have failed 
to provide broadband services on tribal lands. As Chairman of the FCC 
what will you do to increase access to spectrum licenses for tribes to 
utilize in the Mobility and Tribal Mobility Fund auctions?
    Answer. I will take seriously Congress' directive in section 309(j) 
of the Communications Act to ensure auctioning of spectrum licenses 
disseminates licenses to a wide variety of applicants. In 2011, the 
Commission initiated a Spectrum Over Tribal Lands proceeding in which 
these concerns were raised. I look forward to consulting with the FCC 
staff on what that record shows and to take any steps necessary to 
ensure sufficient access to spectrum for Tribes.

    Question 8. Mr. Wheeler, as you know the Commission is working on 
regulations governing the auction of television spectrum. Any TV 
channels located above channel 32 will be move to lower channels below 
channel 32 so the higher level channel spectrum can be auctioned off to 
raise money for a new public safety network. Whether television 
stations decide to give up their spectrum is up to them, but whether 
they have to move is not voluntary.
    It has been guaranteed that full power TV stations will be provided 
a new channel assignment below 32. Unfortunately, translator stations 
that boost the signal of full power stations in urban areas out to 
rural and remote areas are not guaranteed a new channel assignment. In 
Alaska and many other western states, most of our communities only get 
television through translators which boost the signals from urban 
stations. There are only full power stations in a handful of Alaska's 
largest communities, but hundreds of translators. If translators are 
not guaranteed a new spectrum slot, many towns in Alaska would not have 
access to free, over the air television at all. And to compound the 
problem, most communities don't have access to cable either. For 
example there are over 320 translators in Alaska.
    Are you willing to work with me and other Senators who have large 
number of translators to address this problem, so Americans who depend 
on translators for their free TV are not cut off unnecessarily by FCC 
rules?
    Answer. I am. As you are aware, translators and low power 
television services have only secondary interference protection, and 
must make way for full power and Class A TV stations assigned to new 
channels. That said, I look forward to working with you to ensure over 
the air TV remains available in Alaska. The Commission's 2012 Incentive 
Auction Notice of Proposed Rulemaking asked for comment on this issue 
and I look forward to looking into this issue further if confirmed.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                           Thomas E. Wheeler
    Question 1. Hawaii has unique communications challenges that are 
due to the geographic isolation, difficult terrain, wide range of 
disasters, and limited commercial infrastructure. Will you commit that 
the Federal Communications Commission (FCC) will continue to recognize 
and help address Hawaii's unique communications needs?
    Answer. Yes.

    Question 2. Increasing broadband availability is an important goal 
of this Congress, the Administration, as well as the FCC. As part of 
this national effort, the FCC implemented reforms to the Universal 
Service Fund, which replaced the older fund with a new broadband-
centric fund known as the Connect America Fund (CAF) and a companion 
for wireless support. The FCC is evaluating a cost model for CAF Phase 
II support for price cap carriers that will be used to determine the 
level of support CAF will provide. The cost model is not yet adopted.
    a. What is your view regarding the need for sufficient Universal 
Service support for broadband in insular areas of the country served by 
price cap carriers?
    b. Will you prioritize finalizing the cost model that includes 
consideration for the higher costs of providing broadband service in 
insular areas of the country?
    c. Will you consider any interim solutions that could be adopted 
until such a cost model is finalized?
    Answer. Section 254(b) of the Communications Act requires that 
consumers in all regions of the Nation, including those in insular 
areas, should have access to telecommunications and information 
services. I am committed to meeting this statutory directive through 
policies that affect all providers and will prioritize finalizing the 
cost model that will be used to award Connect America Fund Phase II 
support to price cap carriers. I will consider interim solutions while 
the model is being finalized, starting with the implementation of a 
second round of Connect America Fund Phase I funding.

    Question 3. There is a significant divide between the 
communications available on Native and Tribal lands and those available 
in the rest of the country. According to the FCC, communities on Native 
and Tribal lands have historically had less access to 
telecommunications services than any other parts of the population. In 
2010, the FCC's Office of Native Affairs and Policy (ONAP) was 
established to promote the deployment and adoption of communications 
services and technology throughout Tribal lands and Native communities. 
However, ONAP lacks a dedicated budget, which could impact ONAP's 
ability to engage with Tribal Nations and Native communities on 
important communications matters. Given the importance of access to 
broadband, what steps will you take to ensure that Tribal programs will 
reflect the need that exists in Tribal Nations and Native communities?
    Answer. As I mentioned at the hearing, I am committed to the 
mission of ONAP and will ensure that its work continues as a critical 
part of the Consumer and Governmental Affairs Bureau. I understand the 
challenges faced in bringing communications services to Native and 
Tribal lands and I am committed to working to bring about greater 
access on these lands.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. William Cowan to 
                           Thomas E. Wheeler
    Question 1. The upcoming incentive auction promises to free up some 
key spectrum to address the explosion of demand for mobile broadband 
services. The outcome of this auction will help to shape this industry 
for a generation to come. In order to ensure a competitive wireless 
market, I understand that the FCC is considering whether or not to 
adopt limits on the amount of mobile spectrum a single entity can hold 
or on the amount of spectrum they can bid for in this auction.
    What is your take on the current competitive environment within the 
wireless industry? Do you have any thoughts about the debate unfolding 
at the FCC and within the industry on how the coming incentive auctions 
could impact the competitive environment of this industry?
    Answer. As I said in my testimony, the wireless industry introduced 
competition into local, facilities-based telecommunications. I am 
committed to the maintenance of a competitive wireless market before 
and after the incentive auction.

    Question 2. For over a year, the FCC has blocked a Boston ordinance 
regarding the placement of satellites on homes and buildings, as well 
as rules regarding their removal when no longer in use. Boston has been 
blocked from enforcing its ordinance pending FCC consideration of 
whether or not it adheres to the Over-the-Air Reception Devices (OTARD) 
rule. I also understand that Philadelphia has now been waiting for an 
FCC ruling on a similar ordinance for more than 19 months. I'm not 
going to ask you about the ins and outs of this particular case, but I 
do believe this is an instance where the FCC has simply acted too 
slowly to decide an issue that the City of Boston and other 
stakeholders would like resolved. The Intergovernmental Advisory 
Committee agrees with me and has expressed concerns about the lengthy 
delay by the FCC in ruling on this open question. Should you be 
confirmed, will you commit to resolving outstanding issues that have 
seen unjustified delays, such as this one, in an expedient manner?
    Answer. Yes. As a businessman, I understand just how important it 
is that parties receive timely responses to their requests. I will work 
to act expeditiously on the matters you have identified.

    Question 3. The FCC has long supported job growth, lower consumer 
prices and innovation within the telecommunications market place by 
actively and consistently supporting policies favoring competition. 
These policies have implemented Congress' directive in The 
Telecommunications Act of 1996 to encourage competition and eliminate 
exclusive franchises enjoyed by the inheritors of AT&T's and other 
state-sanctioned local monopoly franchises and to eliminate the ability 
of those incumbent local exchange carriers (``ILECs'') to use their 
control of bottleneck facilities to impede free market competition. Do 
you think the FCC should consider taking any steps to ensure that 
competitors will have access to the ILECs' bottleneck last mile 
connections, notwithstanding the evolution of underlying technologies?
    Answer. I am committed to promoting competition and as you point 
out the 1996 Act provides the FCC with certain tools to do that. If 
bottlenecks exist, they must be dealt with using these tools and others 
found in the Communications Act. One important matter currently being 
implemented is an important data collection in the Commission's special 
access proceeding, which I look forward to expeditiously implementing.

    Question 4. The transition from copper last mile connections to 
fiber and fixed wireless last mile connections could disproportionately 
affect small businesses and retail or branch locations of large 
businesses, whose competitive carriers rely more heavily on the ILECs 
copper/TDM networks than competitive carriers serving residential 
customers or businesses with large telecommunications needs at a given 
location. Businesses need highly reliable and low cost products to 
serve their needs. Businesses with numerous sites and limited need for 
large bandwidth products at each particular site have for the most part 
not shifted away from copper and TDM products and certainly have not 
replaced their landline service with mobile phones. What steps would 
you favor to ensure that business locations with relatively modest 
requirements will have a competitive choice among telecommunications 
suppliers when those suppliers are dependent on the ILECs' last mile 
connections to provide service?
    Answer. What is most important for business customers is that they 
are able to purchase the services that meet their needs in a cost-
effective manner. The best way to make sure this happens is to ensure a 
competitive market with as many options as possible. And this means 
that competitive providers must have access to ILEC last mile 
connections in whatever form those connections are offered. Whether 
legacy rules concerning last-mile connections need to be applied to IP-
based networks or whether a deregulatory approach is appropriate is an 
open issue before the Commission that I look forward to addressing.

    Question 5. In light of the FCC's own research that reflects cable 
rates continue to outpace inflation, do you believe that cable 
consumers are protected by our current laws? If you do not, can you 
share, whether now or after your confirmation, how the Commission and 
or Congress might work to address this challenge?
    Answer. I, too, hear complaints about cable prices. Dealing with 
this issue encompasses a broad set of practices at both the wholesale 
and retail levels. It is appropriate that both the Congress and the 
Commission continue to represent the consumer's interests in these 
matters.

    Question 6. The FCC now has enough information about indoor 
location technologies to establish a reasonable, measurable level of 
location accuracy for emergency calls made indoors, as it already has 
done for call originating outdoors. Doing so would enable first 
responders to locate emergency calls from wireless phones from all 
locations rapidly and efficiently. Do you support the FCC taking a 
leadership role in enabling first responders to reach wireless 911 
callers more quickly and efficiently?
    Answer. Yes.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Thomas E. Wheeler
    Question 1. During your testimony at the hearing, you stated that 
your blog posts about merger conditions were just ``hypothetical 
musing[s].'' Please answer yes or no--do you reject the type of non-
transparent, ``backdoor'' policymaking via merger conditions discussed 
in your blog posts dated April 1, 2011 and September 2, 2011? If no, 
under what circumstances would you seek, if confirmed, to use merger 
conditions as a means to ``backdoor'' regulation of an entire industry?
    Answer. As I stated at the hearing, I am committed to following 
statutory directives in reviewing mergers, which require that the 
transaction must be in the public interest, convenience, and necessity. 
The Commission's merger review process is an open, transparent process 
in which the public is afforded an opportunity to comment on the 
merger. In the past, under Democratic and Republican chairs, the 
Commission has relied on the factual record developed in such 
transactions and imposed conditions so that a transaction that may 
otherwise not be in the public interest can be cured of that defect and 
allowed to move forward.

    Question 2. During your testimony, you said to me that a 
transaction review must be ``based upon the facts in that specific 
instance, based upon the mandate that the Congress has established in 
the Act, and based upon precedent.'' If confirmed, can you assure the 
Committee that you will first look to Congressional mandates 
established in statute as your primary source of guidance and 
constraint, both with regards to transaction reviews and in general, 
before resorting to a reliance on Commission precedent?
    Answer. Yes.

    Question 3. The communications landscape has changed dramatically 
since Congress last significantly updated the Communications Act in 
1996. Your experience gives you a unique perspective on the impact of 
these changes. If you could advise Congress on how to update the Act to 
better reflect technological and competitive changes since 1996, what 
would you suggest? In particular, are there any provisions of law that 
you believe to be inadequate or outdated?
    Answer. If confirmed, I look forward to working with the Committee 
as it explores these issues. As I have mentioned, the technological 
transition that is occurring in the communications space should be the 
impetus for a review of the Commission's rules to determine which ones 
should be retained, modified or eliminated to ensure that the 
Commission's core mission of promoting competition, protecting 
consumers, providing universal service, and promoting public safety is 
continued. As a practical matter, policymakers should tackle this 
debate with a proper sense of humility, recognizing that technology 
will continuously evolve in a direction that we cannot possibly predict 
today. Thus, as we consider any potential reforms to the Act, a goal 
should be to provide an appropriate framework and tools for policy 
makers that best takes this reality into consideration.

    Question 4. The previous FCC Chairman inexplicably left the Title 
II reclassification docket open, despite telling a Congressional 
committee in 2012 that he was unaware of any FCC employees working on 
the order and that he would consider closing it. Congress has never 
intended for the Internet to be treated like wireline telephone 
service. In 2010, a bipartisan majority of over 300 Members of Congress 
expressed concern about the FCC's plan to reclassify the Internet as a 
Title II telecommunications service. Please answer yes or no--if 
confirmed, will you close the Title II reclassification docket? If no, 
please explain why you believe the Internet should be regulated like 
the public switched telephone network.
    Answer. I am not in a position now to predict an outcome. If 
confirmed, I will meet with the General Counsel and others at the 
Commission to understand what, if any, internal activity is being 
devoted to this docket, and why.

    Question 5. During your confirmation hearing, you stated that, 
``[t]here is nothing worse for investment, innovation, job creation . . 
. than businesses not knowing what the rules are.'' Do you believe the 
fact that the Title II reclassification docket remains open and 
actionable provides more or less certainty for communications 
providers?
    Answer. As a venture capitalist that has funded Internet-based 
business opportunities, I can tell you from my personal experience, the 
status of this docket has been irrelevant to my decision making on 
those ventures.

    Question 6. Please answer yes or no--if you are confirmed and if 
the FCC's Open Internet order is struck down in the courts, will you 
come to Congress for more direction before attempting another iteration 
of network neutrality rules?
    Answer. Yes.

    Question 7. Should you be confirmed, will you commit to visit South 
Dakota or a similarly situated rural state within the first year of 
your tenure as Chairman to see firsthand some of the communications 
challenges facing rural communities?
    Answer. Yes.

    Question 8. During your testimony at the hearing, you mentioned 
your service on the first board of the Universal Services 
Administrative Company (USAC). Please fully describe your experience on 
the first board of USAC, and include your views on USAC's role in 
administering the USF, as well as how USAC can be improved or reformed.
    Answer. As a member of the Board of USAC in the late 90s, I was 
able to help establish that company as it was going through 
implementation of the 1996 Telecommunications Act's new, explicit 
mechanism to fund universal service. While I am no longer privy to the 
inner workings of USAC, I know based on its public reports that it has 
maintained very low administrative expenses. If confirmed, I am certain 
I will have more information to help inform any reforms that may be 
needed, but I commit to you that I will look into these issues.

    Question 9. USF reforms have had a significant impact on rural 
states like South Dakota. Should you be confirmed, how do you intend to 
provide greater regulatory certainty in the USF program for rural 
broadband providers, particularly rate of return carriers? Please be 
specific.
    Answer. A goal of the Commission's unanimously adopted high cost 
universal service program reforms was to ensure that the Fund could 
deliver broadband in a fiscally responsible way to the more than 18 
million Americans who lack access to this service. I know this program 
is critical to assisting rate of return companies, as well as price cap 
carriers, in bringing service to rural America. While I do not have any 
specific reforms in mind right now, I can commit to moving forward with 
the reforms that the Commission recently directed the Wireline Bureau 
to implement in the Sixth Order on Reconsideration of the USF Reform 
Order. The actions taken by the Commission in that order and other 
recent Wireline Bureau efforts, largely made at the request and with 
the support of rural carrier associations, were intended to provide 
greater certainty for rural carriers. I will ensure the Commission's 
direction to the Bureau is expeditiously implemented while also 
reviewing the record for other possible actions as appropriate.

    Question 10. The statutory principles for universal service include 
affordability, particularly for those consumers in rural areas. Given 
the ongoing implementation of comprehensive USF distribution reform, 
how can the Commission best ensure that rates for advanced 
telecommunications and information services in the highest cost rural 
areas remain affordable for consumers?
    Answer. The Commission can meet the statutory requirement that 
rates in rural areas be reasonably comparable to rates in urban areas 
by continuing to maintain a universal service system that subsidizes 
legitimate costs in high cost areas where service would not otherwise 
be offered absent support. I am committed to moving forward with the 
broadband reforms unanimously adopted by the Commission, but am also 
open to modifications to the reforms if justified by sound data.

    Question 11. During your testimony at the hearing, you indicated 
that USF should be addressed in its ``totality,'' looking at both the 
contribution and disbursement sides of the program. Do you intend to 
address contribution reform in a substantive way prior to, or in 
concert with, any possible expansion of the USF program? What steps, if 
any, will you take to reform the contribution side of USF, if 
confirmed? Have you ever taken a public position on reforming the 
contribution side of USF? If so, please provide any writings on the 
subject or other citations.
    Answer. Ensuring a stable funding mechanism for universal service 
is critical. I think it is important to make efforts to ensure a level 
playing field for similar services with regard to contributions 
obligations and to eliminate opportunities for regulatory arbitrage 
resulting from a lack of clarity as to the applicability of 
contributions obligations for new services. The Commission initiated a 
rulemaking proceeding in 2012 looking to modernize the USF 
contributions system--both in terms of who should contribute and how. I 
look forward to working with my fellow commissioners to find a path 
forward.

    Question 12. The President has recently rolled out a plan to expand 
the E-rate program, known as the ConnectED initiative, to connect 99 
percent of America's students to high-speed broadband within five 
years. The USF contribution factor has doubled over the last decade, 
and the overall size of USF has ballooned to nearly $9 billion 
annually. The current E-Rate program is already heavily oversubscribed, 
with USAC receiving applications in 2012 requesting over $5 billion in 
support from the $2.2 billion program. Given your expertise as a member 
of the first USAC board, what is your assessment of how much the 
President's ConnectED initiative will increase the size of the current 
Schools and Libraries program? Do you believe it is feasible to meet 
the President's goal of 99 percent within five years while keeping the 
overall size of the USF program at its current level? If so, what other 
part or parts of USF would you cut to accomplish that goal?
    Answer. Real per student funding under the E-Rate program is down 
by one-third since its enactment (adjusted for inflation). This was a 
program that I helped implement when I was on the Board of USAC and it 
has been a success in its current formulation, providing basic Internet 
access to virtually every school in the country. I know the Commission 
has circulated an item on modernizing the program and I expect that the 
item seeks comment on this very issue. That will help determine whether 
and how much the fund might need to increase. I look forward to 
reviewing that record and working with my fellow Commissioners on this 
important issue if I am confirmed.

    Question 13. In 2009, Senators Grassley, Harkin, and I wrote to 
then-Acting FCC Chairman Copps about a pending petition for 
reconsideration of its decision involving access charges some rural 
telephone companies charge to larger carriers for completing certain 
long distance calls. Our letter did not take a position on the merits 
of the dispute, but encouraged the FCC to make a decision in the near 
future in order to provide certainty to the telecommunications 
industry. Will you commit to taking action on this still pending 
petition in the near future, if confirmed?
    Answer. If confirmed, I will look into this petition.

    Question 14. Rural Americans are facing significant call completion 
problems. One study indicates that, during one period between 2011 and 
2012, the incompletion rate was 13 times higher in rural areas than in 
non-rural areas. Calls that fail to be completed result in rural 
businesses losing customers and family members in rural areas being cut 
off from each other. How familiar are you with the call completion 
problems being experienced in many rural areas of the country, and 
would you commit to using your authority as chairman to put an end to 
such problems, should you be confirmed?
    Answer. As I mentioned at the hearing, rural call completion 
problems represent a serious problem both for public safety and 
business reasons. Call completion is a bedrock principle of our 
communications network. In the last couple of years the Commission has 
taken steps to both clarify its rules in this area and for the first 
time to make clear that the originating carrier is responsible for 
ensuring calls are completed even when it hands it off to an 
intermediary. The Commission has also taken enforcement action against 
one company. I will ensure that the rules in this area are enforced.

    Question 15. You have noted that the IP transition issue is one of 
the top challenges facing the FCC. If confirmed, how will you approach 
this important issue, and what impact do you think the IP transition 
will have on rural areas like South Dakota?
    Answer. As technologies transition, the FCC must remain committed 
to certain core values, including the promotion of competition, 
consumer protection, universal service, and public safety--regardless 
of location. While the Commission must analyze legacy rules and 
regulations and adapt to reflect changes in the communications 
landscape, new communications networks and services do not change the 
Commission's mission, including for rural areas. It is very important 
to maintain sufficient consumer protections and access to emergency 
services during the transition in all areas, including the most remote 
parts of the country. Rural and remote areas present unique challenges 
that must be considered when developing policies in a changing 
communications landscape.

    Question 16. I represent a rural state and am committed to 
expanding telecommunications opportunities for people in rural 
communities. At a 2001 House Energy & Commerce subcommittee hearing, 
you stated: ``Wireless carriers, as a result of government policy, for 
the most part, have a very difficult time going into rural areas and 
providing the kind of high speed service. They've got to compete 
against companies that are subsidized, et cetera. There is great 
opportunity for wireless carriers to do in the United States what 
they've done in South Africa and other countries around the world if we 
can be allowed to get there.'' Are there government policies that are 
presently holding wireless carriers back from offering service to rural 
Americans? If so, what measures would you take as FCC Chairman to 
eliminate these obstacles, if confirmed?
    Answer. Fortunately, in the dozen years since I made that statement 
wireless service has significantly expanded in rural America. Funding 
remains an obstacle to investment for wireless carriers in rural 
America. The Commission's Mobility Fund should help address some of 
those needs, but I know more will need to be done and look forward to 
exploring with the Committee ways to remove barriers and how to promote 
opportunities to deliver wireless service to rural America.

    Question 17. Please answer yes or no--all other things being equal, 
does the presence of more qualified bidders in a spectrum auction lead 
to higher proceeds than one with fewer qualified bidders?
    Answer. Auction design is far too complicated for a simple ``yes'' 
or ``no'' answer to your question, and there are certainly varying 
perspectives among the experts on this subject. The Commission staff 
and auction design experts are looking into this issue. The statute 
passed by Congress provided the Commission with two important 
directives: (1) the Commission must ensure that all are eligible to 
participate, but (2) the Commission may limit participation through 
rules of general applicability. The Commission is currently conducting 
a public proceeding to explore these issues and I will be guided by the 
statutory requirements adopted by Congress.

    Question 18. Please answer yes or no--during the spectrum auctions, 
do you support allowing every qualified bidder (defined as an entity 
that complies with all auction procedures and requirements and meets 
the technical, financial, character, and citizenship qualification that 
the FCC may require under sections 303(l)(1), 308(b), or 310 of the 
Communications Act) to bid on any license up for auction? If no, please 
explain under which circumstances you would exclude qualified bidders 
from participating in the auction.
    Answer. See previous answer.

    Question 19. Given your deep experience with spectrum policy, 
particularly as a wireless industry association leader, please share 
your views on previous FCC auctions. Specifically, what policies do you 
feel attract the most bidders, revenue, and service build out, and what 
policies should be avoided in future auction planning?
    Answer. A diverse offering of service area sizes and spectrum 
blocks promotes successful auctions. Also, certainty of the rules 
before the auction helps all that participate properly evaluate their 
bidding opportunities based on their individual business models. 
Finally, allowing sufficient time to arrange for capital to bid helps 
promote participation.

    Question 20. During the hearing, you said that the 1755-1780 MHz 
band needs to be paired with the 2155-2180 MHz band and auctioned by 
2015. I wholeheartedly agree. Chairman Genachowski directed FCC staff 
to draft a rulemaking to do just that. If confirmed, will you follow in 
your predecessor's footsteps and issue that proposed rulemaking?
    Answer. Yes. The Commission recently circulated an item seeking 
comment on this and other proposals. I will follow through on that 
rulemaking and will work with NTIA and other Federal users of spectrum 
to explore opportunities such as this one.

    Question 21. In testimony before Congress in 2001 you described the 
potential ``win-win'' situation of the Defense Department having access 
to the spectrum it needs to have a 21st century military while making 
sure there is adequate spectrum available for commercial use. As we 
examine opening up the 1755-1780 band and other spectrum bands for 
commercial use, how will you show leadership in working across the 
government to ensure a ``win-win'' situation for this country?
    Answer. This is a situation that will take all of us--Congress, the 
Commission, NTIA, and Federal spectrum users--working together to 
resolve. If confirmed, I intend to fully engage on this issue to find 
those ``win-win'' opportunities.

    Question 22. During our meeting in my office and in your previous 
testimony before Congress you have discussed your role working with the 
Department of Defense in getting government spectrum into the hands of 
the private sector. You have noted that we must give the proper 
incentives to DOD and other government agencies before these agencies 
will relinquish access to this spectrum. In your opinion, what sort of 
incentives should be offered? Also, should government agencies be 
incentivized to act in the public interest?
    Answer. In my previous work on getting spectrum converted to 
commercial use, I found that providing a funding source to cover the 
costs of relocation and equipment was an important component. In a 
budgetary environment like the one we are in now, it is important that 
government users of spectrum have an ability to cover the costs of 
moving and to modernize the equipment they need in doing so. Budgetary 
realities are a real issue for these agencies and Congressional 
recognition of those needs may help incentivize these users. If 
confirmed, I look forward to working with all stakeholders to figure 
out a path forward because the spectrum shortage cannot be fully 
addressed unless we find ways to clear and share more Federal spectrum.

    Question 23. In 2001, you told this Committee that ``there needs to 
be a spectrum policy in this country'' but that ``We don't have a 
plan.'' It is now 2013--in your opinion, do we have a spectrum policy 
in this country? If not, what would you do as Chairman of the FCC to 
ensure that we have such a policy?
    Answer. The National Broadband Plan established a clear spectrum 
target to address growing demand. That plan and target have been 
reinforced by two presidential memoranda as well as Congress' passage 
of incentive auctions legislation. More can certainly be done and I 
look forward to working with the Committee to explore other 
opportunities.

    Question 24. There are indications that some people within the FCC 
may be interested in limiting payments to broadcasters during the 
incentive auctions. Other stakeholders believe that the key to a 
successful auction, and to raising the money for FirstNet, is to offer 
sufficient financial incentives to attract lots of TV stations and 
secure a lot of spectrum that can then be sold to the wireless 
carriers. What is your view?
    Answer. I am committed to holding an auction that encourages robust 
broadcaster participation and frees up significant amounts of spectrum 
for wireless providers to bid on. That is my goal.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                           Thomas E. Wheeler
USF/CAF
    Question 1. An important question the FCC will need to consider is 
how to administer the Connect America Fund moving forward. Looking 
beyond CAF II, I believe the FCC should broaden the industry base 
eligible for support. Anyone who is willing to invest in rural and high 
cost areas should have an opportunity to compete for funds.

    a. What are your views on the future of the Connect America Fund? 
Do you believe that the FCC should move forward in a technologically-
neutral way to ensure that the dollars are getting into the hands of 
providers regardless of platform?
    Answer. I commend the Commission for the landmark USF reforms 
adopted in 2011 and believe it is important that the Commission move 
forward with all phases of the Connect America Fund to get broadband to 
the millions of unserved Americans. It is my understanding that the 
reforms create opportunities for all types of providers, consistent 
with statutory eligibility requirements and minimum service 
capabilities that must be met to ensure that consumers in rural areas 
are provided reasonably comparable service at reasonably comparable 
rates to consumers in urban areas.

    b. If the goal of the USF is to bring broadband to the roughly 15 
million unserved Americans, shouldn't we also support those 
technologies, such as satellite and wireless, that can quickly reach 
these markets with a quality broadband solution?
    Answer. See answer to previous question.

    c. Putting aside any concerns about USF, where do you stand on the 
satellite broadband deployment capabilities?
    Answer. Substantial developments have been made in satellite 
technology. Recent launches of next generation satellites have provided 
consumers with high-speed broadband capabilities that may not have been 
previously available in many areas of the country. This is an important 
development and it is important that the Commission support efforts to 
ensure that satellite broadband service continues to expand.
Forbearance Expansion
    Question 2. At an FCC oversight hearing earlier this year, I raised 
the prospect of extending the FCC's forbearance authority to include 
cable services and multichannel video programming distributors or MVPDs 
as a way to provide relief from smaller, yet still burdensome 
regulations in lieu of a full Cable Act rewrite. What is your view on 
expanding forbearance authority not only for Title VI other 
communications platforms as well?
    Answer. While I have not thought about forbearance as a tool for 
relief in this context, I will look into this proposal if confirmed. As 
a general matter, I am committed to ensuring that the Commission's 
rules achieve their objective in the least burdensome way possible.
Broadband Usage-based billing
    Question 3. As data usage has skyrocketed, many broadband providers 
started to offer tiers of broadband service. Such tiers allow for 
consumer to purchase the tier of service that best matches their usage. 
Do you support metered billing by ISPs for broadband usage?
    Answer. I understand the reason data caps were imposed, as well as 
their potential effect on both network operations and on content 
providers. I intend to keep a watchful eye on the evolution of data 
pricing and any impact it may have on competition and innovation, 
including its impact on consumers and content providers.
LPFM
    Question 4. Mr. Wheeler, even after the spectrum auctions, there 
will be a substantial amount of spectrum still allocated to 
broadcasters. I want to ensure that we are maximizing its use and 
allowing for innovative and non-traditional uses. There are many 
license holders, Channel 6 television being a good example, where the 
license holders have found a new and innovative way to serve the 
public's desire for a service, in that case radio, but the current 
rules and bureaucracy are not moving as quickly as the market and 
innovation. Will you work to ensure that the FCC allows for the best 
use of spectrum, even if it entails a little work on the Commission's 
part in modernizing its approach?
    Answer. I am open to exploring opportunities to promote a vibrant 
broadcast community and exploring alternative approaches to facilitate 
it.
IP Transition
    Question 5. We have heard a lot of talk recently about the Internet 
Protocol, or ``IP'', transition, which would increase America's global 
competitiveness, create jobs and spur our economy by enhancing 
America's communications infrastructure. As part of this technology 
transition, in the past decade, tens of millions of Americans have 
canceled their plain old telephone service and have rapidly embraced 
mobile and Internet-based voice services.
    As consumers rapidly adopt these IP technologies and demand access 
to advanced services, reaping the substantial benefits brought by next 
generation networks, do you agree that upgrading America's 
communications networks to IP-based technology should be a top priority 
for the FCC?
    Answer. I do agree that the IP transition offers substantial 
benefits for consumers and businesses and facilitating the 
modernization of carrier networks and services is an important 
objective. At the same time, I recognize that technology transitions do 
not alter the core statutory mission of the FCC which is to promote 
competition, protect consumers, provide universal service, and promote 
public safety. I am committed to ensuring the achievement of these core 
goals regardless of technology platform.

    Question 5a. The world is rapidly expanding its broadband networks, 
services and offerings; consumers have witnessed the amazing benefits 
of broadband that empower them in their daily lives and are quickly 
migrating to all-IP, whether in mobile or in other next generation 
broadband networks. This consumer-led transition to broadband networks 
is inevitable, and is on the cusp of already displacing the antiquated 
voice-centric networks of yesteryear.
    What steps will you take as FCC Chair to ensure that ALL Americans 
can reap the rewards of broadband networks and services and that all of 
America quickly and efficiently transitions to broadband networks with 
minimal consumer disruption?
    Answer. Rural and remote areas, as you know from the experience in 
striving to achieve universal service in the wireline context, present 
unique challenges that must be considered when developing policies 
related to the current transition. As stated above, as technologies 
transition, universal service remains a core mission of the FCC and I 
will take that obligation seriously.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                           Thomas E. Wheeler
    Question 1. Recently this committee had a hearing on the state of 
the wireless marketplace. This panelists at that hearing disagreed 
completely on how the upcoming broadcast spectrum auction should be 
structured.
    How do you personally believe that the spectrum auction should be 
structured, and specifically, do you think that any bidders should be 
excluded from bidding at all or on specific spectrum bands?
    Answer. The auction should be structured in a way that brings as 
many broadcasters voluntarily to the table as possible to free up a 
substantial amount of airwaves for mobile carriers to bid on, while 
meeting clear statutory policy objectives established by Congress. 
While a very complex matter, I am certain that FCC staff is working 
hard to structure a successful auction consistent with these objectives 
and I will strongly support such efforts. Regarding bidder eligibility, 
my goal will be to implement congressional requirements. The Commission 
is currently conducting a public proceeding to explore these issues and 
I will be guided by the statutory requirements adopted by Congress.

    Question 2. When you were with CTIA, I think you generally 
advocated that commercial wireless spectrum should be put to its 
highest and best use. Will that be the standard by which spectrum is 
allocated under your leadership at the FCC?
    Answer. Yes.

    Question 3. During your confirmation hearing, you stated that 
merger review proceedings and potential conditions placed upon a merger 
should be evaluated case by case. However, you have written before that 
some merger conditions, specifically those which might have been 
required had the AT&T and T-Mobile USA merger had been completed two 
years ago, should then be extrapolated onto the entire industry. How do 
you reconcile those two viewpoints?
    Answer. As I stated at the hearing, I am committed to following 
statutory directives in reviewing mergers, which require that the 
transaction must be in the public interest, convenience, and necessity. 
The Commission's merger review process is an open, transparent process 
in which the public is afforded an opportunity to comment on the 
merger. In the past, under Democratic and Republican chairs, the 
Commission has relied on the factual record developed in such 
transactions and imposed conditions so that a transaction that may 
otherwise not be in the public interest can be cured of that defect and 
allowed to move forward.

    Question 4. Two weeks ago, the Administration announced that it was 
moving forward with a policy of allowing government spectrum to be 
shared with commercial wireless providers. Do you think carriers will 
be willing to spend potentially billions of dollars at auction to share 
spectrum with government systems, or will such spectrum need to be 
cleared in order for carriers to build out systems on it and for 
consumers to see value from it?
    Answer. To address the growing demand for mobile broadband 
services, we need to pursue a strategy that employs multiple tools to 
get spectrum into the hands of commercial providers. Those tools should 
reflect the advances in technology in the wireless space that permit 
greater use of sharing as well as traditional methods of clearing and 
auctioning. The challenges associated with sharing will differ among 
bands, but I do think that in some circumstances a properly structured 
arrangement with clear service rules could make sharing an attractive 
approach for wireless providers.

    Question 5. Various Federal Government spectrum license holders 
have stated that they can operate their systems in frequency bands much 
higher than where they currently operate. Specifically, some Federal 
license holders in the 1755 MHz band have stated that some of their 
systems could operate in the 5 GHz band, where they already operate 
other systems.
    What do you believe the best course of action is to address this 
issue? How do you anticipate working with the Department of Defense and 
other Federal license holders, in the event that they identify usable 
spectrum in higher bands and thus are able to vacate some of their 
lower MHz spectrum holdings, which could then be auctioned for 
commercial use?
    Answer. If confirmed, I look forward to engaging all stakeholders 
in the process. We should move quickly to explore all viable 
alternatives presented that enable Federal agencies to meet their 
missions while freeing up valuable spectrum for commercial use.

    Question 6. As you know, the FCC is responsible for enforcing 
Federal law that prohibits indecency on the public airwaves. However, 
the FCC has not brought an enforcement action against any program in 
more than four years. Can you explain your views regarding the FCC's 
role in preserving decency on radio and television programs? Do you 
believe that the FCC is doing an adequate job in this area?
    Answer. The Supreme Court's recent decision has provided some 
clarity as to the parameters of the Commission's authority in this 
area. The Commission has also released a public notice seeking input on 
its rules. I will be guided by Congressional intent and court precedent 
as I work with my fellow commissioners on resolving this issue.

    Question 7. In response to the FCC's request for public comments on 
proposed changes to decency enforcement standards, nearly 100,000 
comments were submitted, nearly all opposed to changes which, in their 
mind, would weaken the standard. In various court proceedings over the 
past decade, broadcasters have argued that the indecency rules are 
outdated. Specifically, broadcasters have stated that the rules are too 
vague, they conflict with their First Amendment rights and that parents 
can control what their kids watch on television anyway.
    How do you believe the FCC should move forward on this issue? Are 
the current indecency laws outdated? Should broadcast networks be 
treated the same as cable networks in terms of what is considered 
indecent?
    Answer. Again, I look forward to engaging with my fellow 
commissioners on this issue, recognizing that the communications 
marketplace has gone through substantial shifts since the days of the 
original indecency rules.

    Question 8. The FCC has not addressed media ownership rules and 
regulations officially since 2007. The last quadrennial review, which 
the Commission is legislatively required to complete, have been 
challenged and stayed in different courts. The current review was 
postponed until the Commission completed a minority media ownership 
review, which has now been done. Much has changed in the media 
landscape in the past decade, specifically in the past six years since 
the Commission last attempted to update these rules. What do you plan 
to do to push forward with the Commission's legislative mandate to 
update outdated media ownership rules?
    Answer. As I mentioned at the hearing, the current review is three-
quarters of the way through and the Commission is going to have to 
start another review very shortly. If confirmed, I will look at the 
proceeding and determine what the best course of action might be. I 
will be guided in that review by the Commission's longstanding policy 
goals to promote competition, diversity, and localism.

    Question 9. Specific to the current ban on media cross-ownership of 
newspaper by television broadcasters it has been well documented that 
newspapers across the country have experienced unprecedented challenges 
to their business model. As a result of a recession and Internet 
competition more than half of the industry's advertising revenues have 
disappeared. Specifically, newspaper advertising revenues have declined 
from $49 billion in 2006 to roughly $22 billion in 2012.
    Newspapers continue to live under the 1975 Federal Communications 
Commission cross-ownership ban that prevents a broadcast owner from 
investing in a newspaper in the same local market.
    Do you believe that this nearly four-decade old regulation should 
be recalibrated to reflect the changes in the media marketplace, with 
cable and satellite television, the Internet, mobile apps and all the 
other ways people get information today?
    Answer. As the courts have made clear, any review and modification 
of the Commission's media ownership rules must be based on sound data. 
There have certainly been changes in the media marketplace as you have 
identified, and the impact of such changes should be appropriately 
considered by the Commission.

    Question 10. With the proliferation of online music, satellite 
radio providers and cable music stations, do you believe that local 
market radio caps need to be re-evaluated?
    Answer. See answer to previous question.

    Question 11. What are your plans to expedite the Commission's 
merger review proceedings? Specifically, do you believe that a 180 day 
shot clock could be implemented as a statutory deadline by the 
Commission to complete merger review proceedings?
    Answer. I understand that better than 95 percent of all license 
transfer applications since 2009 have been acted on within the 180-day 
period. I believe it is an effective guideline that provides parties to 
transactions an understanding of the Commission's timing for review. I 
appreciate the importance of reviewing these transactions in a timely 
manner, but given the widely varying circumstances of proposed 
transfers, I do not believe that a statutory deadline would be ideal.

    Question 12. Previously, the Commission has attached merger 
conditions to merger proceedings which seemingly have little to do with 
addressing a consumer harm, or a potential consumer harm, which will 
originate as a result of the merger being completed. Do you believe 
that the Commission should continue to attach merger conditions to 
further a policy agenda outside of the scope of a proposed merger or 
should the FCC look to only attach conditions when there is a specific 
consumer harm that needs to be addressed?
    Answer. As I stated at the hearing, I am committed to following 
statutory directives in reviewing mergers, which requires that the 
transaction must be in the public interest, convenience, and necessity. 
The Commission's merger review process is an open, transparent process 
in which the public is afforded an opportunity to comment on the 
merger. In the past, under Democratic and Republican chairs, the 
Commission has relied on the factual record developed in such 
transactions and imposed conditions so that a transaction that may 
otherwise not be in the public interest can be cured of that defect and 
allowed to move forward.

    Question 13. Do you think that as the Universal Service Fund 
migrates to being a subsidy for broadband, as opposed to its original 
purpose of providing universal telephone service, that it should only 
be used to fund expansions of broadband in unserved areas?
    Answer. I commend the Commission for the landmark USF reforms 
adopted in 2011 and believe it is important that the Commission move 
forward with all phases of the Connect America Fund to get broadband to 
the millions of unserved Americans. In adopting the reforms, the 
Commission established multiple goals for the program, among them 
ensuring that consumers in every part of the country have access to 
both voice and broadband services. I support these goals and the 
requirement that recipients of USF support provide voice service and 
the deployment of broadband-capable networks.

    Question 14. Do you believe that all technologies, whether they are 
copper networks, fibre networks, wireless networks or satellite 
networks, should be eligible to compete for Universal Service Funds if 
they are able to provide broadband to areas which currently do not have 
them, and at the most economical rate?
    Answer. It is my understanding that the reforms create 
opportunities for all types of providers, consistent with statutory 
eligibility requirements and minimum service capabilities that must be 
met to ensure that consumers in rural areas are provided reasonably 
comparable service at reasonably comparable rates to consumers in urban 
areas.

    Question 15. Most members of Congress are in favor of keeping the 
current ban on unwanted phone calls to consumers home phones and cell 
phones. The Do Not Call List has been a very successful tool provided 
by Federal Trade Commission. But the Telephone Consumer Protection Act 
rules were written at a time when home phones and fax machines were 
considered cutting edge technology. We do not live in that world 
anymore.
    Can I get your commitment that you will take a hard look at the 
current TCPA rules and apply some common sense and pragmatic updates to 
these rules that still protect consumers from unwanted solicitations, 
but don't preclude them from getting updates on goods or services where 
the consumer has an established relationship with the entity who wants 
to contact them, specifically on the status of their drug prescription, 
airline flight updates or even from their student loan holder?
    Answer. I agree that consumers should be afforded protection from 
unwanted autodialed or prerecorded calls or ``robocalls'', while 
ensuring they have access to information they wish to receive. To that 
point, my understanding is that the Commission issued an order last 
year enhancing the robocall rules while maintaining the existing 
consent rules for non-telemarketing, informational calls, such as those 
by or on behalf of tax-exempt non-profit organizations, calls for 
political purposes, and calls for other informational purposes, 
including informational messages such as school closings, airline 
flight updates, prescription refill reminders, or notifications 
regarding possible bank fraud. If confirmed, I will look into the issue 
to determine if more common sense updates to the rules are needed.

    Question 16. As you may know, there those who believe the FCC can 
sometimes lose sight of the actual intent of their legislative mandate 
in their rule-making process. In fact, I am familiar with a company 
from my home state which is currently fending off claims that it owes 
millions of dollars in damages to a business which actually consented 
to receiving faxed advertisements from the company, but didn't parrot 
word-for-word the consent language called for in the FCC's regulations. 
This kind of enforcement defies common sense, especially when it 
involves sophisticated communications among consenting businesses 
rather than unsuspecting consumers. Without asking you to wade into 
existing litigation, can you give us some insight into your leadership 
style and priorities when it comes to rule-making?
    Answer. I will demand an open and transparent process that is 
guided by the Administrative Procedure Act, Congressional directives 
and Commission precedent in pursuing rulemakings.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                           Thomas E. Wheeler
    Question 1. Mr. Wheeler, I was pleased to see in your blog, Mobile 
Musings, that you share my concern about moving away from the multi-
stakeholder model of Internet governance. As you may know, Congress 
unanimously passed Senate Concurrent Resolution 50 last year. SCR 50 
made it clear that Congress opposes international regulation of the 
Internet and supports multi-stakeholder governance. And after an 
encouraging bipartisan agreement, the House recently passed--by a 
margin of 413-0--legislation making it the policy of the United States 
to advocate for the multi-stakeholder model of governance.

  <bullet> If confirmed, will you use your position as FCC Chairman to 
        promote multi-stakeholder governance?

  <bullet> In light of the departure of Commissioner McDowell, who was 
        a leader on this issue last year, in what ways will you ensure 
        that the fight for Internet freedom continues at the FCC?

  <bullet> Do you agree that promoting multi-stakeholder governance has 
        been the steadfast policy of the U.S.?

  <bullet> Do you agree with Democrats and Republicans in the House 
        that this should continue to be the policy of the United 
        States?

    Answer. I agree that the bipartisan Sense of the Congress passed 
last year sent a clear message of support for the multistakeholder 
model of Internet governance. The FCC is the U.S. Government agency 
with primary responsibility for implementing the 1988 International 
Telecommunications Regulations and as such it plays a key role in 
domestic and international work on these issues. If confirmed, I will 
continue the bipartisan Commission effort to promote the 
multistakeholder model.

    Question 2. In a March 20, 2013 letter to NTIA, Chairman 
Genachowski indicated that the FCC wants to auction the 1755-1780 
megahertz band paired with the 2155-2180 megahertz band. Are you 
committed to continuing the work begun by your predecessor to keep this 
auction on track? Does it make sense to auction the 2155-2180 band 
without the 1755-1780 band?
    Answer. Yes, I am committed to continuing to pursue all options to 
bring more spectrum to meet the growing consumer demand. As I 
understand it, the Commission has circulated an item seeking public 
comment on this issue and I look forward to working with all 
stakeholders to find a solution.

    Question 3. Looking beyond the auctions that are currently 
authorized, would it be helpful if Congress authorized multiple 
spectrum auctions, staggered over a period time, so that there would be 
a pipeline of spectrum entering the marketplace in a steady and 
predictable manner? Please explain your answer.
    Answer. Spectrum demand will continue to grow for the foreseeable 
future. The Commission will need various tools to meet that need, 
including: traditional clearing and auctioning of spectrum, sharing, 
repurposing, and unlicensed. I look forward to working with Congress to 
make each of these tools as effective as possible.

    Question 4. Will you make it a priority as Chairman to identify 
spectrum to be auctioned for commercial use?
    Answer. Yes.

    Question 5. Will you work with NTIA to identify and clear federally 
held spectrum for commercial use? How will you do that as Chairman?
    Answer. I will work with NTIA and other Federal users of spectrum 
to identify opportunities for clearing and sharing spectrum to meet the 
growing consumer demand for mobile broadband. I will wholeheartedly 
engage the Commission's Federal partners to make progress on this 
front.

    Question 6. Do you think bidders view spectrum they would share 
with government systems as valuable as spectrum cleared of such 
systems?
    Answer. To address the growing demand for mobile broadband 
services, we need to pursue a strategy that employs multiple tools to 
get spectrum into the hands of commercial providers. Those tools should 
reflect the advances in technology in the wireless space that permits 
greater use of sharing as well as traditional methods of clearing and 
auctioning. In appropriate circumstances, I do think a properly 
structured arrangement with clear service rules could make sharing an 
attractive approach for wireless providers.

    Question 7. What are the three most-important decisions you will 
need to make to ensure that the broadcast incentive auction is a 
success?
    Answer. Three key decisions I will need to make, if they are not 
yet resolved, to ensure a successful auction will be (1) developing a 
sound band plan; and properly structuring the auction to (2) 
incentivize robust broadcaster participation and (3) ensure a 
successful repacking of broadcasters. These are just three of the many 
issues on which the Commission is currently seeking public input and I 
look forward to working with my fellow commissioners to bring about a 
successful result.

    Question 8. The Presidential Memorandum released last Friday called 
for agencies to ``enhance the efficiencies of their use of spectrum and 
make more capacity available to satisfy the skyrocketing demand of 
consumer and business broadband users.'' Part of the solution to 
enhancing Federal agencies' efficiencies in their use of spectrum will 
be relocating systems out of the lower bands suitable for mobile 
broadband and into the 4 GHz and 5 GHz bands wherever possible. Yet 
some agencies have expressed interest in relocating to the Broadcast 
Auxiliary Spectrum in the 2 Ghz band (2025-2110 MHz). Will you commit 
to working with NTIA and the agencies to find comparable spectrum for 
the agencies that relocate in the upper bands wherever technologically 
feasible to increase efficiencies?
    Answer. I am committed to working with all stakeholders to find 
solutions that could include the relocations you mention or other 
opportunities. We should move quickly to explore all viable 
alternatives presented that enable Federal agencies to meet their 
missions while freeing up valuable spectrum for commercial use. The 
Commission has circulated an item that, as I understand it, explores 
these issues.

    Question 9. Under your leadership, the FCC's Technology Advisory 
Council recommended setting a target date of 2018 for sun-setting the 
public switched telephone network. Do you still support that proposal?
    Answer. The TAC, as a group, did suggest a notional target date of 
2018 for sun-setting the PSTN. While there is often value in setting 
firm deadlines, it is also fair to say that this type of transition 
does not as easily lend itself to a single cutover date like the DTV 
transition. I am not able to pick a particular date at this point, 
although I would note that at least one major national carrier has 
suggested 2020 as the target date for its network to go all-IP. Most 
important for the Commission, regardless of any particular date, will 
be to ensure a smooth transition that is guided by the core values that 
have always guided the Commission, namely, the promotion of 
competition, consumer protection, universal service and public safety.

    Question 10. In December 2010 the commission adopted the Open 
Internet Order, currently the subject of litigation before the DC 
Circuit Court of Appeals. In the event that the commission loses that 
case, would you support the idea of reclassifying broadband as a 
telecommunications service under Title II of the Communications Act?
    Answer. I cannot speculate on what future action I would take 
without the benefit of reviewing the court's decision.

    Question 11. The Docket for Title II reclassification has remained 
open at the Commission for over three years. This is a major proceeding 
to regulate broadband services under common carrier regulations, which 
would constitute a massive change to how the Internet would be 
regulated, and it remains open for over three years. Please answer yes 
or no to the following questions:

  <bullet> Is keeping a proceeding open for over three years without 
        action the best way to provide certainty in the marketplace?

  <bullet> Do you agree that this can create problems for stakeholders 
        and create uncertainty when considering future investments and 
        planning?

  <bullet> If confirmed, will you leave proceedings open for years with 
        no action?

    Answer. As a venture capitalist that has funded Internet-based 
business opportunities, I can tell you from my personal experience, the 
status of this docket has been irrelevant to my decision making on 
those ventures. With that being said, if confirmed, I will ask 
Commission staff to ensure the continuing need for all open dockets.

    Question 12. Telecommunications is a fast-paced, dynamic industry 
operating in a hypercompetitive environment. As an ``unabashed 
supporter of competition,'' what do you believe is the proper role of 
the FCC in this dynamic environment?
    Answer. I believe that whenever possible, the marketplace should 
drive communications provider investment decisions and business 
practices. The history of telecommunications, however, has made it 
clear that such competition does not occur by accident. The Congress 
has laid out the expectation as to how the FCC will encourage 
competition while protecting consumers and the safety of the public and 
furthering the goal of universal service.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                           Thomas E. Wheeler
Upcoming Spectrum Auctions
    Question 1. When I look at the upcoming auctions, my 2 main 
concerns are protecting the consumer and maximizing the amount of 
revenue that will be raised.
    Some argue that keeping larger carriers out of auctions will 
increase revenues. On the other hand, if you look at the 2008 spectrum 
auction, it brought in roughly $19 billion, which was over 25 percent 
more than CBO estimated. Also, it had over 100 winning bidders with 
1,400 licenses issued with different geographic areas. I've seen 
conflicting studies arguing both sides of this, but it is universally 
agreed that this is the most successful auction the FCC has ever had.
    Can you share your thoughts on whether limiting participation will 
result in more revenues and a more successful auction when our most 
recent auction does not back up this assertion? Which route would 
result in lower prices for the consumer?
    Answer. The auction should be structured in a way that brings as 
many broadcasters voluntarily to the table as possible to free up a 
substantial amount of airwaves for mobile carriers to bid on, while 
meeting clear statutory policy objectives established by Congress. 
While a very complex matter, I am certain that FCC staff is working 
hard to structure a successful auction consistent with these objectives 
and I will strongly support such efforts. Regarding bidder eligibility, 
my goal will be to implement congressional requirements. The Commission 
is currently conducting a public proceeding to explore these issues and 
I will be guided by the statutory requirements adopted by Congress.
Universal Service Fund
    Question 2. As you and I discussed when we met privately, I have 
been a consistent and vocal critic of the Universal Service Fund and 
how little New Hampshire gets out of it. We are a country of 50 
different states, so I understand there are bound to be some levels of 
inequities. However, New Hampshire receives 37 cents for every dollar 
it contributes to USF.
    Few states have a worse return than New Hampshire, but none of 
those states are nearly as rural as we are, nor do they have as many 
unserved areas when you look at the census blocks.
    When I addressed this with you in the Committee hearing, you said 
we need to look at USF in its ``totality'' both the distribution and 
contribution side. Can you expand further on how reforming USF in 
totality will improve outcomes for rural areas of New Hampshire? Please 
outline the types of USF contribution and distribution reforms that 
will help New Hampshire.
    Answer. Ensuring a stable funding mechanism for universal service 
is critical. Modernizing the contributions side of USF could result in 
a more equitable system for New Hampshire contributors. In addition, 
there are important elements of the Commission's 2011 USF Reform order 
that still must be implemented, including the second phases of the 
Connect America Fund and the Mobility Fund, as well as the Remote Areas 
Fund. These programs are specifically intended to provide targeted 
support for fixed and mobile broadband in unserved locations, including 
the many unserved locations in New Hampshire that you mention. 
Implementing contributions reform and moving forward with the ongoing 
USF forms that are underway should benefit New Hampshire.
USF Expansion (E-Rate, Lifeline, high-cost fund, etc)
    Question 3. At the hearing last week, we heard calls today to 
expand varying programs of Universal Service Fund. I applaud the goal 
of trying to provide crucial communications services to every corner of 
our great country. However, when New Hampshire is losing 63 cents on 
every dollar it contributes to the nearly $9 billion fund, perhaps we 
should look a little harder at making the fund more efficient and 
better managed before expanding it. The distribution side of the fund 
in New Hampshire is withering.
    What do you believe the FCC needs to do in order to get rid of the 
waste, fraud and abuse within the fund? Do we need to do this before 
expanding existing programs? Does the FCC need to work within a tighter 
budget?
    Answer. The Commission deserves credit for the substantial reforms 
to all of the USF programs over the last year, all of which were 
focused on increasing program efficiencies, improving fiscal 
responsibility, and eliminating waste, fraud and abuse. At this point, 
two of the four universal service programs are capped, another has a 
firm budget in place and the fourth was recently reformed to include a 
significant savings target which the Commission successfully met in 
2012. I believe the Commission should always look at ways to further 
eliminate waste, fraud and abuse before expanding existing programs.
Spectrum Sharing Policy
    Question 4. There are challenging questions pending before the FCC 
regarding spectrum for auctions. These decisions will provide consumers 
with greater choice and more powerful mobile broadband offerings, but 
also must protect national security interests that have rapidly growing 
wireless broadband needs. With regard to spectrum sharing policy, how 
do you approach the question of how commercial spectrum can be made 
available to support Federal broadband requirements, particularly those 
that are using off-the-shelf, standardized technology such as LTE to 
meet growing needs?
    Answer. There may be a real opportunity for some Federal spectrum 
users to have their equipment more closely tied to the evolution of 
commercial technology through spectrum sharing arrangements. It is an 
opportunity that is worth exploring as it could help reduce procurement 
costs while also allowing for a faster evolution of government 
equipment.
Executive Memorandum on Wireless Innovation
    Question 5. The recently signed Executive Memorandum on wireless 
innovation contained provisions about Federal spectrum requirements, 
including an objective to ``eliminate restrictions on commercial 
carriers' ability to negotiate sharing arrangements with agencies'' and 
an encouragement of the FCC to identify nonfederal spectrum that can be 
made available to agencies on a shared or exclusive basis. Under your 
leadership, how do you envision the Commission implementing these 
provisions?
    Answer. I am committed to working with all stakeholders to identify 
nonfederal spectrum that can be made available to agencies on a shared 
or exclusive basis. I will work with NTIA and other Federal users of 
spectrum to identify opportunities for clearing and sharing spectrum to 
meet the growing consumer demand for mobile broadband. We should move 
quickly to explore all viable alternatives presented that enable 
Federal agencies to meet their mission while freeing up valuable 
spectrum for commercial use. I understand that the wireless industry 
recently submitted a spectrum relocation roadmap making recommendations 
on this subject and also that the Commission has circulated an item 
that, as I understand it, explores these issues.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dean Heller to 
                           Thomas E. Wheeler
    Question 1. Thank you for your testimony and responses to my 
questions at your nomination hearing. I would like to follow up with a 
few more questions regarding spectrum clearing, interference, backhaul 
capabilities and requests by some telephone companies to transition to 
all IP. I appreciate the opportunity to learn a little more about your 
views on these issues. As you and I discussed, the spectrum auction is 
very complex with multiple moving parts. Do you believe we can hold 
this auction by 2014?
    Answer. I am committed to meeting that timeline if at all possible. 
However, I must add the caveat that at present I am precluded from 
seeing information that could form the basis of a definitive decision.

    Question 2. We need to work with government agencies to clear up 
more spectrum, you have a wealth of experience in this area. Do you 
believe we can move this issue forward to clear unused government 
spectrum for commercial use? I believe many Senators could be helpful 
to you in this endeavor; will you lean on us for support if 
appropriate?
    Answer. I appreciate the offer of assistance and can assure you I 
will take you up on it. Increased clearing and sharing of Federal 
spectrum will take all of us--Congress, the Commission, NTIA, and 
Federal spectrum users--working together to solve. I will work with all 
stakeholders to identify opportunities for clearing and sharing 
spectrum to meet the growing consumer demand for mobile broadband. We 
should move quickly to explore all viable alternatives presented that 
enable Federal agencies to meet their mission while freeing up valuable 
spectrum for commercial use. I intend to fully engage on this issue.

    Question 3. When we move more spectrum to market, interference 
issues will come up. If new wireless services are licensed in satellite 
spectrum bands will there be interference? Is there any plan to address 
this issue if there will be interference?
    Answer. As spectrum uses become more tightly packed, interference 
issues will increase as well. One of the most important ways the 
Commission can provide leadership to address this concern is in the 
area of improved receiver performance. I know the engineering staff at 
the FCC through my work on the Technology Advisory Council and they are 
working on ways to address this. I look forward to working through 
these issues in a way that allows robust growth and opportunity to 
continue.

    Question 4. Mr. Wheeler, what are your thoughts on the importance 
of wireless backhaul networks to the future of wireless communications? 
What is the current state of wireless backhaul deployment in the wide-
area licensed bands (24 thru 39 GHz)? Does FCC policy currently 
motivate quality builds?
    Answer. Wireless backhaul is an important component to addressing 
increased traffic. It is critical that licensees meet their build out 
requirements so that valuable spectrum like the spectrum you mention is 
put to use. I will be vigilant in ensuring spectrum is built out in a 
timely manner.

    Question 5. Do you believe the 1996 Telecommunications Act was 
technology neutral?
    Answer. The definition of ``telecommunications'' is certainly 
technology neutral--``the transmission, between or among points 
specified by the user, of information of the user's choosing, without 
change in the form or content of the information as sent and 
received.'' As to the specific provisions, some are clearly technology 
neutral, while others are specific to a particular type of network.

    Question 6. Do you believe the Commission should work to upgrade 
America's communication networks to IP-based technology? Will this be a 
priority?
    Answer. The IP transition offers substantial benefits for consumers 
and businesses and facilitating the modernization of carrier networks 
and services will be a priority. At the same time, I recognize that 
technology transitions do not alter the core mission of the FCC, which 
is to promote competition, protect consumers, provide universal 
service, and promote public safety. I am committed to ensuring the 
achievement of these core goals regardless of technology platform.

    Question 7. Some believe that applying Title II rules to IP systems 
will create confusion, increase costs, and ignore the transformation to 
next generation broadband networks. As Chairman, what is your view on 
Title 2 regulations as it applies to IP delivery of voice?
    Answer. Regardless of regulatory classification, the FCC must 
remain committed to certain core statutory values, including the 
promotion of competition, consumer protection, universal service, and 
public safety. While the Commission must analyze legacy rules and 
regulations and adapt to reflect changes in the communications 
landscape, new communications networks and services do not change the 
Commission's mission.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Dan Coats to 
                           Thomas E. Wheeler
    Question 1. I was sorry we did not get a chance to meet prior to 
the hearing, but I understand you were tied up on other business which 
precluded you from coming by my office. On August 3, 2011 you posted on 
your blog an entry titled ``Trout in the Milk.'' In that posting you 
expressed your surprise that the debt ceiling negotiations at the time 
did not include revenues derived from the sale of broadcast spectrum as 
part of deficit reduction. You then wrote, specifically with regards to 
the National Association of Broadcasters:

        ``As a former practitioner of the legislative art I look in awe 
        at the National Association of Broadcasters (NAB) and their new 
        president former Republican Senator Gordon Smith. Their hands 
        must have a slight odor of fish--trout to be specific. 
        Suddenly, when a spectrum sale seemed a fait accompli as a 
        payment on the debt, it vanished. No one is talking about it, 
        but these things don't happen by accident.''

    What did you mean by this statement?
    Answer. I look forward to meeting with you in person. I believe at 
the time that NAB was not supportive of what was being discussed 
regarding the reallocation and auction of broadcast spectrum.

    Question 2. Again I'd like to reference an entry on your blog, 
specifically your September 2, 2011 posting relating to the AT&T 
acquisition of T-Mobile when you implied that the government could have 
used the proposed merger to assert more regulatory influence over the 
wireless industry. You wrote:

        ``. . . the regulatory oversight of wireless carriers will 
        continue to atrophy as the digital nature of the wireless 
        business separates it from the legal nexus with traditional 
        analog telecom regulation.''

    My view is, as with any agency, the FCC should be actively working 
to eliminate any regulatory obstacles that are barriers to innovation 
and to the development of new products for the consumer. The current 
marketplace has created a vibrant and competitive communications and 
technology sector, but the marketplace only works for established 
players and new entrants if there is transparency and predictability in 
the Commission's processes. The communications and technology sector 
continues to innovate, and with their innovation comes job creation. 
The FCC can stop job growth in this sector dead in its tracks with 
onerous and unnecessary regulations, as well as unpredictability in its 
processes.
    I am concerned about your statement. Can you amplify on your views 
on increased regulation?
    Answer. As I stated at the hearing, I am committed to following 
statutory directives in reviewing mergers, which requires that the 
transaction must be in the public interest, convenience, and necessity. 
The Commission's merger review process is an open, transparent process 
in which the public is afforded an opportunity to comment on the 
merger. In the past, under Democratic and Republican chairs, the 
Commission has relied on the factual record developed in such 
transactions and imposed conditions so that a transaction that may 
otherwise not be in the public interest can be cured of that defect and 
allowed to move forward.

    Question 3. On April 29, 2013, my office addressed a letter to 
then-Chairman Genachowski regarding Non Commercial Educational (NCE) 
Public Interest Obligation (PIO) television stations and the FCC's 
process for reviewing complaints concerning underwriting announcements 
by these stations. The May 17th response from Michael Perko, Chief of 
the Media Bureau's Office of Communication and Industry Information, 
ignored my inquiry and included a reference to parity between PBS and 
non-PBS television stations, an issue my letter did not address. Later 
research reveals the FCC sent my office was sent an identical form 
letter that also was sent to Rep. Andre Carson (IN-7) and Senator 
Inhofe in May 2013, both of whom addressed the parity between PBS and 
non-PBS stations.
    a. As Chairman, will you and your staff read and appropriately 
respond to inquiries and/or comments from Members of Congress?
    Answer. If confirmed, I will ensure that congressional inquiries 
are treated with due deference. This includes assuring that they are 
responded to in an appropriate manner that addresses the issue raised.

    b. Given the current economic environment, many of these NCE PIO 
television stations remain concerned about the FCC's criteria for 
underwriting announcements and its process for enforcing these rules. 
Do you support offering greater opportunities for these stations to 
engage with the FCC to ensure that they do not violate the rules for 
underwriting announcements, and that the penalties for inadvertent 
violations are not unduly severe?
    Answer. I will need to learn more about this issue before I can 
provide an opinion on this, but I take your point and I will ensure 
that Commission staff works with stakeholders to try to resolve 
concerns they have while recognizing the need to enforce the 
Commission's rules.

    Question 4. I would like to explore your views on the need to 
eliminate regulatory obstacles that are barriers to innovation and to 
the development of new products for the consumer. I think we both can 
agree that the 21st century marketplace has created a vibrant and 
competitive communications and technology sector, and I think we both 
can also agree that in order to fairly and effectively compete in the 
marketplace both established players and new entrants to this space 
rely on transparency and predictability in the Commission's processes.
    As a business leader who has dealt extensively with the FCC in the 
past, are there specific regulations that you can point to as barriers 
to innovation that you wish the FCC had rolled back or eliminated?
    Answer. I know that my predecessor removed more than 300 
regulations during his tenure. I will carry on that work and ensure 
that the Commission's rules are not creating unnecessary obstacles to 
innovation.

    Question 5. The spectrum incentive auction is a first-of-its-kind 
process. If executing the auction was not challenging enough, my 
understanding is that the FCC also faces a number of technical issues 
such as not yet knowing what chunks of spectrum TV broadcasters will 
voluntarily surrender.
    a. I understand a process is in place via the task force the 
Commission has created to work through all these issues, but what 
assurances can you give us that, under your leadership, the Commission 
will meet its stated goal of 2014 for the auction given the 
unprecedented nature of the process and technical challenges?
    Answer. I am committed to meeting the stated goal of an auction in 
2014 if at all possible given the nature of the challenges you have 
noted.

    b. As someone who, until now, has been an ``outsider looking in'' 
at the process, can you share your thoughts on how the process is 
going?
    Answer. I am, at this point, still an outside observer as I am 
precluded from engaging in internal discussions with staff on policy 
decisions, but based on the publicly available information and watching 
the Commission's process, I applaud its level of engagement--conducting 
workshops for broadcasters to promote participation and technical 
workshops with engineers and other stakeholders to try to get as much 
input as possible in implementing this auction. I know this is a robust 
proceeding with lots of public input. I look forward to learning more 
from the inside should the Senate confirm my nomination.

    Question 6. I have heard concerns from my state regarding the 
regulation of high volume auto-dialer initiated voice over Internet 
protocol (VoIP) ``broadcasted'' calls. My understanding is that these 
calls can put 10,000 calls per minute onto Indiana's landline telephone 
network, by using VoIP technology, in an attempt to get around 
Indiana's Do Not Call List. The Commission has, pursuant to its 
authority under the Telephone Consumer Protection Act (TCPA), worked 
with the Federal Trade Commission (FTC) in establishing a national Do-
Not-Call Registry. The registry is nationwide in scope, applies to all 
telemarketers (with the exception of certain non-profit organizations), 
and covers both interstate and intrastate telemarketing calls. Is this 
an issue you're aware of, and if so can you share your views on this 
topic with me?
    Answer. It is my understanding that, to date, the Commission has 
not specifically addressed the application of its TCPA rules when VoIP 
services are used to initiate calls or faxes. However, as Chairman, I 
would look into this issue. Regardless of the technology used, the 
privacy of consumers must not be violated by unlawful calls.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. Ted Cruz to 
                           Thomas E. Wheeler
    Question 1. In our meeting prior to your confirmation hearing, I 
asked you if the FCC has the authority to implement the requirements of 
the failed Congressional DISCLOSE Act through rulemaking-that time, and 
again during your confirmation hearing, you declined to directly answer 
the question, stating that you needed more time.

    a. Now that you have had that time, and time again following the 
hearing, I'd like a specific answer: does the FCC have the authority to 
implement the kind of requirements laid out in the DISCLOSE Act?

    b. When it comes to the issue of regulating political speech, which 
institution do you believe has primary authority in this area--Congress 
or the FCC?

    c. To the extent that you believe the FCC has the legal authority 
to regulate political speech, what statutory provision or provisions 
would you point to as the basis for that authority?

    d. To the extent that you believe the FCC has the legal authority 
to regulate political speech, what principles would guide your 
decisions on when limitations on political speech are justified?

    e. With regard to any potential FCC regulation involving political 
speech, how confident are you that the FCC's involvement in this area 
could be accomplished while preventing the kinds of abuses that we've 
discovered were prevalent at the IRS?

    f. To the extent that you believe that both Congress and the FCC 
have the ability to regulate political speech, how would the FCC, under 
your leadership, proceed with reconciling any differences in approach 
between the two bodies?
    Answer. The Commission has the authority Congress grants it by 
statute and the Commission, in interpreting that authority, must 
respect the First Amendment. The Commission's authority is found in the 
statutes Congress has enacted, principally the Communications Act, as 
amended.
    Congress has delegated to the Commission certain disclosure 
responsibilities related to sponsorship identification (Sec. 317) and 
political disclosure (Sec. 315). These are provisions that have been in 
place since the Commission's inception in 1934 and were previously 
implemented by its predecessor, the Federal Radio Commission, since 
1927. In determining the scope of those provisions, I will be guided by 
the Constitution, especially the First Amendment, Congress' directives 
under the Communications Act, and legal precedent.
    As I mentioned at the hearing, I am mindful of the fact that the 
scope of these disclosure provisions is an area of policymaking tension 
within Congress and in the public at large. If confirmed, I look 
forward to working with you and others on the Committee on all matters 
of the Commission's responsibilities, in order best to achieve the 
shared goals of promoting economic opportunity and investment in the 
dynamic communications sector.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jeff Chiesa to 
                           Thomas E. Wheeler
    Question 1. You have served as an executive of two prominent trade 
associations in DC. In this capacity, you were required to work with 
companies that--at times--may have had varying opinions, and you were 
required to come up with a single industry position and then to 
advocate that position before Congress and the FCC. What lessons will 
you draw upon from your time as an industry executive if confirmed as 
FCC Chairman?
    Answer. Coming to consensus on complex policy issues with a 
multitude of stakeholders who are all very differently situated can be 
a very difficult process. Whether as the head of a trade association or 
a Federal agency, the most important thing an effective leader can do 
is to ensure that all parties have an opportunity to be heard and to 
carefully listen and understand the various perspectives. People and 
organizations need to know that their opinions and arguments are valued 
and thoughtfully considered. While some issues may never lend 
themselves to a solution that everyone can fully support, it is 
essential that no one be excluded from the process and that everyone is 
given a fair opportunity to make their case. At the end of the day, the 
Commission needs to make decisions that are consistent with the law and 
meet clearly articulated policy objectives based on a full and complete 
factual record. My experience has also taught me that making decisions 
affecting multi-billion dollar industries requires a great sense of 
humility and thick skin, qualities I have acquired over the years in 
the communications space. As I noted during my hearing, the FCC is a 
five-member commission and I intend to work closely with my fellow 
commissioners to ensure all viewpoints have been considered in the 
process.

    Question 2. You are someone who has had long-running leadership 
positions in industries that are regulated by the FCC, and you are also 
an amateur historian who has looked at communications throughout the 
last few centuries. This gives you a unique perspective to look at how 
various technologies have disrupted the marketplace and how regulation 
has impacted the ability of new technologies to make their way into the 
hands of consumers and improve the lives of Americans. Does your 
experience teach you that a light-touch regulatory approach is the best 
way to ensure that new technology is not hamstrung by regulatory 
overreach?
    Answer. I believe that whenever possible, the marketplace should 
drive communications provider investment decisions and business 
practices. The Commission must not inject itself unless authorized by 
Congress when necessary to pursue important public policy objectives 
that would not likely be achieved absent Commission action. Current 
technology transitions offer substantial benefits for consumers and 
businesses. At the same time, as an amateur historian, I recognize that 
technology transitions have always been times of trial and dislocation 
for those who relied on the earlier technology. Technology, by itself, 
does not alter the core statutory mission of the FCC which is to 
promote competition, protect consumers, provide universal service, and 
promote public safety. I am committed to ensuring the achievement of 
these core goals regardless of technology platform.

                                  <all>

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.






      
</pre></body></html>
